<html>
<title> - REAUTHORIZATION OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION AND ITS PROGRAMS</title>
<body><pre>[Senate Hearing 108-954]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-954

 
                         REAUTHORIZATION OF THE
    NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION AND ITS PROGRAMS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
81-471                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d1c6d9f6d5c3c5c2ded3dac698d5d9db98">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

   SUBCOMMITTEE ON COMPETITION, FOREIGN COMMERCE, AND INFRASTRUCTURE

                   GORDON H. SMITH, Oregon, Chairman
CONRAD BURNS, Montana                BYRON L. DORGAN, North Dakota, 
SAM BROWNBACK, Kansas                    Ranking
PETER G. FITZGERALD, Illinois        BARBARA BOXER, California
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 22, 2003.....................................     1
Statement of Senator Dorgan......................................    22
Statement of Senator Lautenberg..................................     3
Statement of Senator Smith.......................................     1
    Prepared statement...........................................     2

                               Witnesses

Berman, Richard, Legislative Counsel, American Beverage Licensees 
  and the American Beverage Institute............................    74
    Prepared statement...........................................    76
Gillan, Jacqueline S., Vice President, Advocates for Highway and 
  Auto Safety....................................................    30
    Prepared statement...........................................    32
Guerrero, Peter, Director, Physical Infrastructure Issues, U.S. 
  General Accounting Office......................................    10
    Prepared statement...........................................    12
Hamilton, Wendy J., President, Mothers Against Drunk Driving.....    84
    Prepared statement...........................................    90
Runge, M.D., Hon. Jeffrey, Administrator, National Highway 
  Traffic Safety Administration..................................     4
    Prepared statement...........................................     6
Strassberger, Robert, Vice President, Vehicle Safety, Alliance of 
  Automobile Manufacturers; on behalf of Josephine Cooper, 
  President and Chief Executive Officer..........................    65
    Prepared statement of Josephine Cooper.......................    67
Swanson, Kathryn, Director, Minnesota Office of Traffic Safety 
  and Chair, Governors Highway Association on behalf of the 
  Governors Highway Safety Association (GHSA)....................    53
    Prepared statement...........................................    55

                                Appendix

Comments of Consumers Union......................................    97
Response to written questions submitted to:
    Richard Berman...............................................   123
    Josephine S. Cooper..........................................   121
    Jacqueline S. Gillian........................................   108
    Peter Guerrero...............................................   105
    Wendy Hamilton...............................................   128
    Jeffrey Runge................................................    99
    Kathryn Swanson..............................................   116


                         REAUTHORIZATION OF THE
    NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION AND ITS PROGRAMS

                              ----------                              


                         THURSDAY, MAY 22, 2003

                               U.S. Senate,
Subcommittee on Competition, Foreign Commerce, and 
                                    Infrastructure,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:52 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Gordon H. 
Smith, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Good afternoon, ladies and gentlemen. We 
will call to order this Subcommittee hearing of the Commerce 
Committee. Today our topic will be considering the 
Administration's recently released proposal to reauthorize the 
National Highway Traffic Safety Administration or NHTSA, and 
the safety and motor vehicle programs it administers.
    NHTSA plays a vital role in helping reduce traffic deaths, 
injuries and economic losses resulting from vehicle crashes. 
This reauthorization will afford the Committee an opportunity 
to evaluate the Administration's priorities and develop a sound 
reauthorization proposal for the next 6 years. According to 
NHTSA, 95 percent of all transportation-related deaths and 99 
percent of all transportation-related injuries are the result 
of motor vehicle crashes. It is estimated that in 2002, 42,850 
people were killed in vehicle crashes and roughly 3 million 
people were injured.
    In 2000, the economic costs of these vehicle crashes were 
over $230.6 billion. This is a staggering amount and yet, one 
cannot compare the enormous personal loss of that amount to the 
pain and suffering experienced by those people involved in the 
accidents.
    We must carefully evaluate the Administration's 
reauthorization proposal known as, this year, SAFETEA and work 
to ensure that the Senate develops a sound and balanced 
proposal. In particular, I'm going to work to ensure that we do 
not pass legislation that would create an imbalance whereby 
states that have taken aggressive action in the areas of seat 
belts and impaired driving would subsequently be penalized for 
the sake of providing more funding assistance to those states 
that have not taken similar actions. We need to build upon the 
success of existing programs, and while it's important to 
assist those states with the greatest safety problems, we 
should also continue to support all states in their efforts to 
further their highway safety.
    I am deeply concerned about the rise in traffic-related 
fatalities last year and the number of potential deaths that 
could have been prevented if the occupants were wearing seat 
belts. Of the 42,850 people killed last year on our highways, 
59 percent of them were not wearing seat belts.
    I'm proud of my state, the state of Oregon, for having 
already passed a primary seat belt law in 1990, and it is now 
one of the Nation's leaders in seat belt usage at approximately 
90 percent. It's estimated that if the United States as a whole 
could increase its seat belt usage from its current 75 percent 
to 90 percent, over 4,000 lives would be saved each year.
    Later this year, I'm going to introduce legislation that 
would implement a Federal primary seat belt law and encourage 
drivers to ``Click It or Ticket.'' This legislation will 
prevent thousands of traffic-related deaths and injuries each 
year. I would be interested in the comments that any of our 
witnesses today might have about a Federal primary seat belt 
law.
    The Commerce Committee intends to move quickly in the 
coming weeks to develop and report legislation to authorize 
NHTSA and other safety programs under its jurisdiction. I look 
forward to working closely with the other Members to develop a 
reauthorization proposal that will promote and strengthen 
highway safety initiatives. In that effort we will be very 
interested in hearing the views of all of our witnesses, and we 
are privileged to be joined by my colleague Senator Lautenberg.
    [The prepared statement of Senator Smith follows:]

  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator from Oregon

    Good afternoon. Today, the Subcommittee meets to consider the 
Administration's recently released proposal to reauthorize the National 
Highway Traffic Safety Administration (NHTSA) and the safety and motor 
vehicle programs it administers. NHTSA plays a vital role in helping to 
reduce deaths, injuries, and economic losses resulting from motor 
vehicle crashes. This reauthorization process will afford the Committee 
an opportunity to evaluate the Administration's priorities and develop 
a sound reauthorization proposal for the next six years.
    According to NHTSA, 95 percent of all transportation related 
deaths, and 99 percent of all transportation related injuries, are the 
result of motor vehicle crashes. In 2002, 42,850 people were killed in 
vehicle crashes and approximately 3 million people suffered injuries. 
In 2000, the economic costs related to vehicle crashes was over $230.6 
billion. This is a staggering amount, yet one that cannot compare to 
the enormous personal and psychological suffering experienced by 
persons involved.
    We must carefully evaluate the Administration's reauthorization 
proposal, known as ``SAFETEA,'' and work to ensure that the Senate 
develops a sound and balanced proposal. Our evaluation should carefully 
consider how any proposed restructuring of the existing NHTSA grant 
programs would affect the states' ability to promote highway safety. In 
particular, I will work to ensure that we do not pass legislation that 
would create an imbalance whereby states that have taken aggressive 
action in the area of seatbelts and impaired driving would subsequently 
be penalized for the sake of providing more funding assistance to those 
states that have not taken similar actions. We need to build upon the 
success of existing programs, and while it is important to assist those 
states with the greatest safety problems, we also should continue to 
support all states in their efforts to promote highway safety.
    Finally, I want to briefly discuss the Committee's continued 
concerns about vehicle rollover and compatibility. These are also 
issues that Administrator Runge has indicated are of great concern to 
the Administration. Yet, I understand that the SAFETEA proposal 
contains no new rulemaking initiatives in this area. I want to learn 
what specifically NHTSA is doing to address these problems.
    The Commerce Committee intends to will move quickly in the coming 
weeks to develop and report legislation to authorize NHTSA and other 
safety programs under its jurisdiction. I look forward to working 
closely with the other members to develop a reauthorization proposal 
that will promote and strengthen highway safety initiatives. In that 
effort, we will be very interested in hearing the views of today's 
witnesses.

    Senator Smith. Senator Lautenberg, do you have an opening 
statement?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. I do, Mr. Chairman, and I will try not 
to be too long. I'm glad to see our witnesses here, people with 
knowledge and interests, and I have long been interested in 
making our roads and highways safer. During my previous three 
terms, that was before I became a freshman, I wrote the bills 
now law to, one, increase the drinking age from 18 to 21; to 
establish .08 as the blood alcohol standard for drunk driving; 
and, three, to ban triple trailer trucks from most of our 
roads. These laws have made our roads and highways safer and my 
hope is that they've saved a few lives as well.
    Last year, almost 43,000 people died in traffic accidents, 
and it's not SARS or a military conflict, but this is an 
epidemic that we have a cure for and a war we know how to 
fight. We need to ask ourselves if we're doing enough to 
prevent innocent lives from being lost on our highways.
    The Administration's safety proposal has just $50 million 
out of more than $38 billion for Fiscal Year 2004, and it has 
$50 million dedicated to impaired driving control programs. Now 
that's less than current funding, and I'm sure we will hear 
about how under the Administration's proposal states will be 
able to flex their funding to spend it on whatever they choose, 
be it roadway improvements or behavioral safety programs.
    But a recent GAO study found that when given the choice, 
states prefer to spend money on infrastructure improvements 
rather than behavioral safety programs like those designed to 
increase seat belt use and to reduce drunk driving. The highway 
construction lobby is much more powerful in State capitals than 
safety advocates. The Federal Government needs to take a strong 
leadership role on highway safety issues. If we leave it up to 
the states on these issues, then here's the result.
    Thirty-two states still don't have a primary enforcement 
seat belt law. Eleven states still have not adopted the .08 
percent blood alcohol content standard. Twenty-four states 
still don't have an open container law. Twenty-seven states 
still don't have a repeat offender law. This tells me that the 
states need stronger encouragement to address these important 
safety issues. We've already tried threatening withholding 
highway construction funds but if we give them a loophole to 
get the funds back within 4 years, maybe it still isn't enough 
encouragement.
    This week Senator DeWine and I introduced legislation aimed 
at increasing enforcement of drunk driving strategies that work 
to reduce drunk driving and legislation targeting higher risk 
drivers, that is, repeat offenders and drivers with blood 
alcohol levels of .15 percent or higher.
    Policies like state adoption of an .08 BAC standard, blood 
alcohol standard, and open container laws are designed to pick 
the low-hanging fruit when it comes to reducing drunk driving, 
but now it's time to take the next step in getting drunk 
drivers off our roads. I look forward to working with my 
colleagues here on the Commerce Committee to get such 
provisions incorporated into our segment of the reauthorization 
bill that makes its way to the Senate floor. I look forward to 
hearing from our witnesses today on these important issues and 
I thank you, Mr. Chairman, for the opportunity to make the 
statement.
    Senator Smith. Thank you, Senator Lautenberg.
    We are privileged to have as our first panel the Honorable 
Jeffrey Runge, and he is the Administrator of the National 
Highway Traffic Safety Administration; and Mr. Peter Guerrero, 
Director of Physical Infrastructure Team, General Accounting 
Office. Doctor.

STATEMENT OF HON. JEFFREY RUNGE, M.D., ADMINISTRATOR, NATIONAL 
             HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Dr. Runge. Thank you, Mr. Chairman. My written statement is 
submitted for the record, and I would like to just highlight 
it, if I may.
    We appreciate the opportunity on behalf of NHTSA and the 
DOT to come today to discuss our proposal to reauthorize 
highway safety programs via SAFETEA. You, Mr. Chairman, said 
very well why it is that we are here, and that is the 42,850 
people who died last year, and over 41,000 who died in every 
subsequent year before that, which is really the equivalent of 
losing a city the size of Chapel Hill or Rockville, Maryland 
every year, being wiped off the face of the Earth. And yet 
because these fatalities are spread out, we don't have nearly 
the degree of anger, of the need for urgency that we certainly 
should.
    We did see some improvement the last 2 years in the number 
of injuries, which we believe is due to more people buckling up 
and driving safer vehicles. But in spite of that, motor vehicle 
crashes remain the leading cause of death in our country for 
every age group from age 2 to age 33 and as you mentioned, the 
economic cost is crippling. You said $230 billion per year, 
which adds up to $820 for every man, woman and child living in 
our country. This includes $33 billion in medical expenses, and 
$81 billion in lost productivity. Those two numbers could be 
reduced dramatically by increasing safety belt usage. The 
average cost for a critically injured survivor is $1.1 million 
over the lifetime.
    So for these reasons, President Bush and Secretary Mineta 
have made reducing highway deaths the number one priority of 
the Department of Transportation, and formulating our 
reauthorization proposal, indeed, named SAFETEA. The Secretary 
has given the FMCSA and the Federal Highway Administration a 
single goal, to reduce motor vehicle fatality rate by a third 
over the next 5 years.
    We know what works. There are highly effective and simple 
remedies to combat highway death and injury. Wearing safety 
belts is number one. Everybody can cut their risk of death in 
half if they would simply do so. So to encourage more people to 
buckle up, we propose a new program that will provide $100 
million each year to reward states for enacting primary safety 
belt laws, and to provide an incentive to other states to 
follow their lead.
    Alternatively, states that opt not to enact a primary 
safety belt law but that achieve a safety belts usage rate of 
90 percent would also qualify for those additional grant funds.
    We also propose to streamline our Section 402 safety 
programs. Two important elements are the safety belt use grant, 
which complements the primary law enactment grant. So it would 
reward states for improving their safety belt use rates, i.e., 
an enforcement grant program. And second, a general performance 
grant which rewards states that show demonstrable improvement 
in the following areas of overall motor vehicle fatalities, 
alcohol-related fatalities, and motorcycle, bicycle and 
pedestrian crash fatalities, which should address your issue of 
states that are doing well receiving additional funding.
    Our proposal will also offer states more flexibility in how 
they spend their Federal highway safety dollars and yet, they 
will be held accountable for achieving measurable safety-
related goals.
    SAFETEA addresses discouragement of impaired driving by 
targeting our resources where they are most needed. In 2002, we 
estimate 17,970 people died in alcohol-related crashes, which 
is over 40 percent of total fatalities for the year, and 
indeed, an increase of 3 percent over 2001. The progress that 
we have made in the last decade to deter impaired driving has 
been stalled, and clearly more needs to be done.
    The key component of the revised 402 program focuses on a 
small number of states with a particularly severe impaired 
driving problem, by creating a $50-million-a-year impaired 
driving discretionary grant program per year that will support 
states with high fatality numbers and rates to assist them in 
developing a strategic plan for reducing impaired driving 
fatalities, as well as supporting improvements in the 
prosecution and adjudication of DWI cases. We believe that this 
consolidated grant program and supporting activities, together 
with continued use of nationwide high visibility enforcement 
campaigns will restart the downward trend in alcohol fatalities 
that we have seen since 1988.
    In addition, through the comprehensive safety planning 
process states may elect to use a significant amount of the 
consolidated Section 402 money for impaired driving programs. 
Aside from the consolidation of these programs, SAFETEA also 
includes other provisions such as funds to update a national 
comprehensive motor vehicle crash causation survey that will 
enable us to learn more about the factors that happen before 
the crash on the Nation's roads, a new incentive program to 
encourage states to improve their traffic records data so they 
can apply those resources where they are most needed, and a new 
State formula grant program to support E-911 and the 
coordination of emergency medical systems.
    Finally, SAFETEA would reauthorize a national driver 
register. The NDR facilitates the exchange of driver licensing 
information on problem drivers among the states and various 
Federal agencies to aid in identifying those problem drivers 
and in making decisions concerning driver's licensing, driver 
employment, and transportation safety.
    Mr. Chairman, our portion of the SAFETEA builds upon the 
principles, values and achievements of ISTEA and TEA-21, yet 
recognizes that there are new challenges. We urge Congress to 
authorize the highway safety programs before they expire on 
September 30, and we look forward to working with you and the 
Committee on this task. Thank you.
    [The prepared statement of Dr. Runge follows:]

Prepared Statement of Hon. Jeffrey Runge, M.D., Administrator, National 
                 Highway Traffic Safety Administration

    Chairman Smith, Senator Dorgan, Members of the Subcommittee, thank 
you for the opportunity to appear before you today to discuss the 
Administration's proposal to reauthorize our highway safety programs in 
the ``Safe, Accountable, Flexible and Efficient Transportation Equity 
Act of 2003'' or ``SAFETEA.''
    Through your leadership, and in conjunction with our state, local 
and private sector partners, NHTSA has worked to realize the goals of 
TEA-21. We are grateful to this Subcommittee for its continuing 
leadership by scheduling this hearing. My staff and I look forward to 
working with you and the rest of Congress in shaping the proposals that 
will reauthorize TEA-21. Working together, we will assure the 
successful reauthorization of this legislation and address the highway 
safety challenges facing the Nation.
    Motor vehicle crashes are responsible for 95 percent of all 
transportation-related deaths and 99 percent of all transportation-
related injuries. They are the leading cause of death for Americans 
ages 1 to 34. NHTSA's portion of SAFETEA focuses exclusively on highway 
safety. Although we are seeing improvements in vehicle crash worthiness 
and crash avoidance technologies, the rate and numbers of fatalities 
and injuries on our highways are staggering. In 2002, an estimated 
42,850 people were killed in motor vehicle crashes, up slightly from 
42,116 in 2001.
    Traffic injuries in police-reported crashes decreased by 4 percent 
in 2002. While this is encouraging, we still are faced with the 
overwhelming fact that nearly 3 million people were injured in these 
crashes in 2002.
    The economic costs associated with these crashes are unacceptable 
as well. In fact, they constitute a grave public health problem and 
serious fiscal burden for our Nation. The total annual economic cost to 
our economy of all motor vehicle crashes is an astonishing $230.6 
billion in 2000 dollars, or 2.3 percent of the U.S. gross domestic 
product. This translates into an average of $820 for every person 
living in the United States. Included in this figure is $81 billion in 
lost productivity, $32.6 billion in medical expenses, and $59 billion 
in property damage. The average cost for a critically injured survivor 
is estimated at $1.1 million over a lifetime. As astounding as this 
figure is, it does not even begin to reflect the physical and 
psychological suffering of the victims and their families.
    The fatality rate for 100 million vehicle miles traveled (VMT) 
remained unchanged at 1.51, according to these estimates. Secretary 
Mineta has given us the goal of reducing the fatality rate to no more 
than 1.0 fatality for every 100 VMT by 2008. This is not just a NHTSA 
goal; it is a goal of the entire Department of Transportation.
    For these reasons, President Bush and Secretary Mineta have made 
reducing highway fatalities the number one priority for the Department 
and for the reauthorization of TEA-21.
    Traffic safety constitutes a major public health problem, but 
unlike a number of the complex issues facing Washington today, we have 
some highly effective and simple remedies to combat highway death and 
injury.
    Wearing safety belts is the number one offensive and defensive step 
all individuals can take to save their lives. Buckling belts is not a 
complex vaccine, doesn't have unwanted side effects and doesn't cost 
any money. It is simple, it works and it's lifesaving.
    Safety belt use cuts the risk of death in a severe crash in half. 
Most passenger vehicle occupants killed in motor vehicle crashes 
continue to be totally unrestrained. If safety belt use were to 
increase from the national average of 75 percent to 90 percent--an 
achievable goal--nearly 4,000 lives would be saved each year. For every 
1 percentage point increase in safety belt use--that is 2.8 million 
more people ``buckling up''--we would save hundreds of lives, suffer 
significantly fewer injuries, and reduce economic costs by hundreds of 
millions of dollars a year.
    In addition to the economic obligation, more importantly, we have a 
moral obligation to immediately address the problem of highway safety. 
The Bush Administration remains committed to reducing highway 
fatalities, and our bill offers proposals to increase safety belt use 
and to take those and other actions that can make the achievement of 
this goal possible.
    Thanks in large part to the hard work of many of you and your 
predecessors, SAFETEA builds on the tremendous successes of the 
previous two pieces of surface transportation legislation. Both the 
Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA), a 
bill with which the Secretary is proud to have played a role, and TEA-
21, provided an excellent framework to tackle the surface 
transportation challenges that lie ahead.
    ISTEA set forth a new vision for the implementation of the Nation's 
surface transportation programs. Among other things, ISTEA gave state 
and local officials unprecedented flexibility to advance their own 
goals for transportation capital investment. Instead of directing 
outcomes from Washington, D.C., the Department shifted more of its 
focus to giving state and local partners the necessary tools to solve 
their unique problems while still pursuing important national goals. 
SAFETEA not only maintains this fundamental ISTEA principle, it goes 
further by giving states and localities even more discretion in key 
program areas. To meet the significant highway safety challenges the 
states face, we have designed SAFETEA's highway safety title to create 
a safer, simpler and smarter program.
    President Bush and this Administration are committed to fostering 
the safest, most secure national transportation system possible, even 
as we seek to enhance mobility, reduce congestion, and expand our 
economy. These are not incompatible goals. Indeed, it is essential that 
the Nation's transportation system be both safe and secure while making 
our economy both more efficient and productive.
    While formulating the Department's reauthorization proposal, the 
Federal Highway Administration (FHWA) and NHTSA came together on a 
different approach to addressing the Nation's substantial highway 
safety problems. Under that approach, states would receive more 
resources to address their own, unique transportation safety issues; 
would be strongly encouraged to increase their overall safety belt 
usage rates; and would be rewarded for performance with increased funds 
and greater flexibility to spend those funds on either infrastructure 
safety or behavioral safety programs. The following are the major 
programmatic elements of the Administration's highway safety 
reauthorization proposal.
    SAFETEA establishes a new core highway safety infrastructure 
program, in place of the existing Surface Transportation Program safety 
set-aside. This new program, called the Highway Safety Improvement 
Program, will more than double funding over comparable TEA-21 levels. 
This new program would provide $7.5 billion for safety projects over 
the 6-year authorization period. In addition to increased funding, 
states would be encouraged and assisted in their efforts to formulate 
comprehensive highway safety plans.
    To streamline NHTSA's grant programs and make them more 
performance-based, we have proposed a major consolidation of NHTSA's 
Section 402 safety programs. While the basic formula grant program for 
Section 402 would provide $1.05 billion over the 6-year authorization 
period, two important elements of this revised Section 402 are a 
General Performance Grant and a Safety Belt Performance Grant. The 
Safety Belt Performance Grant provides up to $100 million each year to 
reward states for passing primary safety belt laws--meaning drivers and 
passengers can be cited for failure to wear a safety belt--or achieving 
90 percent safety belt usage rates in their states. A state that enacts 
new primary belt laws will receive a grant equal to five times the 
amount of its current formula grant for highway safety. This 
significant incentive is intended to prompt state action needed to save 
lives. In 2002, states with primary safety belt laws averaged 80 
percent use, 11 percentage points higher than those with secondary 
laws--laws preventing police from issuing a citation unless another 
traffic law was broken. states achieve high levels of belt use through 
primary safety belt laws, public education using paid and earned media, 
and high visibility law enforcement programs, such as the Click it or 
Ticket campaign.
    Any state that receives a Safety Belt Performance Grant for the 
enactment of a primary safety belt law is permitted to use up to 100 
percent of those funds for infrastructure investments eligible under 
the Highway Safety Improvement Program in accordance with the state's 
comprehensive plan. Also, states can receive additional grants by 
improving their safety belt use rates. This incentive would provide 
$182 million over the 6-year authorization period. Any state that 
receives a grant for improved safety belt usage rates or a General 
Performance Grant for the achievement of other key safety performance 
measures is permitted to use up to 50 percent of those funds for 
activities eligible under the new Highway Safety Improvement Program.
    Overall, this groundbreaking proposal offers states more 
flexibility than they have ever had before in how they spend their 
Federal-aid safety dollars. It reduces state administrative burdens by 
consolidating multiple categorical grant programs into one. It would 
reward them for accomplishing easily measurable goals and encourage 
them to take the most effective steps to save lives. It is exactly the 
kind of proposal that is needed to more effectively address the tragic 
problem of highway fatalities.
    The $340 million, six-year General Performance Grant component of 
our revised Section 402 program not only eases the administrative 
burdens of the states but also rewards states with increased Federal 
funds for measurable improvements in their safety performance for 
reducing (i) overall motor vehicle fatalities, (ii) alcohol-related 
fatalities, and (iii) motorcycle, bicycle, and pedestrian crash 
fatalities.
    SAFETEA is designed to help the states deter impaired driving. 
Encouraging people to wear their safety belts will help reduce the 
number of deaths and injuries attributed to impaired driving, but 
reducing the actual number of impaired drivers is a complex issue 
requiring interconnected strategies and programs. In 2002, an estimated 
17,970 people died in alcohol-related crashes (42 percent of the total 
fatalities for the year), a 25 percent reduction from the 23,833 
alcohol-related fatalities in 1988, but an increase of 3 percent over 
2001. Intoxication rates have decreased for drivers of all age groups 
involved in fatal crashes over the past decade, with drivers 25 to 34 
years old experiencing the greatest decrease, followed by drivers 16 to 
20 years old. Our 2002 estimates indicate that impaired-related 
fatalities rose for the third straight year.
    Additionally, the President's National Drug Control Strategy 
recognizes drug-impaired driving as both a problem and, in its 
reduction, an opportunity. As a problem, we believe that drug-impaired 
driving, either alone or in combination with alcohol, accounts for 10-
20 percent of crash-involved drivers. Detecting drug-impaired driving 
gives police officers, prosecutors and judges the opportunity to 
appropriately sanction offenders and refer them to treatment as 
appropriate, which is an important objective of the President. NHTSA 
contributes to this Presidential objective principally through the drug 
evaluation and classification (DEC) program, which was recognized in 
the President's National Drug Control Strategy for the first time in 
2003. By giving traffic officers and prosecutors the tools to better 
identify drug use in vehicle drivers, the DEC program meets two 
important objectives of the administration: reducing traffic fatalities 
and injuries and reducing drug use. This reauthorization bill allows 
our agency to continue working towards these objectives by supporting 
this important program and reducing the incidence of both alcohol and 
drug-impaired driving.
    Another component of our revised Section 402 program will focus 
significant resources on a small number of states with particularly 
severe impaired driving problems by creating a new $50 million a year 
impaired driving discretionary grant program. The grant program will 
include support for up to 10 states with especially high alcohol 
fatality numbers or rates to conduct detailed reviews of their impaired 
driving systems by a team of outside experts and assist them in 
developing a strategic plan for improving programs, processes, and 
reducing impaired driving-related fatalities and injuries. Additional 
support will also be provided for training, technical assistance in the 
prosecution and adjudication of DWI cases, and to help licensing and 
criminal justice authorities close legal loopholes.
    NHTSA believes that this targeted state grant program and 
supporting activities, together with continued nationwide use of high-
visibility enforcement and paid and earned media campaigns, will lead 
to a resumption of the downward trend in alcohol-related fatalities 
that the Nation experienced over the past decade. Also, through the 
comprehensive safety planning process, all states may elect to use a 
significant amount of their FHWA Highway Safety Infrastructure funding, 
in addition to their consolidated Section 402 funds, for impaired 
driving.
    In addition to the consolidation of our Section 402 programs, 
SAFETEA's highway safety title includes a key provision to provide a 
comprehensive national motor vehicle crash causation survey that will 
enable us to determine the factors responsible for the most frequent 
causes of crashes on the Nation's roads. This comprehensive survey 
would be funded at $10 million a year out of the funds authorized for 
our highway safety research and development program. The last update of 
crash causation data was generated comprehensively in the 1970s. 
Vehicle design, traffic patterns, numbers and types of vehicles in use, 
on-board technologies and lifestyles have changed dramatically in the 
last 30 years. Old assumptions about the causes of crashes may no 
longer be valid. Since NHTSA depends on causation data to form the 
basis for its priorities, we must ensure that this data is current and 
accurate. Updating our crash causation data will allow us to target our 
efforts for the next decade on the factors that are the most frequent 
causes of crashes on American roads.
    NHTSA has in place an infrastructure of investigation teams that 
will enable us to perform the crash causation study efficiently and 
accurately. These teams are currently performing a similar study for 
large, commercial truck crashes and are adept at gathering evidence 
from the scene, the hospital, and from victim and witness interviews. 
Their findings will guide the agency's programs in crash avoidance, 
including vehicle technologies as well as human factors.
    SAFETEA also creates a new $300 million incentive grant program 
that builds upon a TEA-21 program to encourage states to improve their 
traffic records data. Deficiencies in such data negatively impact 
national databases including the Fatality Analysis Reporting System, 
General Estimates System, National Driver Register (NDR), Highway 
Safety Information System, and Commercial Driver License Information 
System as well as state data used to identify local safety problems. 
Improvements are needed for police reports, emergency medical services 
(EMS), driver licensing, vehicle registration, and citation/court data 
provide essential information. Accurate state traffic safety data are 
critical to identifying local safety issues, applying focused safety 
countermeasures, and evaluating the effectiveness of countermeasures.
    SAFETEA also establishes a new $60 million state formula grant 
program to support EMS systems development, 911 systems nationwide, and 
a Federal Interagency Committee on EMS to strengthen intergovernmental 
coordination of EMS. The states would administer the grant program 
through their state EMS offices and coordinate it with their highway 
safety offices.
    For the past 20 years, Federal support for EMS has been both scarce 
and uncoordinated. As a result, the capacity of this critical public 
service has seen little growth and support for EMS has been spread 
among a number of agencies throughout the Federal government, including 
NHTSA. Most of the support offered by these agencies has focused only 
on specific system functions, rather than on overall system capacity, 
and has been inconsistent and ineffectively coordinated.
    In 2001, the General Accounting Office cited in its report, 
``Emergency Medical Response: Reported Needs Are Wide-Ranging, With 
Lack of Data A Growing Concern,'' the need to increase coordination 
among Federal agencies as they address the needs of regional, state, or 
local EMS systems. According to GAO, these needs, including personnel, 
training, equipment, and more emergency personnel in the field, vary 
between urban and rural communities.
    The Administration believes that Federal support for EMS and 9-1-1 
systems should be enhanced and coordinated. The enactment of this 
section would result in comprehensive system support for EMS, 9-1-1 
systems, and improved emergency response capacity nationwide.
    SAFETEA also would provide $559.5 million for NHTSA's highway 
safety research and development program. This program supports state 
highway safety behavioral programs and activities by developing and 
demonstrating innovative safety countermeasures, and by collecting and 
disseminating essential data on highway safety. The results of our 
Section 403 research provide the scientific basis for highway safety 
programs that states and local communities can tailor to their own 
needs, ensuring that precious tax dollars are spent only on programs 
that are effective. The states are encouraged to use the successful 
programs for their ongoing safety programs and activities.
    Highway safety behavioral research focuses on human factors that 
influence driver and pedestrian behavior and on environmental 
conditions affecting safety. The program addresses a wide range of 
safety problems through various programs, initiatives, and 
demonstrations, such as: impaired driving programs, including the drug 
evaluation and classification program, safety belt and child safety 
seat programs and related enforcement mobilizations, pedestrian, 
bicycle, and motorcycle safety initiatives and related law enforcement 
strategies, enforcement and justice services, speed management, 
aggressive driving countermeasures, EMS, fatigue and inattention 
countermeasures, and data collection and analysis efforts. All of these 
efforts have produced a variety of scientifically sound data and 
results.
    SAFETEA provides specific set-asides out of Section 403 funds for 
the National Motor Vehicle Crash Causation Survey, discussed earlier, 
and for EMS and international highway safety activities.
    Finally, SAFETEA would provide $23.6 million for the NDR. The NDR 
facilitates the exchange of driver licensing information on problem 
drivers among the states and various Federal agencies to aid in making 
decisions concerning driver licensing, driver improvement, and driver 
employment and transportation safety.
    Mr. Chairman, NHTSA's portion of SAFETEA builds upon the 
principles, values, and achievements of ISTEA and TEA-21, yet 
recognizes that there are new challenges to address. We urge Congress 
to reauthorize the highway safety programs before they expire on 
September 30, 2003. I would be pleased to answer any questions.

    Senator Smith. Thank you. Mr. Guerrero.

             STATEMENT OF PETER GUERRERO, DIRECTOR,

                PHYSICAL INFRASTRUCTURE ISSUES,

                 U.S. GENERAL ACCOUNTING OFFICE

    Mr. Guerrero. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Lautenberg, I am going to again, as Dr. Runge did, summarize my 
statement that has been submitted for the record.
    I appreciate the opportunity to be here to testify today on 
NHTSA's efforts to reduce traffic fatalities and discuss 
SAFETEA. Highway safety, as you heard from Dr. Runge, is a 
major concern. One person dies every 12 minutes on our highways 
and as Dr. Runge said, it is the leading cause of death for 
every age from 4 to 33 years. It not only involves a tragic 
loss of life, but it's a cost to us in economic terms that is 
substantial, as you noted, Mr. Chairman.
    In 1998 under ISTEA, under TEA-21, the Congress funded a 
series of highway safety programs to encourage, among other 
things, the use of seat belts and to reduce drunk driving. The 
states implement these programs by establishing goals and NHTSA 
reviews the State goals and provides oversight to the State 
programs to ensure that they make progress.
    My testimony today will discuss three matters: the factors 
that contribute to accidents on our highways; the funding of 
these safety programs; and NHTSA's oversight of those programs.
    In summary, we found three things. First, many factors 
combine to produce circumstances that lead to motor vehicle 
crashes. There's usually not one cause. There are three factors 
generically: human factors, roadway factors and vehicle 
factors, and human factors by far are the largest component and 
contributing factor to highway accidents.
    Second, we spent about $2 billion in State grants over the 
last 5 years under TEA-21 to improve highway safety. Overall 
funding for NHTSA behavioral programs nearly doubled from 
Fiscal Years 1998 to 2002, as shown by this chart. In addition, 
the chart also shows that almost $400 million in incentive 
funds and penalty transfers were used for highway safety 
construction purposes.
    Our third finding is that NHTSA oversight of State programs 
can be enhanced. We found that two important oversight tools 
available to NHTSA called management reviews and improvement 
plans are not being used as effectively as they could be to 
ensure that states are both operating within grant guidelines 
and achieving safety goals.
    Now I would like to provide some perspective on the 
progress that has been made in improving highway safety and in 
reducing traffic fatalities.
    If you go back to the mid-1970s, it's clear that we have 
made considerable progress and this chart shows that. From 1975 
to 2002, annual fatalities decreased by about 4 percent. 
However, after reaching a low in 1992, highway fatalities have 
been edging up ever since. During the same period, fatalities 
adjusted for the increased number of miles traveled, or the 
fatality rate per 100 million vehicle miles, dropped from 3.35 
in 1975 to 1.51 in 2002, or about 55 percent. However, we have 
not seen significant declines in this rate over the last couple 
of years.
    Alcohol-related crashes present even a more challenging 
picture. They account for a large portion of traffic 
fatalities. Between 1982, when NHTSA first began tracking 
alcohol-related fatalities, and this past year, 2002, about 
430,000 people died in alcohol-related crashes. Today, it 
contributes to 40 percent of all highway fatalities. As the 
chart shows, we have not made much progress in reducing the 
alcohol-related fatality rate since the late 1990s.
    The progress we have made over the past quarter-century is 
attributable to many actions. For example, during this period, 
seat belt use rates grew from 14 percent to over 75 percent 
today. In addition, NHTSA told us that increased enforcement 
and public awareness of the dangers of drinking and driving 
have reduced the incidents of casual drinkers becoming traffic 
fatalities. However, both NHTSA and the states acknowledge that 
making further progress would be more challenging.
    Now I would like to discuss the various factors that 
contribute to motor vehicle crashes. As I mentioned earlier, 
it's usually a multiple combination of factors that produce the 
motor vehicle crash, it is rarely a single cause, and human 
factors are generally seen as the most significant. Alcohol 
consumption and speeding are the two major human behavioral 
factors contributing to vehicle crashes today.
    It is illegal in every state and the District of Columbia 
to drive a motor vehicle while under the influence or impaired 
by alcohol or drugs. In addition, all states but Massachusetts 
have blood alcohol laws that make it illegal to drive with a 
specified level of alcohol in the blood. As of January 2003, 17 
states have set the blood alcohol level at a standard of 0.1 
percent alcohol and the remaining states have set a more 
stringent standard of .08 percent alcohol concentration in the 
blood.
    I would like to note that continued progress toward the 
adoption of the .08 standard is important since blood alcohol 
concentrations of .08 or greater were reported in about 87 
percent of the alcohol-related fatalities last year.
    The roadway environment, those factors external to the 
driver and the vehicle that increase the risk of a crash, is 
generally considered the second most prevalent factor 
contributing to crashes.
    And finally, data and study generally show, and experts 
believe that vehicle factors, the third cause of accidents, 
contribute less often than do human or roadway. However, recent 
changes in the composition of the Nation's vehicle fleet to 
more light trucks and SUVs have focused attention to the 
dangers posed by these vehicles to their own occupants and 
those of other vehicles.
    For example, rollover crashes are especially serious 
because they are more likely to result in fatalities. Passenger 
cars were the vehicle type least likely to roll over in a 
crash, where SUVs were over three times more likely to roll 
over. And the fatalities that occur in SUV rollovers is twice 
as high as the proportion of passenger cars.
    Mr. Chairman, seeing that my time has expired, I would like 
to just note that we did recommend to NHTSA certain things that 
they could do to enhance their oversight of State programs. We 
believe it's important for them to use two tools at their 
disposal. One is called a management review, the other is 
called a State improvement plan. We noted in our work that 
since 1998, only 7 improvement plans have been developed, and 
we found that highway safety performance in a number of states 
was worse than that in other states that had plans, yet those 
states that had poorer performance did not have plans for 
improvement. In particular, one state that did not have an 
improvement plan had experienced an alcohol-related increase of 
over 40 percent, putting it at double the Nation's average.
    We recommended that NHTSA provide more specific guidance to 
its regional offices as to when to use these plans to ensure 
greater consistency in its oversight, and NHTSA is taking 
action to implement our recommendations. Thank you.
    [The prepared statement of Mr. Guerrero follows:]

Prepared Statement of Peter Guerrero, Director, Physical Infrastructure 
                 Issues, U.S. General Accounting Office

Highway Safety: Factors Contributing to Traffic Crashes and NHTSA's 
        Efforts to Address Them
    Mr. Chairman and Members of the Committee:

    We appreciate the opportunity to testify today on the National 
HighwayTraffic Safety Administration's (NHTSA) efforts to reduce 
traffic fatalities. Highway safety is a major concern for the country, 
given that over 1.2 million people have died on our roadways over the 
last 25 years. Since 1982, about 40 percent of traffic deaths were from 
alcohol-related crashes, and traffic crashes are the leading cause of 
death for people ages 4 through 33. In addition to the tragic loss of 
life, the economic cost of fatalities and injuries from crashes totaled 
almost $231 billion in 2000 alone, according to NHTSA.
    In 1998, the Transportation Equity Act for the 21st Century (TEA-
21) funded a series of highway safety programs, administered by NHTSA, 
that increased funding to the states to encourage, among other things, 
the use of seat belts and child passenger seats and to prevent drinking 
and driving. The states implement these programs by establishing 
highway safety goals and initiating projects to help reach those goals. 
NHTSA reviews state goals and provides oversight of state highway 
safety programs.
    My testimony today will discuss (1) the factors that contribute 
totraffic crashes, (2) the funds provided to the states for highway 
safety programs, and (3) NHTSA's guidance provided to states and 
oversight of the states' programs. My statement is primarily based on 
two GAO reports on these topics. The first report, issued in March 
2003, dealt with the factors that contribute to traffic crashes. \1\ To 
complete that effort, we analyzed three Department of Transportation 
databases that contained data through 2001; interviewed experts from 
academia, insurance organizations, and advocacy groups as well as 
department officials; and reviewed studies on various aspects of motor 
vehicle crashes. In addition, NHTSA recently released 2002 traffic 
fatality data, which we used to update some of the information 
contained in the April 2003 report for this testimony. The second 
report, which we are releasing today, provides information on TEA-21 
funds for state highway safety programs, how the states have used those 
funds, and NHTSA's oversight of the state programs. \2\ To conduct this 
effort, we visited six states and the NHTSA regional offices 
responsible for them to determine how these states were using the funds 
and to review NHTSA's oversight of the states' programs. We also 
interviewed representatives of the Governors Highway Safety Association 
and other highway safety organizations to obtain their perspectives.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Highway Safety: Research 
Continues on a Variety of Factors That Contribute to Motor Vehicle 
Crashes, GAO-03-436 (Washington, D.C.: Mar. 31, 2003).
    \2\ U.S. General Accounting Office, Highway Safety: Better Guidance 
Could Improve Oversight of State Highway Safety Programs, GAO-03-474 
(Washington, D.C.: Apr. 21, 2003).
---------------------------------------------------------------------------
    In summary:

  <bullet> Many factors combine to produce circumstances that may lead 
        to a motor vehicle crash--there is rarely a single cause of 
        such an event. Experts and studies have identified three 
        categories of factors that contribute to crashes--human 
        factors, roadway environment factors, and vehicle factors. 
        Human factors involve the actions taken by or the condition of 
        the driver of the automobile, including speeding, being 
        affected by alcohol or drugs, violating traffic laws, 
        inattention, decision errors, and age. Roadway environment 
        factors include the design of the roadway, roadside hazards, 
        and roadway conditions. Vehicle factors include any failures 
        that may exist in the automobile or design of the vehicle. 
        Human factors are generally seen as the most prevalent 
        contributing factor of crashes, followed by roadway environment 
        and vehicle factors.

  <bullet> About $2 billion has been provided to states over the last 5 
        yearsfor highway safety programs under TEA-21. About $729 
        million went tothe core highway safety program, Section 402, to 
        carry out trafficsafety programs designed to influence drivers' 
        behavior in such areasas seat belt use, drinking and driving, 
        and speeding. About $936million went to seven incentive 
        programs also designed to encouragestate efforts to improve 
        seat-belt use, reduce drinking and driving,and contribute to 
        improvement of state highway safety data. Inaddition, about 
        $361 million was transferred from state highwayconstruction to 
        state highway safety programs under provisions thatpenalized 
        states that had not complied with Federal requirements 
        forpassing repeat offender or open container laws to reduce 
        drinking and driving.

  <bullet> To oversee state highway safety programs, NHTSA focuses on 
        providingadvice, training, and technical assistance to the 
        states, which are responsible for setting and achieving highway 
        safety goals. NHTSA can also use management reviews and 
        improvement plans as tools to help ensure that the states are 
        operating within guidelines and achieving the desired results. 
        However, we found that NHTSA's regional offices have made 
        inconsistent use of management reviews and improvement plans 
        because NHTSA's guidance to the regional offices does not 
        specify when to use them. As a result, some states do not have 
        improvement plans,even though their alcohol-related fatality 
        rates have increased or their seat-belt usage rates have 
        declined. GAO recommended that NHTSA provide guidance to its 
        regional offices on when it is appropriate to use these 
        oversight tools. NHTSA is taking steps to improve this 
        guidance.

Background
    Since 1975, progress has been made in reducing the number of 
fatalities on our Nation's roads, but in recent years improvement has 
slowed and some downward trends have been reversed. As figure 1 shows, 
from 1975 through 2002, annual fatalities decreased from 44,525 to 
42,850, or by about 4 percent. Annual fatalities reached a low of 
39,250 in 1992 and have been edging up since then. During the same 
period, the fatality rate per 100 million vehicle miles traveled (VMT), 
a common method of measurement, dropped from 3.35 in 1975 to 1.51 in 
2002, or by about 55 percent. Since 1992, the decline in the fatality 
rate has slowed.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO analysis of NHTSA data.

    Alcohol-related crashes account for a large portion of traffic 
fatalities.\3\ Between 1982, when NHTSA began tracking alcohol-related 
fatalities, and 2002, about 430,000 people died in alcohol-related 
crashes. In 1982, NHTSA reported 26,173 alcohol-related deaths, 
representing 59.6 percent of all traffic fatalities. Alcohol-related 
fatalities declined to 39.7 percent of all traffic fatalities in 1999, 
but rose to 17,970--41.9 percent of fatalities--in 2002. (See fig. 2.)
---------------------------------------------------------------------------
    \3\ Alcohol-related fatalities represent crash victims killed with 
blood alcohol concentrations at any level above .01. At this 
concentration, a person's blood contains 1 one-hundredth of 1 percent 
alcohol.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
    Source: GAO presentation of NHTSA data.

    As figure 3 shows, alcohol-related fatality rates declined steadily 
(except in 1986) from 1982 through 1997. However, there has been almost 
no further decline in rates since 1997, when the rate was 0.65 
fatalities per 100 million VMT. In 2002, the rate was 0.64 fatalities 
per 100 million VMT.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO presentation of NHTSA data.

    The overall decline in fatalities over the past quarter century is 
attributable to many actions. For example, during this period, a number 
of countermeasures were developed and installed in new vehicles. Seat 
belts and air bags are credited with saving thousands of lives--seat-
belt use rates have grown from about 14 percent in 1983 to over 75 
percent nationwide today. In addition, Federal and state programs have 
resulted in improvement in some areas. For example, increased 
enforcement and greater public awareness of the dangers of drinking and 
driving have, according to NHTSA officials, reduced the incidence 
ofcasual drinkers becoming traffic fatalities. Having made improvements 
in reducing causal drinking and driving, NHTSA and the states are now 
faced with more challenging problems such as alcohol dependency, which 
has hindered progress in reducing alcohol-related fatalities.
A Variety of Factors Contribute to Motor Vehicle Crashes:
    Multiple factors typically combine to produce circumstances that 
lead to a motor vehicle crash--there is rarely a single cause for such 
an event. For example, it would be challenging to identify a single 
cause of a crash that occurred on a narrow, curvy, icy road when an 
inexperienced driver, who had been drinking, adjusted the radio or 
talked on a cell phone.
    In examining the causes of motor vehicle crashes, a number of 
expertsand studies identified three categories of factors that 
contribute to crashes: human factors, roadway environment factors, and 
vehicle factors. Human factors involve the actions taken by or the 
condition of the driver of the automobile, including speeding, being 
affected by alcohol or drugs, violating traffic laws, inattention, 
decision errors, and age. Roadway environment factors include the 
design of the roadway, roadside hazards, and roadway conditions. 
Vehicle factors include any failures that may exist in the automobile 
or design of the vehicle.Human factors are generally seen as the most 
prevalent contributing factor of crashes, followed by roadway 
environment and vehicle factors.
    Two examples of human factors that have a significant impact on 
traffic crashes are speeding and alcohol. Speeding--driving either 
faster than the posted speed limit or faster than conditions would 
safely dictate--contributes to traffic crashes. Speeding reduces a 
driver's ability to steer safely around curves or objects in the 
roadway, extends the distance necessary to stop a vehicle, and 
increases the distance a vehicle travels when a driver reacts to a 
dangerous situation. According to our analysis of NHTSA's databases, 
from 1997 through 2001, speeding was identified as a contributing 
factor in about 30 percent of all fatal crashes, and almost 64,000 
lives were lost in speeding-related crashes. From 1997 through 2001, 36 
percent of male drivers and 24 percent of female drivers 16 to 20 years 
old who were involved in fatal crashes were speeding at the time of the 
crash. The percentage of speeding-related fatal crashes decreases as 
driver's age.\4\ (See fig. 4.)
---------------------------------------------------------------------------
    \4\ It should be noted that in addition to the factors discussed, 
other elements, such as nonuse of seat belts or other occupant-
protection measures, might have affected the number of fatalities.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
    Source: GAO analysis of NHTSA data.

    Alcohol consumption is a significant human factor that contributes 
to many motor vehicle crashes. It is illegal in every state and the 
District of Columbia to drive a motor vehicle while under the influence 
of, impaired by, or with a specific level of alcohol or drugs in the 
blood. Only Massachusetts lacks a law that defines the specific 
concentration of blood alcohol at which it becomes illegal to drive.\5\ 
As of January 2003, 17 states had set the standard at 0.10 percent 
blood alcohol concentration (BAC) (the level at which a person's blood 
contains 1/10th of 1 percent alcohol) and the remaining states had set 
the standard at 0.08 percent BAC.\6\ NHTSA recently reported that in 
2002, 42 percent of all fatal crashes were alcohol-related, and nearly 
18,000 people died in alcohol-related crashes. BACs of 0.08 or greater 
were reported for about 87 percent of the alcohol-related fatalities in 
2002. For each age category, moremale than female drivers were involved 
in fatal alcohol-related crashes (see fig. 5).
---------------------------------------------------------------------------
    \5\ BAC of 0.08 percent in Massachusetts is evidence of alcohol 
impairment, but it is not illegal per se.
    \6\ Louisiana, New York, and Tennessee have 0.08 percent blood BAC 
laws that will be effective during the latter half of 2003.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
    Source: GAO analysis of NHTSA data.

    There is also a strong relationship between a driver's age and the 
likelihood of being involved in a crash. While age, in itself, would 
not be the cause of the crash, some of the characteristics displayed at 
various ages can lead to a higher probability of being involved in 
traffic crashes. Younger drivers' crash rates are disproportionately 
higher mainly because of a risky driving style combined with driving 
inexperience. Older drivers also pose greater risks; fatal crash rates 
are higher for the elderly than for all but the youngest drivers.
    The roadway environment--factors that are external to the driver 
and the vehicle that increase the risk of a crash--is generally 
considered the second most prevalent contributing factor of crashes. 
Roadway environment factors that contribute to, or are associated with, 
crashes include the design of the roadway, including features such as 
medians, narrow lanes, a lack of shoulders, curves, access points, or 
intersections; roadside hazards or features adjacent to the road that 
vehicles can crash into such as, poles, trees, or embankments; 
androadway conditions (for example, rain, ice, snow, or fog). However, 
the contribution of these factors to crashes is difficult to quantify. 
NHTSA's crash databases contain limited data on roadway design features 
at the crash location or immediately preceding the crash location. In 
addition, the significance of adverse weather, including both slippery 
roads and reductions in driver visibility, is not fully understood 
because there are no measurements (for example, VMTs under adverse 
weather conditions) available to compare crash rates under various 
conditions.
    Vehicle factors can also contribute to crashes through vehicle-
related failures and vehicle design characteristics (attributes that 
may increase the likelihood of being involved in certain types of 
crashes). While such recent events as the number of crashes involving 
tire separations have highlighted the importance of vehicle factors, 
data and studies generally show, and experts believe, that vehicle 
factors contribute less often to crashes than do human or roadway 
environment factors. For example, our analysis of NHTSA's data found 
that of the 32 million crashes from 1997 through 2001, there were about 
778,000 crashes (about 2 percent) in which police determined that a 
specific vehicle-related failure might have contributed to the crash. 
In addition, vehicle design has been shown to affect handling in 
particular types of maneuvers. For example, high-performance sports 
cars have very different handling characteristics from those of sport 
utility vehicles (SUVs). Recent changes in the composition of 
thenation's vehicle fleet, in part attributable to the purchase of many 
SUVs, have resulted in an overall shift toward vehicles with a higher 
center of gravity (more top-heavy), which can roll over more easily 
than some other vehicles. Rollover crashes are particularly serious 
because they are more likely to result in fatalities. Our analysis of 
NHTSA's 2001 data shows that passenger cars were the vehicle type least 
likely to roll over in a crash; passenger cars rolled over in about 2 
percent of all crashes and rolled over nearly 16 percent of the time in 
fatal crashes. In comparison, our analysis shows that SUVs were over 
three times more likely to roll over in a crash than were passenger 
cars; that is, they rolled over in almost 6 percent of all crashes. In 
addition, the proportion of SUVs that rolled over in fatal crashes was 
over twice as high as the proportion of passenger cars. NHTSA recently 
reported that in 2002, fatalities in rollover crashes involving SUVs 
and pickup trucks accounted for 53 percent of the increase in traffic 
deaths.

Funding for State Highway Safety Programs Has Grown
    About $2 billion was provided to the states for highway safety 
programs for the first 5 years under TEA-21, from Fiscal Years 1998 
through 2002. TEA-21 funded state programs three ways as follows:

  <bullet> The core Section 402 State and Community Safety Grants 
        Program provided $729 million for behavioral highway safety 
        programs.

  <bullet> Seven incentive programs provided $936 million. States could 
        use funds from two of the incentive programs for behavioral 
        highway safety programs or highway construction. As a result, 
        states allocated about $789 million of the incentive funds to 
        behavioral programs and $147 million to highway construction.

  <bullet> Two penalty transfer programs provided $361 million in 
        Fiscal Years 2001 and 2002. These programs transferred funds 
        from highway construction to highway safety programs to 
        penalize states for not complying with Federal requirements for 
        passing laws prohibiting open alcoholic beverage containers in 
        cars and establishing specific penalties for people convicted 
        of repeat drinking and driving offenses.\7\ States could use 
        both penalty transfers for either alcohol-related behavioral 
        safety programs or highway safety construction projects. As a 
        result, states allocated about $113 million of the transfer 
        funds to behavioral programs and $248 million (about 66 
        percent) to highway construction programs to eliminate road 
        safety hazards.
---------------------------------------------------------------------------
    \7\ TEA-21, as amended through the TEA-21 Restoration Act, 
established these two penalty provisions.

    Funding for states' behavioral safety programs nearly doubled from 
Fiscal Year 1998 through Fiscal Year 2001. (See fig. 6.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO analysis of NHTSA data.

    Funding for the core Section 402 State and Community Grants Program 
has been fairly level, in constant dollars, since 1991. Four major 
program categories account for most of the states' use of the $729 
million in Section 402 State and Community Grants funds provided 
between 1998 and 2002: police traffic services, impaired driving, seat 
belts, and community safety programs. Combined, these four categories 
account for about 72 percent of the grant funds. Figure 7 shows how the 
states used their Section 402 State and Community Grants funds during 
the first 5 years covered by TEA-21.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO analysis of NHTSA data.

    Note: ``Other'' includes roadway safety, pedestrian safety, 
emergency medical services, speed control, driver education, motorcycle 
safety, school bus safety, and paid advertising to support Section 402 
programs.

    The seven incentive programs under TEA-21 also provide funds to 
encourage greater seat belt use, implement programs or requirements to 
reduce drinking and driving, and contribute to the improvement of state 
highway safety data. The funding available for these programs grew from 
$83.5 million in 1998 to $257.2 million in 2002. While most of these 
funds were used for funding additional behavioral safety programs, the 
act provided that two programs, the 0.08 percent Blood Alcohol 
Concentration Incentive (Section 163) and the Seat-belt Use Incentive 
(Section 157) programs, could be used for any highway purpose--
highwayconstruction, construction that remedied safety concerns, or 
behavioral safety programs. Appendix I contains additional information 
on the seven incentive programs.
    Under the penalty transfer programs, the states that did not adopt 
either the open container or the repeat offender requirements were 
required to transfer a specified percentage of their Federal highway 
construction funds to their Section 402 State and Community Grants 
Program.\8\ During Fiscal Years 2001 and 2002, the first 2 years that 
funds have been transferred, 34 states were subject to one or both of 
the penalty provisions, and about $361 million was transferred from 
these states' Federal Aid Highway Program funding. (See fig. 8.) States 
can keep transferred funds in their Section 402 State and Community 
Grants program when they are to be used to support behavioral programs 
designed to reduce drunk driving or the states can allocate any portion 
of the transferred funds to highway safety construction projects to 
eliminate road safety hazards. States varied greatly in their decisions 
on how to use these funds, from allocating 100 percent of the funds to 
highway safety construction projects to allocating 100 percent of the 
funds to highway safety behavioral projects. Overall, the states 
allocated about 69 percent to highway safety construction projects 
under the Hazard Elimination Program, and 31 percent went to highway 
safety behavioral projects. Twenty-eight of the 34 states with 
transferred funds allocated a majority to highway safety construction 
activities under the Hazard Elimination Program.
---------------------------------------------------------------------------
    \8\ For the first 2 years, the transfer penalty was 1.5 percent of 
the funds apportioned to the state's National Highway System, Surface 
Transportation Program, and Interstate Maintenance funding, for each 
penalty. This amount rose to 3 percent for each penalty in October 
2002.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
    Source: GAO analysis of NHTSA data.

    Note: Alaska (both transfers), District of Columbia (no transfers), 
Hawaii (no transfers), and Puerto Rico (both transfers) are not shown.
NHTSA Has Not Made Consistent Use of Oversight Tools
    NHTSA's 10 regional offices focus on providing advice, training, 
and technical assistance to the states, which are responsible for 
setting and achieving their highway safety goals. In addition, among 
other things, NHTSA uses management reviews and improvement plans as 
oversight tools to help it ensure that states' programs are operating 
within guidelines and are achieving desired results.
    NHTSA regions can conduct management reviews to help improve and 
enhance the financial and operational management of the state programs. 
In conducting these reviews, a team of NHTSA regional staff visit the 
state and examine such items as its organization and staffing, program 
management, financial management, and selected programs like impaired 
driving, occupant protection, public information and education, and 
outreach. The team's report comments on the state activities and may 
make recommendations for improvement. For example, in some 
managementreviews we examined, NHTSA regions found instances of 
inadequate monitoring of subgrantees, a lack of coordination in state 
alcohol program planning, costs incurred after a grant was over, and 
improper cash advances by a state to subgrantees. However, NHTSA has no 
written guidance on when to perform management reviews. We found that 
the management reviews were not being conducted consistently. For 
example, in the six NHTSA regions we visited, we found goals of 
conducting state management reviews every 2 years, on no set schedule, 
or only when requested by a state.
    Improvement plans are another tool for providing states oversight 
and guidance. According to program regulations, if a NHTSA regional 
office finds that a state is not making progress toward meeting its 
highway safety goals, NHTSA and the state are to develop an improvement 
plan to address the shortcomings. For example, NHTSA, working with one 
state, developed an improvement plan that identified specific actions 
that NHTSA and the state would accomplish to improve alcohol-related 
highway safety. The plan included such actions as implementing a 
judicial education program, requiring all police officers working on 
impaireddriving enforcement to be adequately trained in field sobriety 
testing, and developing a statewide system for tracking driving-while-
intoxicated violations.
    NHTSA regional offices have made limited and inconsistent use of 
improvement plans. Since 1998, only seven improvement plans have been 
developed. In addition, we found that the highway safety performance of 
a number of states that were not operating under improvement plans was 
worse than the performance of other states that were operating under 
such plans. For example, we compared the performance of the three 
states that had developed improvement plans for alcohol-related 
problems with the performance of all other states. We found that for 
seven states, the rate of alcohol-related fatalities increased from 
1997 through 2001 and their alcohol-related fatality rates exceeded the 
national rate in 2001. Only one of these 7 states was on an improvement 
plan. Furthermore, for one state that was not on an improvement plan, 
the alcohol-related fatality rate grew by over 40 percent from 1997 
through 2001 and for 2001 was about double the national average. The 
limited and inconsistent use of improvement plans is due to a lack of 
specificity in the criteria for requiring such plans.
    To ensure more consistent use of management reviews and improvement 
plans, we recommended in our report that NHTSA provide more specific 
guidance to the regional offices on when it is appropriate to use these 
oversight tools. In commenting on a draft of the report, NHTSA 
officials said they agreed with the recommendations and had begun 
taking action to develop criteria and guidance to field offices on the 
use of management reviews and improvement plans.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or members of the Committee 
may have.

Appendix I: Highway Safety Incentive Grant Programs

------------------------------------------------------------------------
    Incentive
    category        Title of incentive:      Description of incentive
------------------------------------------------------------------------
Seat belt/        Section 157 Safety      Creates incentive grants to
 occupant          Incentive Grants for    states to improve seat belt
 protection        the Use of Seat Belts   use rates. A state may use
 incentives;                               these funds for any highway
                                           safety or construction
                                           program. The act authorized
                                           $500 million over 5 years.
                 -------------------------------------------------------
                  Section 157 Safety      Provides that unallocated
                   Innovative Grants for   Section 157 incentive funds
                   Increasing Seat-Belt    be allocated to states to
                   Use Rates               carry out innovative projects
                                           to improve seat belt use.
                 -------------------------------------------------------
                  Section 405 Occupant    Creates an incentive grant
                   Protection Incentive    program to increase seat belt
                   Grant; Description of   and child safety seat use. A
                   incentive               state may use these funds
                                           only to implement occupant
                                           protection programs. The act
                                           authorized $68 million over 5
                                           years.
                 -------------------------------------------------------
                  Section 2003(b) Child   Creates a program designed to
                   Passenger Protection    prevent deaths and injuries
                   Education Grants        to children, educate the
                                           public on child restraints,
                                           and train safety personnel on
                                           child restraint use. The act
                                           authorized $15 million over 2
                                           years for Section 2003(b).
                                           However, the Congress
                                           appropriated funds to support
                                           the program for 2 additional
                                           years.
------------------------------------------------------------------------
Alcohol           Section 163 Safety      Provides grants to states that
 incentives        Incentives to Prevent   have enacted and are
                   the Operation of        enforcing laws stating that a
                   Motor Vehicles by       person with a blood alcohol
                   Intoxicated Persons     concentration of 0.08 or
                                           higher while operating a
                                           motor vehicle has committed a
                                           per se driving-while-
                                           intoxicated offense. A state
                                           may use these funds for any
                                           highway safety or
                                           construction program. The act
                                           provides $500 million over 6
                                           years for the program.
                 -------------------------------------------------------
                  Section 410 Alcohol     Revises an existing incentive
                   Impaired Driving        program and provides grants
                   Countermeasures         to states that adopt or
                                           demonstrate specified
                                           programs, or to states that
                                           meet performance criteria
                                           showing reductions in
                                           fatalities involving alcohol-
                                           impaired drivers. The act
                                           provides $219.5 million over
                                           6 years, which is to be used
                                           for alcohol-impaired driving
                                           programs.
------------------------------------------------------------------------
Data incentives   Section 411 State       Description of incentive:
                   Highway Safety Data     Provides incentive grants to
                   Improvements            states to improve the
                                           timeliness, accuracy,
                                           completeness, uniformity, and
                                           accessibility of highway
                                           safety data. The act provides
                                           $32 million over 4 years.
------------------------------------------------------------------------
Source: GAO presentation of NHTSA data.


    Senator Smith. Thank you very much. We're pleased to be 
joined by the Ranking Member of the Subcommittee. Senator 
Dorgan, if you have an opening statement, we will then go to 
questions.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Senator Smith, thank you very much. I'm 
sorry that I was not here at the beginning, I have had a chance 
to read the testimony. Dr. Runge, good to see you again. Mr. 
Guerrero, thank you for your testimony.
    This is a really important issue. As we begin the 
reauthorization of the Federal Highway Program, the issue of 
highway safety programs I think is really critically important 
to do and to do right, and I'm very concerned about a number of 
issues. I will ask questions about them especially, but I know 
that the chart shows and Mr. Guerrero's testimony suggests that 
we now see a beginning of the movement back up in highway 
deaths, especially due to drunk driving and alcohol-related 
deaths.
    And I'm concerned, for example, that the proposal that we 
have from the Administration would completely eliminate the 
open container and the repeat offender incentive programs. I 
have felt very strongly for a long while and I have tried very 
hard to get through the Senate, or through the Congress I 
should say, a prohibition on open containers in automobiles. 
And I finally got it through after I guess I worked 6, 8, 10 
years on it, I finally got it through, but it's pretty weak-
teethed. I mean, it doesn't have sanctions that are dramatic.
    So we still have something like 13 states that don't 
prohibit open containers in automobiles and we still have some 
circumstances in this country where I understand it is legal to 
put your key in the ignition and one hand on the steering wheel 
and another around the neck of a bottle of Jim Beam, and drive 
off and drink, and you're perfectly legal. There ought not be 
anywhere in America where that exists, nowhere. There ought not 
be an intersection in this entire country where it ought to be 
legal to drink and drive.
    And so, we have a lot yet to do and I am especially 
concerned about open containers, I'm concerned about repeat 
offenders. There was a story in my state recently about a 
fellow that has been, I think he has now 12 or 14 drunk driving 
convictions, same person. The .08, we have I think a dozen or 
so states that are not yet in compliance with that, so we have 
a lot to do. I really appreciate the opportunity to be here and 
to be able to ask a few questions.
    Let me yield to you, Mr. Chairman. I will ask some 
questions following you and Senator Lautenberg.
    Senator Smith. The Senator makes some very good points that 
are concerns of mine as well.
    Dr. Runge, with SAFETEA, you addressed it briefly, but I 
wonder if you could expand on it, about rewarding a state with 
one times the portion of their respective Section 402 funds if 
it adopts a primary seat belt enforcement law before the end of 
this year. I guess my concern is, representing a state that has 
done this long ago and has been very successful, we are 
obviously concerned that we would be penalized apparently in 
the formulation that you're coming up with, and I wonder if you 
could speak to that. How is it fair for states who have worked 
hard to, on this issue, to lose funding when we're trying to 
get other states up? Why are we talking away from those who are 
trying to maintain their good performance?
    Dr. Runge. I appreciate the question, Mr. Chairman. We 
thought long and hard about this at DOT when formulating this 
plan, and what we knew that we needed first and foremost was an 
effective incentive program to coax states to do the right 
thing, to pass a primary safety belt law, and that there should 
be enough reward for them that they would actually pay 
attention to it. In the past there have been incentives that 
have been very moderate at best in their effectiveness in 
getting states to pay attention, and that has resulted in 
sanctions. The .08 is a classic example.
    What the Administration chooses to do now is to put some 
real money behind this attempt to get states to do it. And 
given a fixed pool of resources, we also did not want to 
penalize those states who had already done the right thing, so 
we struck a balance. And that is to get states to pay 
attention, we believe that five times their 402 formula amount 
would get them to pay attention. Florida, $37 million, for 
instance. You know, real money. Arizona, I think $10 or $12 
million. However, there is not unlimited resources and the 
resource pool dictated that we find something to do for the 
states that have already done it, so a one-time shot of 402 
into their coffers we thought would be a handsome reward.
    I stirred over this and had to go back to the parable of 
the talents. And you know, life is not completely fair, but 
workers in the vineyard who have done the right thing do get 
paid.
    Senator Smith. Well, I mentioned in my opening statement 
one of the advantages, and I suppose there are some 
disadvantages of requiring all states to enact primary seat 
belt laws, and I referenced the ``Click It or Ticket'' program. 
Do you have a comment about that?
    Dr. Runge. There is no reason why every state in the 
country should not have a primary safety belt law. I would also 
add to my prior statement that states who have one, California, 
Oregon, Washington, Hawaii, Puerto Rico, are already above 90 
percent. Ninety percent is not a drain, but they got there 
because they had a primary safety belt law and they had 
effective high visibility enforcement. The portion of the 
population that does not currently buckle would, and in fact 
does, because of either the desire to obey the law or the 
wanting to avoid a ticket.
    Congress has been very good about giving us the opportunity 
to have high visibility enforcement campaigns such that we had 
one state, my state in 1993 that did it, and in 2001, 8 states 
in the Southeast, last year 39 states, this year 43--I'm sorry, 
last year 29 states, this year 43 states. And Congress gave us 
the money to run a national ad.
    So I hope that you will see these ads. You may not because 
they're not really aimed at your demographic, Senator, they are 
for young men 15 to 34 primarily, but you may see our ads. And 
we do believe that that will be effective in getting people to 
avoid the ticket. So, we are actually very proud of this. We 
are happy that we were able to raise belt use 4 percentage 
points over the last 2 years, which equals 500 lives a year, 
and over 8,000 serious injuries that have been avoided.
    Senator Smith. NHTSA state safety officials are prohibited 
from lobbying State legislators on highway legislation. Do you 
believe this impacts your ability to pass these laws?
    Dr. Runge. Well, first and foremost, State laws are up to 
the State legislatures, but I do believe that State 
legislatures should have the benefit of the latest data, they 
should understand what the consequences of passing or not 
passing laws are. And the prohibition on our participating in 
that process has a very chilling effect on our outreach into 
the states, so it has affected our ability to do so.
    Florida, for instance, their bill died last night. That 
means that 200 people will die this year that would not die 
otherwise. Very sad. But we had to remain silent as soon as 
that bill had a number and was introduced, and I do believe 
that had an effect.
    Senator Smith. Senator Dorgan noted the slight increase in 
fatalities this year. To what do you attribute that primarily?
    Dr. Runge. Well, first of all, the vehicle miles traveled 
went up about 2 percent, and our fatality rate was exactly what 
it was last year, 1.51 per 100 million vehicle miles traveled. 
So the actual numbers increase is due to increased exposure.
    Senator Smith. OK.
    Dr. Runge. But the reason that we are not making progress, 
I really do believe is our failure to get more states to enact 
primary safety belt laws and take a serious--to get serious 
about impaired driving. It's just not happening.
    Senator Smith. My first round is over. Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Mr. Chairman. Dr. 
Runge, is it a soft G or a hard G?
    Dr. Runge. It's a hard G, thanks.
    Senator Lautenberg. Runge, thank you. That's why I never 
heard of anybody using the runge of a ladder, right?
    Senator Dorgan. That's right.
    Dr. Runge. You will now, though, I'm sure.
    Senator Lautenberg. The question about whether or not 
sanctions are, or incentives are used is one that has 
interested me, and I have perhaps been the grinch, but 
sanctions work, incentives often don't. And I don't know 
whether it's just a coincidence of things, but I was making 
notes while the discussion was going on with my colleagues, 
that the 14 states--only 14 states--I find shocking, have open 
container laws. And I know how hard Senator Dorgan worked on 
that, and I think that's an incentive program, is it not?
    Dr. Runge. It's now a--there's a penalty. We currently have 
a penalty. And by the way, Senator Dorgan, that does not go 
away with the enactment of SAFETEA.
    Senator Lautenberg. Has that been primarily an incentive 
law in the past?
    Dr. Runge. I can comment specifically about your question 
when talking about .08.
    Senator Lautenberg. No, I'm talking now about the open 
containers. It's 14 states, right?
    Dr. Runge. I can't tell you the detail.
    Senator Lautenberg. OK. Seat belts. Are seat belts 
primarily incentive or do they carry sanctions?
    Dr. Runge. There is currently no incentive or sanction 
right now. It's just cajoling, begging and pleading.
    Senator Lautenberg. Well, when 60 percent of the fatal 
accidents include people who were not wearing seat belts, that 
tells you that there is something lacking in terms of an 
incentive. And that too is an outrage because it is not only 
the person who dies, but rather the families or the other 
people who may be injured in an accident of that type.
    Now, I was the author of the 21 drinking age bill, and I 
think one of the reasons in addition to population increases 
that we are seeing an increase in alcohol-related injuries and 
death is law enforcement. I was at a function that happened to 
be a rodeo out in one of the western states, and I noticed a 
lot of very young people drinking beer.
    And there was a police officer standing there, and I said, 
``Officer, do you know what the age for legal drinking is?'' 
And he said, ``Yes, it's 21.'' So I said, ``Do these kids look 
like they're 21?'' And he said, ``Sir, I do traffic, that's my 
job. This isn't traffic.''
    And when you see now this horrible incident in a high 
school where the girls assaulted one another in high school, 
and the parents were accused of supplying the beer, I think--
and by the way, with 21 came penalties and every state, every 
state, and the most reluctant was D.C. and another state where 
there is a lot of beer manufactured, but they all came along.
    I'm distressed now that we don't have the .08 compliance to 
the extent that we'd like. We have 38 states that have 
complied. One of the 12 that haven't is New Jersey, and there 
are campaigns against these. Mr. Chairman, I was asked not to 
go to a fairly responsible restaurant that I used to go to 
frequently, because the owner said I was driving the 
restaurants out of business. That was 1981 when the 21 drinking 
bill was signed into law.
    I think the difference between whether sanctions are put 
into place, and I frankly, Mr. Chairman--Dr. Runge, would--did 
you say soft or hard?
    Dr. Runge. Hard.
    Senator Lautenberg. Dr. Runge, if it's important enough, if 
it saves lives, then I think penalties are appropriate. And I 
know there are lots of people who don't like them, but the 
question is whether you like the result, not whether you like 
the technique. And if you like the result, then you have to do 
it.
    Mr. Guerrero. Senator Lautenberg, if I could very briefly 
just identify in our report, the GAO report, when you're 
talking about results, the two penalty provisions we're talking 
about here for open containers and for repeat offenders, before 
they were applied, only 3 states were complying with both 
requirements and now 25 states are, so I think you see an 
indication of results.
    Senator Lautenberg. I appreciate that, thank you very much. 
So that begins to tell us something, Mr. Chairman.
    Last, Senator DeWine and I, Dr. Runge, are authoring 
legislation that provides funding for a nationwide campaign to 
``Click It or Ticket'' for highway safety. How do you feel 
about the effectiveness of such campaigns, does NHTSA have 
tools to carry out nationwide campaigns on drunk driving?
    Dr. Runge. Yes, sir, we are currently doing that. We have 
the largest ``Click It or Ticket'' campaign ever going on right 
now as we speak. It's going on in 43 states. Actually it's 
going on nationwide; 43 states have chosen to spend some of 
their own money to augment the national money. Of states that 
used the ``Click It or Ticket'' model last year in our program, 
they realized a 9 percentage point increase in belt usage, 
versus states that did not use an enforcement message that had 
basically zero improvement.
    So we have the data, I will be happy to give you the 
report. It's written up. Congress also gave us $1 million to 
evaluate it, which we did, and we'll send that over to you. 
There is no question that it's effective for this portion of 
the population.
    Senator Lautenberg. Mr. Chairman, can I have one more 
question and then I promise not to ever ask--well, not ever, 
but I would ask you this about .08. This .08 blood alcohol 
content, that begins a state of impairment for lots of drivers, 
and we have terrible stories about accidents, one not far from 
here in Maryland that I talked about a couple of years ago, a 
mother standing waiting for the school bus in the morning 
holding her child's hand, but couldn't pull the child out of 
the way when a woman drunk at 8 o'clock in the morning came 
across the sidewalk and struck her child, and killed her in 
front of her eyes, and .08 was the blood alcohol content.
    Do you think that there is sufficient evidence for us to 
move ahead aggressively with the .08? States are now beginning, 
including my own, and in 2004 they are going to hit the first 
of the penalties, and I think that we will see an awakening, 
but do you agree with us about the need to get that reduction 
in blood alcohol?
    Dr. Runge. Yes, sir, .08 is an effective tool. If I could 
just expand a little bit about that for a minute, you know, 
impairment in driving begins after the first drink. There is a 
continuum that occurs, particularly exacerbated by over-the-
counter medications and drowsiness and other things. But after 
one or two drinks, you may be too impaired to drive; .08 is per 
se impairment, of course, which means by law you are impaired 
whether you can do cartwheels or walk on your hands or 
whatever. And clearly in our simulator test, we know that at 
.08, virtually all drivers show a large decrement in their 
ability to handle a vehicle.
    So, I never want to make the case that being at .07 is OK. 
You may get away with it, you may not be impaired, you may get 
from the pub to your house like you have done 200 times before, 
and do just fine. But at .08 you are per se impaired. So .08 
has, because of the states that are now passing these laws, we 
will have a better opportunity to evaluate its effectiveness in 
the coming years.
    Prior to TEA-21, I think there were only 10 or 11 states 
that had .08. During the incentive phase, there were 3 more 
states that passed .08 laws. And as soon as the penalty phase 
kicked in, now we have 39. So I would hope that states given 
proper incentives would do the right thing. There is no 
question that sanctions work. It's a question about at what 
cost.
    Senator Lautenberg. Sanctions and incentives. Thanks very 
much. Thanks, Mr. Chairman.
    Senator Smith. You bet. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me go back to this open container issue and say to my 
colleague from New Jersey, Senator Lautenberg, the TEA-21 
provision transferred 3 percent of the states' construction 
money into their safety money account if they didn't enact the 
open container law. The states were allowed to use this safety 
money for construction to eliminate highway safety hazards and 
frankly, that's where most of that money has gone. So it's a 
penalty but it's not a penalty that shakes someone in their 
boots here. I mean, you know, they understand that they are not 
going to lose the money, and the circumstances are such that we 
have made some progress here, but we are not requiring states 
to pass an open container prohibition and we ought to require 
that.
    You can debate various pieces of public policy and make a 
pretty good case on the other side or on both sides, but on 
open container, I don't know how you make a case on the other 
side of that one. Start with the issue of the driver drinking. 
Can anybody make the case that it ought to be legal for a 
driver to drink while they drive? The answer is hell no. I 
mean, there isn't any sense at all that would persuade you 
that's the thing to do. And I don't think there is any case 
that can be made that in a vehicle moving on America's roadways 
and highways that anyone ought to feel that there ought to be 
an open container of alcohol in the vehicle.
    So, I mean this is one that we really ought to do and 
really ought to require. Is it a mandate to require it? Sure, 
it's a mandate, but it's just a mandate that has some common 
sense attached to it.
    So let me ask a couple of questions, if I might. My 
understanding is that the SAFETEA program freezes safety grants 
and maybe Dr. Runge, you can help me go through this, at $447 
million in Fiscal Year 2004, the same level as Fiscal Year 
2003, but there would be flexibility for the states to use this 
money in a manner that could move it both toward safety and 
away from safety, as I understand it. Is that how you 
understand the proposals this year?
    Dr. Runge. If I could take a second to walk you through our 
rationale here?
    Senator Dorgan. Yes.
    Dr. Runge. First of all, the rationale is to take 7 grant 
programs and consolidate them into basically 3. The 
consolidated 402 program would have level 402 funding across 
the two authorizations, but on top of that, there would be two 
additional pieces of the 402 program, one for safety belt 
usage, which has this incentive to pass a primary belt law and 
additional funding to enforce it. And then a third piece, which 
is this impaired driving initiative that I'm sure we will talk 
some more about, which is to get money into the states where it 
is most needed, states that have extraordinarily high fatality 
rates for alcohol and high alcohol-rated fatality numbers, 
because they are just not making any progress and they need 
basic judicial reform and law enforcement support and so forth.
    So, first of all, it is level funding across the formula, 
but the funds that were over in the Federal Highway 
Administration that were eligible for hazard elimination and 
other things, are now going to be brought over into the NHTSA 
side and used for performance incentive grants.
    Now, the second most important piece of this is that every 
state is required to submit a comprehensive highway safety plan 
that is based on their particular State data, so the problems 
of Utah may be very different from the problems in 
Massachusetts and by regulation, we will specify that all 
players have to be at the table when this highway plan is 
created, and it must be data-based. So we also have a grant 
program going out to states of $50 million a year to help 
improve their State traffic records and their data. So that if 
a state has a very low alcohol fatality rate, like Utah at .29 
fatalities, they may put less of their resources into alcohol 
programs than say South Carolina, which has an alcohol fatality 
rate of 1.27. And we know the fatality rates, we don't need 
additional data to figure that out, but the states do need 
additional data to pinpoint their problems infrastructure as 
well as behavioral. So the highway safety plan, therefore, will 
determine how those funds are flexed.
    Senator Dorgan. Let me just ask about that, because you 
used the word flexed and you started with the word flexibility. 
The report that was done by Mr. Guerrero describes on page 18 
exactly what's happened with flexibility. Overall, the states 
allocated nearly 70 percent to highway safety construction 
project, and 31 percent went to the highway safety behavioral 
programs, that is, the programs dealing with drunk driving and 
other issues, when they had the choice. Give them the choice, I 
guarantee you what the choice is going to be.
    The choice is going to be to build, and they love to build, 
I understand that, they're builders. What is the Department of 
Transportation? They don't put their key in the lock in the 
morning to be something other than builders. They're building 
and maintaining highways, roads and bridges. So give them a 
choice, give them flexibility, it turns out as it did on page 
18. Is there a reason that you should tell us to expect 
something other than that, especially given the fact that Mr. 
Guerrero has told us what the choices are among the states?
    Dr. Runge. Well, I would hope that our knowledge of history 
would allow it not to repeat itself. The A in SAFETEA is 
accountability and we are putting a lot of effort into this 
comprehensive highway safety plan. And I need to remind the 
Committee that money that was not eligible for behavioral 
programs such as belts and alcohol under TEA-21 will be 
eligible for behavioral programs under SAFETEA if it's passed.
    Senator Dorgan. I understand, but isn't this a triumph of 
hope over experience? I mean, I understand you hope, but we 
understand the experience, so we're about the business of 
legislating and not hoping, so if we legislate based on what we 
know, and what we know is page 18 of this report that says give 
them the flexibility and you're going to move money away from 
the critical programs that Senator Lautenberg, I, Senator Smith 
and others really believe that we ought to address.
    With your flexibility and with your consolidation, we are 
eliminating the incentives of the states to enact these laws 
that we have just been talking about. We're eliminating the 
specific incentives because we're saying generically, use your 
judgment in the states to decide how you want to use this 
money. Page 18 says what they're going to do is run off and 
start building with it. So tell me the basis for your hope, Dr. 
Runge.
    Dr. Runge. Well, during TEA-21, 4 states had a repeat 
offender law and it went to 33. Open container, 15 states went 
to 36, .08 went from 10 to 39. They were held accountable for 
their decisions. Now those programs are not going away, .08 
sanctions, repeat offender, open container, they are not going 
away as a result of SAFETEA. What I hope we can get Congress' 
backing on is the accountability. The GAO report basically is 
flexibility without accountability. The Secretary is absolutely 
intent on safety being the product of this legislation. I have 
every confidence in the world that our holding the states 
accountable for their highway safety plan so they can address 
their highway safety problems is going to be the underpinning 
of this.
    Senator Dorgan. It's interesting. I have heard this 
discussion in two of my other appropriations subcommittees by 
other parts of the Administration. They want flexibility and 
they want to consolidate, and what that has meant in every 
circumstance is less oversight for specific goals that we have 
here in Congress. I don't frankly support, Dr. Runge, the 
consolidation. What I support is deciding as a Congress what 
we're willing to spend money on, and making states accountable 
with respect to those, yes, mandates, I'm not a bit bashful 
about using the term mandate when we're talking about demanding 
that we save lives and get drunks off the roads in this 
country.
    And all of you know--I mean, these safety issues, I 
especially--there are--let me just say this. There are issues 
other than drunk driving. Because of my family experience, I am 
passionate about doing something about drunk driving. I am one 
of those people that got a call at 10 at night, and every half-
hour somebody else does and one of their loved ones was 
murdered by someone that got behind the wheel of a vehicle 
drunk. This is not some mysterious illness for which we don't 
know a cure. We know what causes it and we know what cures it. 
And I'm not comfortable just saying well, let's consolidate all 
this and just hope.
    We have made some progress, Dr. Runge, no question about 
that. Let me just say that part of that progress is 
legislative, part of it is citizen progress, Mothers Against 
Drunk Driving to name one, and others. But we are not nearly 
done, we're just not nearly done. Perhaps during this hearing, 
about 4 phone calls will go out to Americans telling them that 
their loved one has been killed by a drunk driver. So we have a 
lot to do, and I am not comfortable leaving it up to the 
judgment of someone else about whether they want to build some 
projects or whether they want to try to alter the behavior of 
those who are repeat drunk driving offenders or alter the 
behavior of those who want to operate vehicles with alcohol in 
the vehicle.
    So, we'll work through this. I just want to say, I'm a 
little disappointed by the consolidation and flexibility, I 
don't support that, and we need to work through it here in the 
Congress. You and I have had a chance to visit briefly, and I 
think that you have the capability to do some awfully good work 
down there. I think Mr. Guerrero has done some good work for us 
to give us a road map here on where we want to go with respect 
to accountability. Thank you very much for your testimony, both 
of you.
    Dr. Runge. Thank you.
    Senator Smith. Thank you, gentlemen, for your testimony.
    I'm informed we will have a vote coming soon, so we will 
dismiss our first panel, bring our second panel up. We have 5 
witnesses and we ask that their presentations be as succinct as 
they can be so we can get them in before this hearing of 
necessity must conclude.
    Our first witness is Ms. Jackie Gillan, Vice President, 
Advocates for Highway and Auto Safety; Ms. Kathryn Swanson, 
Chairman, Governors Highway Safety Association and Director of 
the Minnesota Office of Traffic Safety; Ms. Josephine Cooper, 
President and CEO of the Alliance for Automobile Manufacturers 
is not feeling well today, so is being represented by Mr. 
Robert Strassberger, who is the Vice President for Vehicle 
Safety and Harmonization for the Alliance and will testify in 
her place. We also have Ms. Wendy Hamilton, President, Mothers 
Against Drunk Driving; and Mr. Rick Berman, Legislative 
Counsel, American Beverage Licensees and American Beverage 
Institute.
    We will start with Ms. Gillan.

 STATEMENT OF JACQUELINE S. GILLAN, VICE PRESIDENT, ADVOCATES 
                  FOR HIGHWAY AND AUTO SAFETY

    Ms. Gillan. Thank you very much, Senator, good afternoon. 
Despite the grim news on highway fatalities in 2002, the good 
news is that effective proven strategies and solutions are 
already on the shelf and waiting to be used in highway and auto 
safety.
    This year the Senate Commerce Committee has the unique 
opportunity in the reauthorization of NHTSA's motor vehicle and 
traffic safety programs to establish a safety agenda that will 
bring down highway deaths and injuries for the next 6 years. 
This afternoon I would like to outline a plan of action that 
involves a two-prong strategy involving better vehicle design 
and improved driver behavior.
    Our legislative proposals fall into three categories: the 
need to provide sufficient funding resources for NHTSA; the 
need to establish a safety regulatory agenda with deadlines for 
agency action; and the need to encourage uniform adoption and 
enforcement of lifesaving traffic laws. One of the most 
critical weapons in the battle to reduce highway deaths and 
injuries is adequate financial resources. As you correctly 
stated, nearly 95 percent of all transportation-related 
fatalities are the result of motor vehicle crashes, but NHTSA's 
budget is less than 1 percent of the entire DOT budget.
    Twice in the past 3 years this Committee has had to pass 
legislation increasing NHTSA's authorization levels to correct 
funding shortfalls. We ask the Committee to significantly 
increase funding for the agency program in the authorization 
bill. This investment will definitely pay off.
    Last February the Committee held ground-breaking hearings 
on the safety of sport utility vehicles to look at issues 
related to the safety of SUV occupants and the safety of 
occupants of passenger vehicles involved in a crash with an 
SUV. Advocates urges this Committee to establish a motor 
vehicle safety regulatory agenda with deadlines for NHTSA 
action similar to what you did in the Tread Act for Tire 
Safety.
    The NHTSA authorization bill needs to address the issue of 
rollovers. While rollover crashes only represent 3 percent of 
all collisions, they account for nearly a third of all occupant 
fatalities. Advocates recommends that NHTSA be directed to 
issue a rule on rollover stability standards to prevent deaths 
and injuries, as well as a crash worthiness standard to protect 
the occupants of rollover crashes.
    Also, vehicle aggressivity and incompatibility are 
needlessly contributing to motor vehicle deaths and injuries. 
Light trucks and vans, including SUVs, can cause great harm to 
smaller passenger vehicles in a crash, particularly a side 
impact crash. Legislation should direct NHTSA to improve the 
compatibility between larger and smaller passenger vehicles, 
reduce the aggressivity of larger vehicles, and enhance the 
front and side impact protection of small and mid-size 
passenger vehicles.
    Last year more than 16 million new cars were sold. Yet, 
consumer information on the safety of cars is fragmented and 
incomplete. A Lou Harris public opinion poll showed that 84 
percent of the public supports having a safety rating on a 
window sticker of new cars at the point of sale. In 1996, the 
National Academy of Sciences made a similar recommendation and 
now it's time for NHTSA to move forward on this recommendation.
    Let me briefly now turn to improvements that have already 
been discussed this morning and the need to make improvements 
in the area of traffic safety programs. Attached to my 
testimony are maps and charts showing the status of traffic 
safety laws in states across the country. Unfortunately, most 
states lack some of these basic laws. This is in contrast to 
aviation safety, where every person flying on every airplane in 
every state is subject to the same uniform laws and 
regulations. This uniformity has been a foundation for 
achieving an exemplary safety record for aviation travel 
throughout the United States and should be pursued in the area 
of highway safety, where thousands are killed and millions more 
are injured every year.
    At present only 18 states and the District of Columbia have 
a primary enforcement safety belt law. Adoption of these laws 
absolutely requires and results in higher use rates. Advocates 
supports the financial incentive that the administration 
proposes but we would also like to see a sanction imposed for 
states that fail to act.
    Similarly, the DOT proposal to encourage State adoption of 
primary safety belt laws is very weak and will result in 
nothing more than accounting gimmicks as the states who are 
penalized for not having a primary safety belt law or a 90 
percent use rate will be able to move funds from the highway 
safety improvement program and construction program into their 
402 traffic safety program. Then there is an escape hatch where 
they can move those traffic safety funds back into the 
construction program. And this is a measure and countermeasure 
that is not going to result in all 50 states having a primary 
safety belt law.
    While Advocates certainly supports the idea of State flex, 
sometimes you just have to flex your muscle to get the states 
to act, and that's what Congress has done for the 21 drinking 
age, the teen drinking laws and the .08 BAC law.
    I would just like to mention briefly two issues related to 
child safety which we would like the Committee to address in 
their NHTSA authorization bill. Last year this Committee took 
the lead in moving legislation to improve booster seat safety. 
Unfortunately, a provision concerning incentive grant programs 
to states to enact booster seat laws was dropped. We would like 
to encourage the Committee to revisit that issue and to include 
a targeted incentive grant program to encourage State booster 
seat laws, as well as a requirement for built-in child 
restraints to increase their use.
    I also would like to submit testimony from one of my safety 
partners, Kids in Cars. They have been concerned about the 
serious safety issue involving children who are left unattended 
in vehicles or killed by vehicles backing up. They have 
collected data showing that deaths and injuries occur to 
hundreds of children every year because of this, and it's not 
an issue that's on NHTSA's radar screen and we certainly think 
it's one they should deal with.
    The recommendations which we include in our more detailed 
testimony which has been submitted is an action plan that 
Advocates supports because it will result in common sense cost 
effective laws and will result in saving lives and dollars.
    Advocates' vision for the future is to be invited back by 
this Committee to testify in 2009, I hope I'm not the witness, 
but if I am, I would like to report that the United States has 
experienced the lowest traffic fatalities in a decade, that 
fatal rollover crashes are going down, and that the war on 
drunk driving is being won and motor vehicle crashes are no 
longer the leading cause of death and injury for Americans 
young and old.
    And yes, we do have the solutions, and it's really a matter 
of the political will to put those solutions in place. Thank 
you.
    [The prepared statement of Ms. Gillan follows:]

 Prepared Statement of Jacqueline S. Gillan, Vice President, Advocates 
                      For Highway And Auto Safety

    Good afternoon. My name is Jacqueline Gillan and I am Vice 
President of Advocates for Highway and Auto Safety (Advocates), a 
coalition of consumer, health, safety, law enforcement and insurance 
companies and organizations working together to support the adoption of 
laws and programs to reduce deaths and injuries on our highways. 
Advocates is unique. We focus our efforts on all areas affecting 
highway and auto safety--the roadway, the vehicle and the driver. 
Founded in 1989, Advocates has a long history of working closely with 
the Senate Committee on Commerce, Science and Transportation in the 
development of Federal legislative policies to advance safety. I am 
pleased to testify this morning on the importance of reauthorizing the 
motor vehicle safety programs and the traffic safety programs of the 
National Highway Traffic Safety Administration (NHTSA).
    Every day millions of American families leave their homes to travel 
by car to work, school, medical appointments, soccer practice, shopping 
malls and cultural activities. Although our Nation's highway system has 
created mobility opportunities that are the envy of the world, it has 
also resulted in a morbidity and mortality toll that is not. The U.S. 
Department of Transportation (DOT) recently released the preliminary 
traffic fatalities for the year 2002 and the news was grim.
    Overall, there were 42,850 deaths last year compared to 42,116 in 
2001, an increase of 734 deaths. This is the highest number of motor 
vehicle fatalities in over a decade. The data show that motor vehicle 
fatalities rose in nearly every category of crashes. Alcohol-related 
fatalities dramatically increased by 522 deaths to a total of 17,970 
fatalities; a record 10,626 deaths occurred in rollover crashes, nearly 
a 5 percent increase from last year; more teen drivers were killed for 
a total of 8,996 deaths; deaths for children 8 to 15 years old 
increased significantly to 1,604 lives lost; for the fifth consecutive 
year motorcycle deaths climbed to 3,276; and lastly, a majority of 
those killed in motor vehicle crashes were not wearing a seatbelt. In 
addition to the emotional toll, these deaths are associated with a 
large financial toll to society. According to DOT, the cost of motor 
vehicle crashes exceeds $230 billion annually.
    Although the number of deaths slightly decreased in certain areas, 
such as pedestrians, bicyclists, crashes involving large trucks, and 
children under seven years of age, these marginal improvements barely 
offset what would have been a significantly larger increase in total 
traffic fatalities in 2002. The highway safety community takes no 
solace in these victories when the predominant trend has been a general 
increase in total highway deaths, reversal of improvements in alcohol-
related fatalities, and unabated growth in the number of deaths in 
rollover crashes.
    The six-year surface transportation reauthorization legislation 
submitted by DOT recommends more than $247 billion in spending. Without 
a major reversal in the growing number of highway fatalities and 
injuries in the next six years, almost 250,000 people will die and 18 
million more will be injured at a societal cost of more than $1.38 
trillion. The number of deaths is roughly equivalent to half the 
population of Portland, Oregon. The number of individuals injured in 
motor vehicle crashes is equal to the combined population of the states 
of North Dakota, Kansas, Montana, New Jersey and Washington. A mere 20 
percent reduction in fatalities and injuries over the next six years 
would more than pay for the entire cost of the Administration's 
legislation.
    This afternoon I will discuss the urgent need for the 108th 
Congress to enact a NHTSA reauthorization bill of the agency's motor 
vehicle and traffic safety programs that reverses this deadly trend and 
seriously addresses the unnecessary and preventable carnage on our 
highways. The good news is that effective, proven solutions and 
strategies already are on the shelf and ready to be used. Many states 
and communities already are employing these ideas and programs and 
realizing important reductions in highway deaths and injuries. 
Furthermore, technological solutions to improve the crashworthiness of 
motor vehicles are available and in use for some makes and models.
    The map and charts attached to my testimony show a patchwork quilt 
of state laws. As a result, in 2003 most American families are not 
protected by laws that will ensure their safety when traveling on our 
Nation's roads and highways. This is in contrast to aviation safety 
where every person, flying on every airplane, in every state is subject 
to the same uniform safety laws and regulations. This uniformity has 
been the foundation for achieving an exemplary safety record of 
aviation travel throughout the United States. Unfortunately, this is 
not the case for motor vehicle travel where nearly every state lacks 
some basic traffic safety law and thousands of Americans are killed and 
millions more injured every year.
    While we are well on our way to having a uniform .08 percent BAC 
(blood alcohol concentration) per se law in every state, most states 
still lack basic highway safety laws.

  <bullet> 32 states do not have a primary enforcement safety belt law.

  <bullet> 11 states need to pass a .08 percent BAC per se law.

  <bullet> 17 states do not have an adequate repeat offender law for 
        impaired driving.

  <bullet> 14 states do not prohibit open alcohol containers while 
        driving.

  <bullet> 17 states have serious gaps in their child restraint laws.

  <bullet> 33 states do not require children ages 4 to 8 years old to 
        use a booster seat.

  <bullet> 30 states do not require all motorcycle riders to wear a 
        helmet.

  <bullet> Most states do not protect new teen drivers with an optimal 
        graduated driver license law.

    Furthermore, some of the most important regulatory actions 
undertaken by NHTSA in the past thirteen years have been the result of 
congressional direction, primarily at the initiation of the Senate 
Commerce, Science and Transportation Committee. The most recent example 
was enactment of the Transportation Recall Enhancement, Accountability, 
and Documentation (TREAD) Act (P.L. 106-414, Nov. 1, 2000) which 
directed the agency to undertake numerous rulemakings on a variety of 
issues related to tire and child passenger safety and provided the 
resources to do the job. This is a model Advocates strongly supports 
for enactment of the NHTSA reauthorization legislation in the 108th 
Congress.
    In summary, Advocates urges the Senate Subcommittee on Competition, 
Foreign Commerce and Infrastructure to enact NHTSA reauthorization 
legislation that:

  <bullet> Provides sufficient funding resources for the agency to 
        fulfill its mission,

  <bullet> Establishes a safety regulatory agenda with deadlines for 
        agency action, and

  <bullet> Results in state adoption and enforcement of uniform 
        lifesaving traffic safety laws.
NHTSA's Motor Vehicle Safety and Traffic Safety Programs Suffer From 
        Insufficient Funds and This Is Jeopardizing Efforts to Bring 
        Down Deaths and Injuries
    One of the most critical weapons in the battle to reduce deaths and 
injuries is adequate financial resources to support programs and 
initiatives to advance safety. At present, nearly 95 percent of all 
transportation-related fatalities are the result of motor vehicle 
crashes but NHTSA's budget is less than one percent of the entire DOT 
budget. Motor vehicle safety regulatory actions languish, state 
enforcement of impaired driving laws is inadequate, and NHTSA data 
collection is hampered because of insufficient resources to address 
these problems. Since the last NHTSA motor vehicle program 
reauthorization legislation was enacted, this Committee has needed to 
act twice in the past three years to correct severe funding shortfalls. 
When serious problems resulting in deaths and injuries were identified 
in some passenger vehicle airbags, NHTSA was compelled to issue an 
advanced airbag rule to upgrade Federal Motor Vehicle Safety Standard 
(FMVSS) No. 208 to require new tests and advanced technology. 
Additional funds were needed by the agency to complete the necessary 
research and data analysis. Furthermore, during congressional hearings 
and media attention on the deadly rollover occurrence of Ford Explorers 
equipped with Firestone tires, it was revealed that neither the Federal 
tire standard nor the roof crush standard had been updated since the 
early 1970s. Also, warning signs of the potential problem were missed 
because of inadequate data collection and analysis. Again, legislation 
was enacted providing additional funds to address the problem. In both 
cases, insufficient program funding and staff resources contributed to 
the agency's missteps in identifying and acting upon the problems.
    The current authorization funding level for NHTSA's motor vehicle 
safety and consumer information programs is only $107.9 million, less 
than the economic cost of 110 highway deaths, which represents a single 
day of fatalities on our highways. Since 1980, the agency has been 
playing a game of catch-up. Today, funding levels for motor vehicle 
safety and traffic safety programs are not much higher than 1980 
funding levels in current dollars.
    For over twenty years, NHTSA has been underfunded and its mission 
compromised because of a lack of adequate resources to combat the 
rising tide of increased highway deaths and injuries. The legislative 
proposal released last week by DOT will continue to deny NHTSA the 
resources required to issue overdue motor vehicle safety regulations, 
upgrade vehicle safety standards that date back to the early 1970s, 
improve consumer information, attack impaired driving, enforce existing 
traffic safety laws, compel states to enact primary safety belt laws, 
and ultimately, lower the toll of highway deaths and injuries.

Recommended Actions
    Increase funding authorization for NHTSA's motor vehicle safety and 
consumer information programs.
    Increase traffic safety grant funding with a stronger emphasis on 
enforcement of laws to combat drunk driving and encourage seat belt 
use.

NHTSA Should Issue Rollover Prevention and Crashworthiness Standards to 
        Stop the Growing Number of Annual Highway Fatalties and 
        Injuries Due to Vehicle Rollovers
    Last February, the Senate Commerce, Science and Transportation 
Committee held groundbreaking hearings on the safety of sport utility 
vehicles (SUVs). The purpose of the hearing was to examine issues 
related to both the safety of SUV occupants as well as the safety of 
occupants of passenger vehicles involved in a crash with an SUV.
    Rollover crashes result in a tragedy of massive proportions, with 
more than 10,000 deaths and hundreds of thousands of crippling injuries 
to Americans each year. Rollover crashes represent only 3 percent of 
all collisions but account for 32 percent of all occupant fatalities.
    In the last few years, light truck and van sales have amounted to 
slightly more than 50 percent of the new passenger vehicle market. This 
surprising market share for new SUVs, pickup trucks, and vans has been 
propelled mainly by the explosive growth in the purchase of new SUVs. 
Although cars still predominate in the passenger vehicle fleet--nearly 
two-thirds of registered vehicles--this proportion consists of an older 
car fleet that is increasingly being replaced by new light truck 
purchases, particularly of SUVs. The soaring popularity of SUVs since 
the start of the 1990s has resulted in more than doubling their numbers 
on the road during this period, accompanied by a doubling of fatal 
rollover crashes.
    The preliminary results of NHTSA's annual Fatal Analysis Reporting 
System (FARS) for 2002 show yet another increase in deaths and injuries 
due to rollover crashes--from 10,130 in 2001 to 10,626 last year--with 
almost half of them due to an increase in rollover fatal crashes by 
SUVs and pickup trucks. In fact, our Nation suffered an astounding 10 
percent increase in SUV rollover deaths alone in just one year. When 
you add pickup trucks into the equation, seventy-eight (78) percent of 
the increase in passenger vehicle rollover deaths from 2001 to 2002 was 
due just to the increased fatal rollover crashes of SUVs and pickup 
trucks.
    Six of every 10 deaths in SUVs last year occurred in rollover 
crashes. No other passenger vehicle has the majority of its deaths take 
place in rollovers. By contrast, the great majority of deaths in 
passenger cars--more than 75 percent--occur in other crash modes. It is 
very clear that we are needlessly taking lives in the U.S. because of 
the tendency of SUVs to roll over in both single-and multi-vehicle 
crashes.
    At a press event in 1994, DOT announced several safety initiatives 
to address rollover crashes in lieu of issuing a rollover stability 
standard. Nearly ten years later, DOT has made little any progress in 
completing any of the major actions. NHTSA knows what needs to be done 
to protect our citizens from the lethal outcomes of rollover crashes. 
The agency failed to act when the need became clear years ago to stop 
the annual rise in deaths and injuries from rollovers. As the 
proportion of new vehicle sales strongly shifted each year towards 
light trucks and vans and away from passenger cars, NHTSA had an 
opportunity to act decisively to establish a vehicle stability standard 
to reduce the tendency of most SUVs and pickups to roll over, but the 
agency squandered that opportunity. It also had an opportunity at that 
time to fulfill its promises of improving occupant safety when, 
predictably, vehicles roll over. That could have been accomplished by 
improving the resistance of roofs to being smashed and mangled in 
rollovers, requiring upper and lower interior air bags instead of just 
padding to protect occupants, changing the design of door locks and 
latches to prevent ejection, installing anti-ejection window glazing, 
and increasing the effectiveness of seat belts in rollovers by properly 
restraining passengers with such well-known safety features as belt 
pretensioners.
    Yet, here we are almost 10 years after NHTSA terminated rulemaking 
to set a vehicle stability standard with the American public placed at 
increased risk of death and injury every year because of the growing 
numbers and percentage of SUVs and pickups in the traffic stream. 
Instead, NHTSA has promised a consumer information regulation to reveal 
the on-road rollover tendencies of SUVs and pickups. However, that 
promise is highly qualified. Although the agency issued a rollover 
rating system based on static stability factor (SSF) and is developing 
a rating system based on a dynamic test procedure, the agency has 
warned that it will be years before enough vehicles are tested and 
enough data from the field are collected to be able to determine if the 
rollover ratings from dynamic testing are accurate indications of 
rollover tendencies. So, while NHTSA collects several years of data to 
determine whether its testing regime is even tenable, the American 
consumer will continue to buy vehicles that place individuals and 
families at increased risk of death and debilitating injuries.

Recommended Actions
    Require NHTSA to issue a final rule on a rollover stability 
standard to prevent deaths and injuries.
    Require NHTSA to issue a final rule on a rollover crashworthiness 
standard that includes improvements in roof strength, advanced upper 
interior head impact protection, ejection prevention measures that 
includes a combination of side air bags for upper and lower impact 
protection and window glazing, and integrated seating systems using 
pretensioners and load limiters in safety belts.

Improve the Safety of 15-Passenger Vans
    Perhaps one of the clearest indications that NHTSA needs to control 
basic vehicle designs that consistently produce high rates of rollover 
crashes are the horrific rollover crashes during the past few years 
among 15-passenger vans. A study released by NHTSA in late 2002 showed 
how, in 7 states, 15-passenger vans as a class, regardless of the 
number of passengers on board, are substantially less safe than all 
vans taken together. The data from FARS for the year 2000 showed that 
17.6 percent of van crashes involved rollovers, not significantly 
greater than passenger cars at 15.3 percent. However, single vehicle 
rollover crashes of 15-passenger vans happen more frequently than with 
any other van when there are 5 occupants or more being transported. 
When these big vans have 5 to 9 passengers aboard, almost 21 percent of 
their single-vehicle crashes are rollovers. When the passenger load is 
between 10 and the maximum seating capacity of 15 occupants, single-
vehicle rollovers are 29 percent of all van crashes. Even more 
dramatic, when 15-passenger vans are overloaded, i.e., more than 15 
passengers on board, 70 percent of the single-vehicle crashes for these 
extra-heavy vans were rollovers. These findings are similar to those of 
the National Transportation Safety Board (NTSB), released in October 
2002, that found 15-passenger vans with 10 to 15 passengers onboard had 
a rollover rate about three times greater than that of vans seating 5 
or fewer passengers. In addition, NTSB found that 15-passenger vans 
carrying 10 to 15 passengers rolled over in 96 of the 113 single-
vehicle crashes investigated, or in 85 percent of those crashes.
    Unfortunately, NHTSA has only issued advisories about more careful 
operation of these vans and the use of better-trained drivers, and has 
even stated that there is nothing inherently defective about their 
design. These disclaimers about the intrinsically poor stability and 
safety of 15-passenger vans are unsettling when they are viewed in 
relation to two safety recommendations issued by the NTSB on November 
1, 2002 to NHTSA and to two vehicle manufacturers, Ford Motor Company 
and General Motors Corporation. The NTSB recommendations asked NHTSA to 
include 15-passenger vans in the agency's rollover testing program and 
to cooperate with vehicle manufacturers to explore and test 
technologies, including electronic stability systems, that will help 
drivers maintain stable control over these vehicles.
    S. 717, the Passenger Van Safety Act of 2003, sponsored by Sen. 
Olympia Snowe (R-ME) seizes the initiative to improve the safety of 15-
passenger vans by putting NTSB's recommendations into action. Advocates 
also supports fundamental changes in 15-passenger van design that will 
make them safer vehicles beyond the addition of stability-enhancing 
technologies and rollover test results showing their tendency to roll 
over. Unfortunately, 15-passenger vans, as well as larger passenger 
vehicles, especially medium and large SUVs and vans, along with small 
buses, are often exempted from key NHTSA safety regulations for 
crashworthiness. For example, because of the distance of seating 
positions in 15-passenger vans from side doors and the fact that the 
vans weigh more than 6,000 pounds, the lower interior side impact 
protection standard, FMVSS No. 214, does not apply to these big vans. 
This major safety standard also does not apply to any vehicles 
exceeding 6,000 pounds, or even to certain vehicles under this weight 
limit, such as walk-in vans, motor homes, ambulances, and vehicles with 
removable doors. Bigger passenger vehicles, then, as well as certain 
kinds of smaller passenger vehicles, are exempt from the minimal 
protection required by FMVSS No. 214.
    Similarly, the current roof crush standard--a standard that is weak 
and ineffective in preventing both general roof collapse and local 
intrusion in rollover crashes--exempts all passenger vehicles above 
6,000 pounds gross vehicle weight rating. This means that 15-passenger 
vans, other large vans, small buses, and well-known makes and models of 
SUVs and pickup trucks, do not have to meet even the inadequate test 
compliance requirements of FMVSS No. 216. Neither of the exemptions for 
larger, heavier passenger vehicles weighing more than 6,000 pounds 
gross vehicle weight rating is based on any compelling data that these 
vehicles are somehow safe for their occupants without adherence to even 
these two weak standards. In fact, some of the vehicles with the worst 
rollover crash rates and roof failures are among the vehicles exempted 
from these two major standards. To complicate the issue further, NHTSA 
requires all passenger vehicles less than 10,000 pounds gross vehicle 
weight rating to comply with the head injury protection requirements 
for upper interior impacts, including side impacts, but does not 
require similar compliance for vehicles between 6,000 and 10,000 pounds 
gross vehicle weight rating for lower interior torso protection under 
Standard No. 214.

Recommended Actions
    Congress should enact S. 717 as well as direct NHTSA to conduct 
rulemaking and issue final regulations to extend the protection of all 
of the occupant protection standards, even those which need to be 
strengthened, to all passenger vehicles regardless of weight or size.

Vehicle Aggressivity and Incompatibility Are Needlessly Contributing to 
        Motor Vehicle Deaths and Injuries
    The unparalleled growth in the sale and use of SUVs and other light 
trucks for personal transportation over the last 15 years has produced 
another major impediment to safety on our roads and highways. Large 
SUVs, pickup trucks, and full-size vans are disproportionately 
responsible for increasing the number of deaths and injuries when they 
collide with smaller passenger vehicles, including impacts even with 
small SUVs and mini-vans. This is known in vehicle safety engineering 
as ``crash incompatibility''. This means that when there are two 
unequal collision partners, as the engineers refer to the vehicles that 
strike each other, the bigger, heavier, taller vehicle almost always 
inflicts more severe damage on the smaller, lighter, shorter vehicle.
    According to NHTSA, the number of passenger car occupants dying in 
two-vehicle crashes with light trucks or vans increased in 2002 
compared to 2001, while the number of fatalities in the light trucks or 
vans actually decreased. These mismatch crashes are especially lethal 
when two factors are present: first, the heavier, bigger vehicle is the 
``bullet'' or striking vehicle and the lighter, smaller vehicle is the 
``target'' or struck vehicle, and, second, the bigger vehicle hits the 
smaller vehicle in the side. In these circumstances the consequences 
are fairly predictable. The bigger, heavier, higher vehicle rides over 
the lower door sills of the side of the small vehicle in a side impact, 
or rides above its low crash management features in a frontal 
collision. As a result, the smaller vehicle's occupant compartment 
suffers enormous deformation and intrusion from the impact with the 
bigger vehicle.
    Recent studies by both American and Australian researchers have 
underscored the incredibly high level of harm that large light trucks 
and vans (LTVs), especially SUVs, inflicted on smaller passenger 
vehicles, particularly small cars, because of the large differences in 
weight, size, height, and stiffness. According to NHTSA, for cars 
struck in the near side by pickup trucks, there are 26 fatalities among 
passenger car drivers for each fatality among pickup truck drivers. For 
SUVs the ratio is 16 to 1.
    To date, NHTSA has done essentially nothing to reduce this 
tremendous ``harm difference'' between the biggest, heaviest members of 
the passenger vehicle fleet and the smaller vehicles. The agency needs 
to reduce the aggressivity of larger vehicles and simultaneously to 
improve the protection of occupants in the smaller, struck vehicles by 
undertaking research and regulatory actions on an accelerated calendar. 
Although NHTSA indicates this is a safety priority area, the agency's 
FY '04 budget unfortunately does not include any request for increased 
funding for this initiative.
    Advocates and others in the highway safety community are concerned 
that rhetoric does not match reality and the problem will continue to 
grow as LTVs become a larger percentage of the vehicle fleet. There are 
several actions the agency should be taking in order to address this 
growing problem. For example, in the area of research, NHTSA's National 
Center for Statistics and Analysis currently collects detailed crash 
information for a sample of moderate to high severity crashes. However, 
the data points collected do not adequately document and illuminate the 
most critical aspects of passenger vehicle to passenger vehicle 
crashes, especially those involving mismatched pairs. Similar change 
should apply to all agency data collection from real world crashes. 
Data collection would be further enriched if the number of cases 
investigated were increased to improve the ability of the agency to 
generalize about the reasons for vehicle responses and occupant 
injuries in crashes involving incompatible passenger vehicles.
    NHTSA also can improve the compatibility between larger and smaller 
makes and models of the passenger fleet by reducing the aggressivity of 
larger vehicles, especially light trucks and vans. Lowering the front 
end height difference of larger, heavier vehicles to match the front 
ends and sides of smaller vehicles will prevent larger vehicles from 
riding over the front ends and side door sills of smaller passenger 
vehicles. Furthermore, simultaneously reducing the crash stiffness of 
larger pickup trucks, SUVs, and big vans would ensure that crash forces 
are more evenly distributed between larger and smaller vehicles in both 
front and side in multi-vehicle collisions, which would improve safety.
    Side impacts in passenger cars alone resulted in about 5,400 deaths 
in each of the last few years, more than 30 percent of passenger car 
multiple-vehicle collision fatalities. Currently, the motor vehicle 
safety standards for upper interior side impact (FMVSS No. 201) and 
lower side impact (FMVSS No. 214) are too weak and need to be upgraded. 
When NHTSA adopted FMVSS No. 214 back in the early 1990s, it should be 
noted that the majority of the passenger vehicle fleet already met its 
compliance requirements, even without any additional countermeasures. 
The standard was indexed to meet the existing protective capabilities 
of the vehicle fleet. Additional protection could be achieved by 
enhancing the side impact protection of occupants by requiring dynamic 
impact safety systems, such as air bags, for both upper and lower 
portions of the vehicle interior.
    Lastly, consumers lack essential, basic information about how cars 
perform in side impact crashes. The NHTSA New Car Assessment Program 
(NCAP) conducts side impact crash tests on new cars but the tests use a 
barrier similar to a mid-size car to crash into small passenger 
vehicles. As a result, the test scores are misleading because they fail 
to inform consumers about how a vehicle performs in the real world. 
With the changing mix in the vehicle population and growing number of 
LTVs, especially SUVs, if you drive a car it is growing ever more 
likely you will be hit in the side by a vehicle larger than your own.

Recommended Actions
    Require NHTSA to improve vehicle compatibility between larger and 
smaller makes and models of the passenger vehicle fleet by reducing the 
aggressivity of larger vehicles, especially light trucks and vans.
    Enhance the front and side impact protection of occupants of small 
and mid-sized passenger vehicles.
    Increase and improve data collection on the most critical aspects 
of passenger vehicle to passenger vehicle crashes, especially those 
involving mismatched collision partners.
    Provide consumers with better information about how passenger cars 
perform in side impact crashes with vehicles that are not similar in 
size.

Consumer Information On Safety Is Fragmented and Incomplete
    Last year, more than 16.8 million new cars were sold in the United 
States. However, consumers entering dealer showrooms were hampered in 
making educated purchasing decision because of a lack of comprehensive, 
comparative information on the safety performance of different makes 
and models of automobiles. Consumer information on the comparative 
safety of vehicles and vehicle equipment remains woefully inadequate. 
Even though buying a car is the second most expensive consumer 
purchase, next to the purchase of a home, the majority of consumers end 
up at the mercy of the sales pitch and without recourse to objective 
information. While energy conservation information is required on home 
appliances and other household items and even on passenger vehicles, 
critical safety information is not required on vehicles at the point of 
sale. The fact is that consumers get more information about the health 
and safety value of a $3 box of cereal than they do about vehicles that 
cost $30,000 and more in the dealer showroom.
    Providing vehicle buyers with important safety information at the 
point of sale is not a new idea. In 1994, the Secretary of 
Transportation suggested just such a label but it was never 
implemented. In 1996, the National Academy of Sciences issued a report 
that called for providing consumers with more and easier to use safety 
information, including a vehicle safety label with a summary safety 
rating. (Shopping for Safety, Transportation Research Board Special 
Report No. 248, National Academy of Sciences (1996).) Throughout the 
1990s, in surveys conducted for Advocates by pollster Lou Harris, the 
public repeatedly expressed a strong desire for objective safety 
information. In a 2001 public opinion poll, 84 percent of the public 
supported placing a government safety rating on a window sticker on 
every new vehicle at the point of sale.
    There is no doubt that consumers continue to clamor for helpful 
information about vehicle safety. A safety label on the vehicle will 
ensure that every purchaser will at least be aware of the same basic, 
objective safety information for every vehicle they are interested in 
buying. Additionally, NHTSA should release to the public all types of 
vehicle safety information including early warning information that 
Congress requires the agency to collect under the TREAD Act. In this 
way, consumers will be knowledgeable about the real world performance 
of vehicles they purchase and drive.

Recommended Action
    Congress should instruct NHTSA to require that all new vehicles 
display a safety label at the point of sale that informs prospective 
purchasers about the safety of the vehicle with respect to major 
vehicle safety standards as well as specific safety features and 
equipment, both mandated and optional, that are in the vehicle.

Leave No State Behind: Congress Should Encourage Uniform State 
        Adoption of Life-Saving Highway Safety Laws and Provide States 
        With Sufficient Funds to Enforce These Laws
    Improving highway safety requires a two-pronged strategy involving 
better vehicle design and changing driver behavior. Successful changes 
in driver behavior have been accomplished only through the enactment of 
laws, enforcement of those laws and education about the laws. 
Unfortunately, too few states have adopted some of the most effective 
traffic safety laws that contribute to saving lives and preventing 
injuries on our roads and highways. The recently released 2002 traffic 
fatality statistics underscore the need to make an investment in safety 
and ensure the effectiveness of programs if we are to reverse the 
rising tide of highway fatalities and injuries.
    Historically, funding for highway and traffic safety needs through 
the Section 402 program and other incentive grant initiatives has 
provided needed resources to states to advance safety. The level of 
funding and how those funds are used will be critical elements in 
determining the course of highway safety in the next six years.
    Advocates is disappointed in DOT's proposal submitted to Congress 
last week outlining the Administration's plans for funding state 
traffic safety activities as well as other measures to address growing 
highway fatalities.
    The funding level for DOT's Section 402 traffic safety program is 
inadequate to meet the challenges we face. When one adds up all of the 
various categories the Administration's proposal provides for 
traditional highway safety programs, it equals about $539 million. This 
represents only a marginal funding increase of $20 million for FY 2004 
over the FY 2003 total of $519 million. It amounts to less than a 4 
percent increase in funding. Furthermore, the Administration's proposal 
includes a vigorous new program for data collection and analysis. While 
we support the need for such a program, if you subtract the proposed 
$50 million dollars for the state information systems grant program, 
the remaining authorization for highway safety grants in FY 2004 is 
actually $30 million less than was authorized under the Transportation 
Equity Act for the 21st Century for FY 2003.
    These programs, however, are only effective if they promote 
specific safety goals and improvements. Despite the marginal increase 
in funding proposed by the Administration over the coming six years, 
the traffic death toll will not decline until nearly all occupants 
buckle up and impaired driving is abated. The Administration's proposal 
includes a meager $50 million for state impaired driving programs. This 
amount does not even equal the financial cost of 50 drunk driving 
deaths--the number that occurs daily on our highways--out of a national 
total in 2002 of 17,970 alcohol-related deaths.
    Safety, medical, health, and law enforcement groups and DOT all 
agree that seat belt use is critical to safety in most crash modes. 
Last year, statistics show that the majority of fatally injured victims 
were not wearing their seat belts. It is incumbent on safety advocates, 
the Administration, and Congress, to ensure that everyone gets the 
message, ``buckle up for safety.'' We can do this by requiring all 
states to adopt and enforce primary enforcement seat belt use laws. 
Forty-nine states and the District of Columbia have seat belt laws on 
the books. Of these, only 18 states and the District have primary 
enforcement seat belt use laws. Switching from a seat belt use law that 
permits only secondary enforcement, when another infraction has been 
committed, to a primary enforcement law entails no additional costs or 
burdens and is not an unfunded (or unfounded) mandate to the states. We 
have tried incentive grants for years, and we know that redirection 
programs usually result in nothing more than a funding shell game. For 
these reasons, Advocates supports a mandatory sanction of Federal-aid 
highway funds to promote seat belt use and safety. Such sanctions have 
been effective when used judiciously and to promote important safety 
goals, such as state adoption of the minimum drinking age law, the zero 
alcohol tolerance law, and .08 percent BAC laws.
    We realize that the Administration includes a primary enforcement 
seat belt law funding redirection provision in the proposed new Highway 
Safety Improvement Program (HSIP). That proposal will not be effective 
in moving states to adopt primary enforcement laws for a number of 
reasons. First, the redirection of funds does not occur if a state 
either adopts a primary enforcement seat belt law or achieves a seat 
belt use rate of 90 percent or more. By permitting the 90 percent belt 
use alternative, the proposal gives reluctant states the hope that both 
redirection of funds and primary enforcement can be avoided. Even 
though no state has ever achieved 90 percent belt use without primary 
enforcement, this option may well lead states to delay or never adopt a 
primary enforcement seat belt law. Second, the redirection affects only 
10 percent of the total $1 billion Highway Safety Improvement Program. 
For many states, their share will probably not be sufficient penalty to 
entice them to adopt primary enforcement. Third, the redirection would 
require that the redirected 10 percent of the state's Highway Safety 
Improvement Program funds be expended on Section 402 programs. This may 
pose problems for the appropriate expenditure of safety funds when 
large amounts of funding are funneled into the program at the last 
minute, without proper planning and preparation. Moreover, funds 
redirected from the Highway Safety Improvement Program might be in 
addition to funds required to be transferred to the state's Section 402 
program if the state has not complied with the requirements of Section 
154 (Open container requirements) and Section 164 (Minimum penalties 
for repeat offenders).
    The final problem with the proposed redirection is the funding 
shell game. Under the Administration's proposal, while 10 percent of 
the Highway Safety Improvement Program may be redirected to the Section 
402 program, half or more of the funds received by a state under the 
newly proposed Performance Grants could be transferred out of the 
Section 402 program and back into the Highway Safety Improvement 
Program. Thus, the proposed redirection ends up as a meaningless paper 
chase and accounting gimmick that will not serve the goals of improving 
safety and increasing the number of people who buckle up.
    In addition, for some years now, the Section 402 program has been 
flying under the radar of good principles of accountability and 
responsibility. Although we support increasing funds available to 
states for safety, we are concerned that the funds already in the 
Section 402 program are not being spent in the most effective manner. 
Over the years, the program has devolved into a self-reporting system 
in which states set their own goals and determine whether those goals 
have been met. In essence, states make up their own test, grade their 
own papers, and write their own report cards.
    According to a General Accounting Office (GAO) report issued in 
April, 2003 (GAO-03-474) in response to a request by Sen. Byron L. 
Dorgan (D-ND), NHTSA has the ability to conduct management reviews to 
help improve the financial and operational management of state 
programs. However, GAO found that there are no written guidelines on 
when to perform management reviews and those reviews are not being 
performed consistently. For example, the GAO found that in the six 
NHTSA regions visited, there were goals of conducting management 
reviews every two years but there was no set schedule and they were 
conducted only when requested by a state.
    Furthermore, when a state program is struggling, NHTSA has the 
ability to work with a state to develop improvement plans. Again, GAO 
found that NHTSA has made limited use of improvement plans to help 
states address highway safety program deficiencies. If Federal dollars 
for traffic safety programs are increased but there is no increase in 
accountability and oversight, the American public will be victimized 
twice--taxpayer dollars will be wasted and highway safety will be 
jeopardized.

Recommended Actions
    Enact the DOT proposed incentive grant program encouraging adoption 
of primary enforcement safety belt laws but include a sanction after a 
reasonable time frame to ensure every state passes this lifesaving law 
by the end of the authorization period.
    Prohibit states that are subject to redirecting funds from the 
Highway Safety Improvement Program (HSIP) into the Section 402 program 
from shifting Section 402 funds back into the HSIP.
    Significantly increase funding for impaired driving programs that 
have a proven track record.
    Ensure accountability by requiring the expenditure of Section 402 
traffic safety funds on programs that are successful and increase NHTSA 
oversight of state program plans.

Enhance The Safety of Children In and Around Cars
    Motor vehicle crashes are the leading cause of death and injury to 
children. In 2002, 2,584 children under the age of 16 were killed in 
motor vehicle crashes and nearly 300,000 were injured. This means that 
every single day in the United States, seven children under the age of 
16 are killed and 850 are injured in car crashes. While the recently 
released preliminary FARS data indicates that last year fatalities for 
children age 7 and younger declined, it was not good news for older 
children. Fatalities for motor vehicle occupants ages 8 to 15 increased 
by almost 9 percent.
    While some progress has been made in protecting our youth, clearly 
more needs to be done. The decline in death and injury for children 
ages 4 through 7 is likely related to efforts throughout the country to 
enact booster seat laws. The movement started in the state of 
Washington because a mother, Autumn Skeen, lost her 4 year old son, 
Anton, in a car crash. Anton's parents believe his death would have 
been prevented if he had been riding in a booster seat and not just an 
adult seat belt. Three years after the Washington State Legislature 
became the first state to act, 16 states and the District of Columbia 
have booster seat laws that require children between the ages of 4 and 
7 or 8 to use booster seats once they have outgrown toddler child 
restraints.
    The need to protect children who have graduated from infant and 
toddler safety seats has been documented by research conducted by The 
Children's Hospital of Philadelphia in partnership with State Farm 
Insurance Companies. This research has found that half of children 
between the ages of 3 and 8 are improperly restrained in adult seat 
belts. This inappropriate restraint results in a three and one-half-
fold increase in the risk of significant injury and a four-fold 
increase in the risk of a serious head injury for those in this age 
group who are restrained by adult seat belts.
    The Senate Commerce, Science and Transportation Committee has been 
a leader in moving forward a legislative agenda to enhance the safety 
of child passengers. In the 106th Congress, legislation that originated 
with the Senate Commerce Committee requiring NHTSA to provide consumer 
information about the performance of child safety seats, was included 
in the final version of the TREAD Act. In the last Congress, this 
Committee again took the lead to push for legislation, named ``Anton's 
Law'', requiring NHTSA to issue a Federal safety standard for booster 
seats and requiring automakers to install, at long last, a shoulder/lap 
belt in all rear seating positions.
    The next step that needs to be taken to protect this age group is 
to encourage state adoption of booster seat laws. Advocates urges the 
Committee to take up and modify a proposal that was dropped from last 
year's congressional enactment of ``Anton's Law.'' This provision was a 
small grant program to foster state adoption of booster seat laws. 
Advocates supports a simple but direct incentive grant program that 
provides financial rewards to states that adopt booster seat laws and 
allows them to use the grants for enforcement of the new law, education 
about the new law, and provision of age-appropriate child restraints to 
families in need.
    Another serious safety risk that we urge the Committee to address 
in the NHTSA reauthorization legislation involves children who are left 
unattended in vehicles or standing behind vehicles that are placed in 
reverse, resulting in unnecessary deaths and injuries each year. Non-
profit organizations, such as Kids `N Cars, have documented in private 
research, the deaths of hundreds of children who were left in cars when 
outside temperatures soared, who were inadvertently killed when a car 
or truck backed over them, or who were killed or injured by power 
windows and sunroof systems that were not child-proof. It is time that 
NHTSA lead the effort to collect data on child fatalities and injuries 
that occur in or immediately outside the car, but not on public 
roadways. Also, NHTSA needs to analyze the data and take subsequent 
action to remedy safety inadequacies as they affect children.

Recommended Actions
    Include in the NHTSA authorization legislation an incentive grant 
program to encourage states to adopt booster seat laws. Permit funds to 
be used for enforcement, education and distribution of child restraints 
to families in need.
    Direct NHTSA to collect and publish data on child fatalities and 
injuries in parked or inoperable vehicles that result from 
strangulation and injuries involving automatic windows, and those from 
backing up collisions.
    Require NHTSA to ensure automatic window systems will not kill or 
injure children.
    Require NHTSA to enhance driver rear visibility to prevent backing 
up crashes into children and adults.

Conclusion
    The recommendations for action that Advocates supports are common 
sense, cost effective and will achieve savings in lives and dollars. 
The Senate Commerce, Science and Transportation Committee has been a 
leader in advancing legislative solutions to improve safety in all 
modes of transportation. Motor vehicle crashes are equivalent to a 
major airline crash every other day of the year. This public health 
epidemic does not have to continue unabated. Enactment of proposals to 
move the agency forward in addressing the unfinished regulatory agenda 
and providing states with direction and resources will reverse the 
deadly trend facing us in the coming years. Advocates' vision for the 
future is testifying before this subcommittee in 2006 to report that 
the U.S. experienced the lowest traffic fatalities in a decade, the war 
on drunk driving was being won, fatal rollover crashes were decreasing 
and motor vehicle crashes were no longer the leading cause of death and 
injury for Americans, young and old. We appreciate the invitation to 
testify today and look forward to working with this committee to craft 
a bill that will save lives and prevent needless deaths and injuries.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
GDL Key For State Law Chart
    Graduated Driver Licensing (GDL) Systems--Optimal graduated driver 
licensing systems consist of a learner's stage, an intermediate stage 
and an unrestricted driving stage. Within each of these stages, there 
are provisions that are optimal to providing safe circumstances under 
which to develop driving skills. The four provisions which are 
referenced on the law chart are listed below, numbered 1-4. Each 
state's law is intricate and this chart should serve only as a guide. 
To fully understand a state's law, one should review it.

  A.  Learner's Stage

    1.  Six Month Holding Period: A novice driver must be supervised by 
            an adult licensed driver at all times. If the learner 
            remains conviction free for six months, he or she 
            progresses to the intermediate stage. In an optimal 
            provision, there is not a reduction in this amount of time 
            if the driver takes a driver's education course.

    2.  30-50 Hours of Supervised Driving: A novice driver must receive 
            30-50 hours of behind-the-wheel training with an adult 
            licensed driver. In an optimal provision, there is not a 
            reduction in this amount of time if the driver takes a 
            driver's education course.

  B.  Intermediate Stage: While optimally this stage should continue 
        until age 18, states have been given credit in this chart for 
        having the following two restrictions for any period of time, 
        i.e., 6 months.

    3.  Nighttime Restriction: Because a majority of the crashes 
            involving teens occur before midnight, the optimal period 
            for supervised nighttime driving is from 9 or 10 p.m. to 5 
            a.m. Unsupervised driving during this period is prohibited.

    4.  Passenger Restriction: Limits the number of teenage passengers 
            that ride with a teen driver driving without adult 
            supervision. The optimal limit is no more than one teenage 
            passenger. Sometimes family members are excepted.

.08 BAC Per Se Laws in the States
    On October 23, 2000, President Clinton signed a federal .08 BAC per 
se law which required each state to enact .08 BAC per se legislation by 
October of 2003. States that do not pass it before October 1, 2003 will 
have 2% of certain highway construction funds withheld in 2004. The 
penalty increases by 2% each year after that, up to 8% in 2007 and 
every year thereafter. States that enact a .08 BAC per se law by 
October 1, 2006 will have any withheld funds returned.
    In the 17 years between the date of enactment of the first .08 BAC 
per se law and the day President Clinton signed the federal sanction, 
19 states and the District of Columbia enacted .08 BAC per se laws. In 
just the two and a half years since the federal law was passed, 20 
additional states have enacted .08 BAC per se laws.

------------------------------------------------------------------------
 Passed .08 BAC Per Se    Passed .08 BAC Per Se     Have Not Yet Passed
  Law Prior to October    Law After October 2000    .08  BAC Per Se Law
    2000  (19 + DC)                (20)                    (11)
------------------------------------------------------------------------
Alabama                  Alaska                   Colorado
California               Arizona                  Delaware
District of Columbia     Arkansas                 Massachusetts
Florida                  Connecticut              Michigan
Hawaii                   Georgia                  Minnesota
Idaho                    Indiana                  Nevada
Illinois                 Iowa                     New Jersey
Kansas                   Louisiana                Pennsylvania
Kentucky                 Maryland                 South Carolina
Maine                    Mississippi              West Virginia
New Hampshire            Missouri                 Wisconsin
New Mexico               Montana
North Carolina           Nebraska
Oregon                   New York
Rhode Island             North Dakota
Texas                    Ohio
Utah                     Oklahoma
Vermont                  South Dakota
Virginia                 Tennessee
Washington               Wyoming
------------------------------------------------------------------------

Repeat Offender and Open Container Laws in the States
    On May 22, 1998, President Clinton signed the Transportation Equity 
Act for the 21st Century, or TEA-21. This federal law included a 
redirection of highway construction funds for those states that did not 
have repeat offender and open container laws on the books by October 1, 
2000. In 2000 and 2001, states that had not enacted these laws had 1.5% 
of certain federal-aid highway funds transferred to the state's Section 
402 State and Community Highway Safety Grant Program or to hazard 
elimination. In 2002 and in each year thereafter, 3% of those funds 
will be redirected.
    Prior to the passage of TEA-21, all 50 states and the District of 
Columbia had some form of a repeat offender law and nearly all of them 
had open container/anti-consumption laws. However, most of these laws 
were weak and did not comply with the requirements in TEA-21. The 
states listed on the following pages as having had repeat offender or 
open container laws before May of 1998 are the only ones whose 
preexisting laws complied with TEA-21.
    It has been 5 years since TEA-21 was enacted, and there is still a 
long way to go. One-third of the nation's states (17) have yet to pass 
TEA-21 complaint repeat offender laws and nearly as many (14) still 
have not passed TEA-21 compliant open container laws.
    TEA-21 Compliant Repeat Offender Law: Any individual convicted of a 
second or subsequent offense for driving while intoxicated must have 
their license suspended for a minimum of 1 year, be subject to having 
their motor vehicles impounded or equipped with ignition interlock, 
receive alcohol abuse treatment as appropriate, and:

  (i)  for 2nd offense, not less than 30 days community service or 5 
        days of imprisonment; and

  (ii)  for 3rd and subsequent offense, not less than 60 days community 
        service or 10 days of imprisonment.

------------------------------------------------------------------------
                                                    Have Not Yet Passed
 Passed Repeat Offender   Passed Repeat Offender     TEA-21 Compliant
 Prior to May 1998 (4 +    After May 1998 (29)     Repeat  Offender Law
          DC)                                              (17)
------------------------------------------------------------------------
District of Columbia     Alabama                  Alaska
Maine                    Arizona                  California
Michigan                 Arkansas                 Connecticut
New Hampshire            Colorado                 Louisiana
Washington               Delaware                 Massachusetts
                         Florida                  Minnesota
                         Georgia                  New Mexico
                         Hawaii                   New York
                         Idaho                    Ohio
                         Illinois                 Oregon
                         Indiana                  Rhode Island
                         Iowa                     South Carolina
                         Kansas                   South Dakota
                         Kentucky                 Tennessee
                         Maryland                 Vermont
                         Mississippi              West Virginia
                         Missouri                 Wyoming
                         Montana
                         Nebraska
                         Nevada
                         New Jersey
                         North Carolina
                         North Dakota
                         Oklahoma
                         Pennsylvania
                         Texas
                         Utah
                         Virginia
                         Wisconsin
------------------------------------------------------------------------

    TEA-21 Compliant Open Container Law: The possession of any open 
alcoholic beverage container, or the consumption of any alcoholic 
beverage, in the passenger area of any motor vehicle (including 
possession or consumption by the driver of the vehicle) must be 
prohibited.

------------------------------------------------------------------------
 Passed Open Container                              Have Not Yet Passed
Prior to May 1998 (13 +   Passed Open Container    TEA-21 Compliant Open
          DC)              After May 1998 (23)      Container Law (14)
------------------------------------------------------------------------
California               Alabama                  Alaska
District of Columbia     Arizona                  Arkansas
Illinois                 Florida                  Colorado
Kansas                   Georgia                  Connecticut
Michigan                 Hawaii                   Delaware
Nevada                   Idaho                    Indiana
New Hampshire            Iowa                     Louisiana
North Dakota             Kentucky                 Mississippi
Ohio                     Maine                    Missouri
Oklahoma                 Maryland                 Montana
Oregon                   Massachusetts            Tennessee
Utah                     Minnesota                Virginia
Washington               Nebraska                 West Virginia
Wisconsin                New Jersey               Wyoming
                         New Mexico
                         New York
                         North Carolina
                         Pennsylvania
                         Rhode Island
                         South Carolina
                         South Dakota
                         Texas
                         Vermont
------------------------------------------------------------------------


    Senator Smith. Thank you. Excellent testimony. And just as 
a courtesy to everyone else we want to hear from, whatever you 
can do to consolidate, we'd appreciate it, because I want to 
give everybody a chance to have their say before this vote is 
called.
    Ms. Swanson.

  STATEMENT OF KATHRYN SWANSON, DIRECTOR, MINNESOTA OFFICE OF 
              TRAFFIC SAFETY AND CHAIR, GOVERNORS 
 HIGHWAY ASSOCIATION ON BEHALF OF THE GOVERNORS HIGHWAY SAFETY 
                       ASSOCIATION (GHSA)

    Ms. Swanson. Thank you. My name is Kathy Swanson. I'm the 
Director of Traffic Safety in Minnesota's Department of Public 
Safety, and I am also currently serving as Chair of the 
Governors Highway Safety Association, and that's the role in 
which I'm speaking today.
    States have made significant advances in modifying safe 
behavior practices of drivers and road users. The fatality rate 
is the lowest on record and the national safety belt use rate 
is the highest on record. Pedestrian fatalities are down, child 
restraint usage is up, and fatalities involving young children 
are down. These advances were made possible in large part due 
to programs and resources provided under the Transportation 
Equity Act for the 21st Century, or TEA-21.
    Yet, there is considerably more to do. We have reached the 
easily influenced and changed their behavior so that they no 
longer pose as significant of a threat on the Nation's 
highways. As Senator Lautenberg said earlier, we have picked 
the low-hanging fruit, now it's time to break out the tall 
ladders.
    Now we have to reach those populations that are resistant 
to the traditional safety messages and programs. To make 
inroads for these populations, significant efforts must be 
undertaken to reduce motor vehicle related crashes, deaths and 
injuries from the unacceptable levels where they are today. The 
states need appropriate Federal tools and additional Federal 
resources in order to make further progress in the war on 
unsafe highways.
    First and foremost, states need stable and reliable sources 
of funding in order to address the behavioral aspects of 
highway safety. With assured funding, states can plan their 
highway safety programs over a longer period of time, 
facilitate their work with and get commitments from grantees, 
and plan and implement improvements to highway safety 
information systems. The budgetary firewalls that were 
introduced under TEA-21 have provided that stability, and GHSA 
strongly supports their continuation in the reauthorization.
    Second, states also need to retain the right to determine 
how Federal funds are spent within their states without Federal 
approval of each and every aspect of the State plans and 
programs. With this flexibility which states have had since 
1994, it has enabled states to focus on states' data-driven 
problem identification and performance-based strategies and has 
allowed the states and the Federal Government to work together 
in a more cooperative basis. GHSA believes that the National 
Highway Traffic Safety Administration already has sufficient 
authority to oversee State programs and to encourage 
enhancement in those programs. We're working with NHTSA to 
ensure that the oversight authority is applied in a more 
consistent basis throughout the country. We would vigorously 
oppose any effort to revert to the project-by-project approval 
for authority over State plans that NHTSA had prior to 1994.
    Third, states need fewer Federal programs to administer. 
TEA-21 authorized 8 grant programs and 2 penalty programs, all 
of which had to be administered by the State highway safety 
offices. There are different program purposes, scopes and 
deadlines. The proliferation of Federal grant programs, not the 
proliferation of Federal grant money but a number of programs, 
made it difficult to approach safety in a comprehensive and 
coordinated manner, and has resulted in fragmentation and 
duplication of efforts. GHSA recommends consolidation of all of 
the grant programs into a single behavioral highway safety 
program with an occupant protection incentive tier and an 
impaired driving incentive tier. These incentives would be 
similar to the existing incentive programs but would address 
some of the weaknesses in those programs. Incentives would be 
given to states that enact specific legislation, improve their 
performance, or maintain a superior level of performance. 
GHSA's specific recommendations for the consolidated behavioral 
grant program were submitted for the record.
    Fourth, states need to have adequate resources to be able 
to address safety problems. Current resources will enable 
states to maintain the programs that have been implemented 
under TEA-21, but GHSA recommends that at a minimum, the single 
Federal behavioral safety grant be funded at $500 million, $50 
million above the Fiscal Year 2003 levels. With additional 
funding, states could support significantly greater levels of 
enforcement of the highway safety laws, enforcement that is 
needed in order to reach the hard-to-influence populations. 
With additional funding, states could also undertake a whole 
range of programs to address specific target and high-risk 
populations and emerging highway safety issues.
    The American Association of State Highway and 
Transportation Officials, or AASHTO, has supported the 
enactment of an additional $1 billion a year for safety in the 
next reauthorization. These funds would not be used to create 
new programs but to enhance the funding of existing safety 
construction programs and the consolidated behavioral safety 
program. GHSA endorses this proposal. If Congress identifies 
ways to provide increased funding in the next reauthorization, 
then $1 billion a year of the new funding should be set aside 
for safety programs.
    Fifth, states need timely, accurate and accessible data 
with which to make safety-related decisions. States use data to 
identify significant safety problems, select appropriate safety 
countermeasures and evaluate the effectiveness of the programs. 
Nearly all states have strategic plans for improving their 
highway safety information systems, but we lack the resources 
to be able to make those improvements. Consequently, a new data 
incentive grant program is needed.
    Finally, states need much more research on driver and road 
user behavior. Relatively little is known about the relative 
effectiveness of many safety laws in most highway safety 
programs. Further, there has been no recent research on crash 
causation. As a result, states implement programs without 
knowing if they are addressing the root cause or whether the 
implemented programs will work.
    Our additional recommendations on Federal lobbying 
restrictions, new sanctions, paid advertising and technical 
corrections to the penalty programs are contained in the more 
detailed statement that we submitted for the record. Thank you 
for the opportunity for being able to address the Committee.
    [The prepared statement of Ms. Swanson follows:]

 Prepared Statement of Kathryn Swanson, Director, Minnesota Office of 
 Traffic Safety and Chair, Governors Highway Association on behalf of 
            the Governors Highway Safety Association (GHSA)

Introduction
    Good afternoon. My name is Kathryn Swanson, and I am the Director 
of the Minnesota Office of Traffic Safety and the Chair of the 
Governors Highway Safety Association (GHSA). GHSA is the national, 
nonprofit association that represents state and territorial highway 
safety offices (SHSO). Its members are appointed by their governors to 
design, implement and evaluate programs that affect the behavior of 
motor vehicle drivers, pedestrians, bicyclists and motorcyclists. As 
part of their responsibilities, GHSA members administer Federal highway 
safety grant programs and penalty transfer programs. I appreciate the 
opportunity to share the Association's thoughts with you on the 
reauthorization of these Federal highway safety programs.
    More than 42,000 people were killed and three million injured in 
motor vehicle-related crashes in 2002. Forty-two percent of those 
crashes were ones in which alcohol was involved. Nearly 5,000 
pedestrians, more than 3,000 motorcyclists were killed and nearly 8,000 
young drivers were killed in motor vehicle-related crashes. GHSA is 
very concerned, as are others in the highway safety community, that 
these numbers are beginning to move upward after several years of 
holding steady. With the present trend, no change in the risk of a 
fatal crash on a per population basis and no assumptions about future 
demographic changes, the absolute number of fatalities can 
conservatively be expected to increase to 63,513 by 2050--an increase 
of 48 percent over current levels or approximately 350 additional 
fatalities every year.\1\
---------------------------------------------------------------------------
    \1\ Source: analysis prepared for the American Association of State 
Highway and Transportation Officials, 2002.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Transportation Equity Act for the 21st Century (TEA-21) was 
designed to reduce these fatalities and injuries by addressing all 
aspects of highway safety--the roadway, the vehicle and the driver. My 
remarks will be limited to the areas that are the responsibility of 
GHSA members--the SHSOs--and will focus on the programs that address 
the behavior of the driver and other road users.
    As enacted in TEA-21, the 402 program--the basic Federal highway 
safety grant program through which every state receives funding--and 
the 410 alcohol incentive grant program were reauthorized. TEA-21 also 
authorized four new occupant protection incentive grants (the 405, 157 
basic, 157 innovative, and 2003(b) programs); a second impaired driving 
incentive grant program (the 163 program); a data improvement program 
(the 411 program); and two penalty transfer programs, the 154 open 
container and the 164 repeat offender programs). The SHSO's are 
responsible for administering all of these programs.
    Funding under the 402, 405, 410, and 2003(b) programs can only be 
used to address a variety of behavioral highway safety-related 
problems. The 411 funds can only be used to plan for the improvement of 
highway safety information systems. A state that is eligible for the 
157 basic and 163 grants may use the funds for any purpose under Title 
23 of the U.S. Code. 157 innovative funds can only be used for purposes 
specified by the National Highway Traffic Safety Administration (NHTSA) 
in its annual announcement of the availability of grant funds. States 
that are not in compliance with the open container or repeat offender 
requirements may use the funds for impaired driving-related purposes or 
for activities under the Hazard Elimination Program.
    Two years ago, GHSA embarked on an effort to evaluate the Federal 
behavioral highway safety grant programs authorized under TEA-21. The 
results of that review were published last year in a report entitled 
Taking the Temperature of TEA-21: An Evaluation and Prescription for 
Safety which is available on GHSA's website, 
www.statehighwaysafety.org. Our recommendations for the next 
reauthorization are based largely on the findings in our report. I 
would like to review several of them.

Safeguard Funding
    Prior to TEA-21, highway safety grant programs were authorized at 
one level and almost always funded at a reduced level. SHSO's never 
knew from year to year how much Federal money would be appropriated, so 
it was difficult to plan, particularly for long-term multi-year 
projects, which are often necessary to see sustained behavioral 
changes.
    TEA-21 changed that by creating budget firewalls around highway 
safety programs so that the funding could only be used for highway 
safety purposes. This has proved to be of tremendous benefit to the 
SHSO's, who are responsible for administering Federal grant funds. The 
firewalls have meant that there is a far greater degree of certainty in 
the state planning process than ever existed in the past. States know 
from year to year what to expect in terms of grant funding and they can 
better estimate the level of funding for which their states may be 
eligible. GHSA strongly supports the continuation of the budget 
firewalls for Federal highway safety grant programs and believes that 
it should be the top priority for reauthorization.
    States also want to retain the lead in determining how the Federal 
grant funds should be spent in their states. Prior to 1994, states 
submitted annual Highway Safety Plans to NHTSA's regional offices. The 
regional offices reviewed and approved every single planned project. 
The plans were approved but often with a four- or five-page list of 
conditions and comments that the states had to meet if they wanted 
Federal grant funding. SHSO's felt suffocated by the degree of Federal 
oversight over, and micro-management of, very small Federal highway 
safety grant programs.
    In 1994, NHTSA piloted a change in the 402 program--the federal 
highway safety grant program that provides behavioral highway safety 
funding to every state. The new approach changed the program from one 
based on specific procedures into a more performance-based program. The 
performance-based approach was formally adopted by NHTSA in 1998. 
States are required to submit a Performance Plan in which they identify 
performance goals and objectives based on data-driven problem 
identification. The states then program their Federal grant funding for 
projects that address the identified major safety problems in their 
states, typically impaired driving, adult occupant protection and child 
passenger safety. The projects are organized into an annual Highway 
Safety Plan that is reviewed but not approved by NHTSA. Most states 
also submit their plans for incentive grant funds as part of the annual 
Highway Safety Plan. Although TEA-21 added a number of new grant 
programs, Federal oversight over those programs remained the same as 
under the 402 program.
    The flexibility in the 402 program has allowed states to program 
their funds in the areas where they are most needed and has given the 
states the ability to control their own programs. States and NHTSA 
regional offices work more in partnership with each other rather than 
under the paternalistic relationship that existed prior to 1994.
    Some of our close partners in the highway safety community have 
called for a return to the federal-state relationship that existed 
prior to 1994 in which NHTSA had approval authority over every aspect 
of state plans. GHSA would vigorously oppose such an approach. One 
safety group has suggested that under a new 402 program, if states do 
not meet certain performance standards within a specified time frame, 
then they would not be eligible for subsequent 402 funding unless they 
submitted to a NHTSA assessment to determine program weaknesses and 
identify program changes that will achieve desired results. Two groups 
also want the states to implement more uniform programs with similar 
safety messages from state to state.
    GHSA strongly and completely opposes these approaches. Each state's 
needs, resources and priorities are different, and states should have 
the ability to use Federal highway safety grant funds in a manner that 
best fits those needs, resources and priorities. SHSO's have had 37 
years' experience implementing the Highway Safety Act of 1966 and have 
the skills and knowledge to undertake successful highway safety 
programs without heavy-handed Federal oversight and micro-management.
    Furthermore, NHTSA has sufficient existing oversight authority to 
compel states to improve their programs. NHTSA can conduct management 
reviews, require states to develop and implement improvement plans if 
they don't show progress after three years, and designate a state a 
high risk state if the state is not administering its Federal highway 
safety grant funds appropriately. No additional oversight authority is 
needed. Rather, NHTSA needs to use this oversight authority in a 
consistent manner, as is recommended by the General Accounting Office.
    GHSA and NHTSA are actively taking steps to improve the planning 
and management of state highway safety programs. GHSA, using its own 
resources, is developing a planning workbook and a template for state 
annual reports. Next year, we plan to develop a template for the annual 
state Highway Safety Plan which must accompany application for Federal 
grant funds. We are also working with NHTSA to identify and seek state 
agreement on 12-15 performance measures which all states would use in 
setting goals and measuring performance. We have worked with NHTSA to 
develop the Model Minimum Uniform Crash Criteria (MMUCC) which is a 
guideline on what traffic crash data elements all states should 
collect.
    GHSA is also working with NHTSA to develop explicit criteria under 
which a state program review would be triggered. These program reviews 
would occur if a state did not perform well or had difficulty reaching 
its goals. NHTSA and the state would then analyze the data and 
cooperatively develop a program enhancement plan.
    GHSA firmly believes that NHTSA has sufficient oversight authority 
already and that the program review criteria will strengthen that 
authority. Further, we believe that the initiatives mentioned 
previously will enhance state planning efforts and move states toward a 
more data-driven, research-and performance-based approach to solving 
highway safety problems.

Create One Large Highway Safety Program
    As noted previously, TEA-21 created eight separate incentive grant 
programs and two penalty programs, all of which are managed by SHSO's. 
Each of these programs has distinct eligibility criteria, separate 
applications and individual deadlines. This has meant that SHSO's have 
had to meet almost a deadline a month in order to apply for Federal 
funds. Even keeping track of the different programs, eligibility 
criteria and deadlines has been a chore for both NHTSA and the states.
    The net result of this proliferation of grant programs is that 
SHSO's are spending a large percentage of time trying to manage all the 
grant programs and meet varying programmatic deadlines instead of 
analyzing state data, implementing safety programs, forming new state 
and local highway safety partnerships, and evaluating program impact. 
State staff are stretched to the limit, and states are facing a high 
degree of staff burnout.
    Additionally, and perhaps more importantly, the explosion of 
programs has caused the Federal approach to highway safety to be 
duplicative and very fragmented. There are four occupant protection 
programs and two impaired driving programs, each with a different 
purpose, scope and eligibility criteria. This has made it difficult for 
states to address the behavioral aspects of highway safety in a 
coordinated and comprehensive manner. Clearly, consolidation of grant 
programs is needed.
    GHSA recommends that all of the incentive grant programs [402, 405, 
410, 411, 163, 157 basic, 157 innovative, and 2003(b)] should be 
consolidated into one large highway safety grant program authorization. 
A portion of the funding should be for 402 grants for which every state 
is eligible. The remaining funding would be divided into an occupant 
protection tier and an impaired driving incentive tier--the two current 
national priority areas in highway safety.
    Under the occupant protection incentive tier, states would receive 
funding if they enacted a primary belt law or increased their safety 
belt use rate. The program would be based, in large part, on the very 
successful 157 basic grant program. A portion of the funding in this 
tier would be set aside for states that did not meet either criteria. 
These funds would be used to help low-performing states implement 
innovative occupant protection programs that would boost their safety 
belt use rates. Unlike the current 157 innovative program, funds would 
be apportioned according to the 402 formula which would obviate the 
ability of NHTSA to place additional conditions on the innovative 
program funds.
    Under the impaired driving incentive tier, states would have to 
meet a number of specific criteria, including a performance-based 
criteria, just as they do under the current 410 program. (The 410 
program, authorized in 1991, has been one of the main sources of 
funding for state impaired driving programs and has contributed to low 
impaired driving rates.)
    Under the impaired driving tier, the emphasis would be on programs 
that have been proven to be effective (such as graduated licensing and 
sobriety checkpoints or saturation patrols), on strengthening the 
judicial system's response to impaired driving, and on establishing 
systems that would allow a state to attack impaired driving in a 
comprehensive manner supported by good data. The program would be 
structured in a manner similar.
    The specific elements of both the occupant protection incentive 
tier and the impaired driving incentive tier are described in the 
attached GHSA safety grant program details.
    The benefit of this approach is that there would be only one 
application deadline and one Highway Safety Plan. The management of the 
consolidated grant program would be far less burdensome for the states 
as well as for NHTSA. States would be able to address highway safety 
problems in a more coordinated, less fragmented manner, and would be 
able to better address the unique circumstances that exist in each 
state in reaching the identified goals.
    Furthermore, the creation of incentive tiers would overcome some of 
the problems in the current incentive programs. The occupant protection 
and impaired driving incentive funds would be tied more closely to 
performance. Resources would be available to help low-performing safety 
belt use states. High-performing states would be rewarded for 
maintaining their superior performance. All states would be rewarded 
for enacting critical highway safety legislation such as primary safety 
belt laws or graduated licensing laws.

Continue Adequate Funding
    TEA-21 authorized significantly more Federal highway safety grant 
funding than the states received previously. With this funding, states 
have been able to implement many highway safety programs that have 
resulted in behavioral changes, contributing to the lowest fatality 
rate on record--1.5 fatalities per 100,000 million miles of travel--as 
well as the highest national safety belt usage rate of 75 percent. 
Among other things, the additional funding has enabled states to 
greatly enhance their enforcement of safety belt laws; train more than 
35,000 safety professionals in NHTSA's standardized child passenger 
safety curriculum; purchase radio and television time for safety 
messages; undertake underage drinking initiatives; and support programs 
addressing the needs of underserved and diverse populations.
    With increased funding, states could put more resources into 
enforcement of traffic safety laws, particularly safety belt, speed and 
impaired driving laws. Better enforcement would help deter violations 
of traffic laws. Funds could be used to enhance staffing levels and to 
purchase new enforcement technology. Better enforcement would help 
convince populations that are resistant to traditional safety 
messages--such as the 25 percent of unbuckled drivers--of the need for 
compliance.
    With increased funding, states could also address a series of 
highway safety problems that are not being adequately addressed to 
date. The funds could be used to target the hard-to-reach populations 
(such as minority and rural communities) and at-risk populations (such 
as young males) that are less influenced by traditional highway safety 
programs and messages. With expanded funding, states could work to 
reduce pedestrian and bicycle fatalities that currently comprise one 
out of seven fatalities and motorcycle fatalities that have increased 
substantially five years in a row. Additional funds could be used to 
address the problems of older, aggressive and distracted drivers--all 
significant and growing highway safety issues. With increased funding, 
states could improve their emergency medical services (EMS) and 
incorporate new technologies into those services, thereby helping to 
reduce mortality and injury severity, particularly in rural areas. 
States could support more community-level highway safety programs. 
Additional funding could also be used to help incorporate safety into 
state and metropolitan planning and ensure that all aspects of safety--
roadway, behavioral and motor carrier--are coordinated at the state 
level through performance-based statewide safety plans.
    GHSA recommends that, at a minimum, $500 million should be 
authorized for the consolidated highway safety grant program--about $50 
million above FY 2003 levels. Of that amount, $200 million should be 
authorized for the 402 program, $175 million should be authorized for 
the occupant protection incentive tier and $125 million should be 
authorized for the impaired driving incentive tier. Without adequate 
funding, it is clear that the increases in fatalities seen in 2001 and 
2002 will continue.
    The American Association of State Highway and Transportation 
Officials (AASHTO) has recently issued reauthorization policy calling 
for the increase of Federal safety funding--both behavioral and 
construction--by $1 billion per year. No new safety programs would be 
funded with the money; rather, the funds would be used to increase 
funding for existing safety infrastructure programs and for the 
proposed consolidated behavioral safety program. GHSA endorses this 
proposal and believes that it would provide the needed funding to 
conduct the safety activities outlined above.
    If Congress determines a way to increase funding in the next 
reauthorization either through elimination of the gasohol subsidies, 
indexing the gas tax or other approaches, then a portion of that 
increase should be authorized for safety programs.

Support a Safety Data Grant Program
    TEA-21 authorized a very small data improvement incentive grant 
program--the 411 program. The purpose of the grant program is to 
provide states with funding to improve their highway safety information 
systems (HSIS). Those systems are comprised of crash, hospital, driver 
licensing, citation, roadway and EMS databases. The 411 program 
provided funds for states to perform an assessment of their HSIS, form 
a traffic records coordinating committee with the state agency owners 
and managers of databases that comprise the state's HSIS, and develop a 
strategic plan for improving the state's HSIS. In FY 2002, 44 states, 
Puerto Rico, the Indian Nation and the four territories received 411 
funding. No FY 2003 funding was authorized for this program under TEA-
21.
    The objective of the 411 program is a very limited one and, given 
that, it has accomplished its objectives very well. However, if the 
states are to implement the improvements identified in their traffic 
records assessments and strategic plans, then a large infusion of funds 
is needed. Hence, there is a need to create a new data incentive grant 
program that would fund hardware and software improvements, training, 
and implementation of new data collection, management and analysis 
technology.
    From GHSA's perspective, improvements in highway safety-related 
data are critical. States use crash and other data to identify new and 
emerging highway safety problems, quantify the seriousness of existing 
highway safety problems, select appropriate countermeasures to address 
identified problems, monitor progress and evaluate the success of these 
countermeasures. If Congress wants to determine how states are 
performing, and to enact new programs based on performance, then 
improvements in state data capabilities are absolutely essential.
    It is estimated that only 10 percent of law enforcement agencies 
have laptop computers from which crash data can be entered from the 
field. Until state crash data is entered electronically and there is 
linkage capability with the other safety-related databases in a state's 
HSIS, states will be forced to rely on inaccurate, untimely and 
inaccessible paper data systems with which to make important safety 
decisions.
    Pennsylvania recently upgraded its crash data system at a cost of 
$6 million. If every state followed suit, it would cost an estimated 
$300 million. Hence, GHSA recommends that the data grant program should 
be authorized at $50 million a year over six years. Details of the 
grant program are discussed in the attached report.

Enhance Federal Highway Safety Research
    Research has been a part of the Federal highway safety program 
since its inception in 1966. Section 403 of the Highway Safety Act of 
1966 authorized the use of Federal funds to ``engage in research on all 
phases of highway safety and traffic conditions.'' Section 403 also 
authorized cooperative agreements for the purpose of ``encouraging 
innovative solutions to highway safety problems.''
    TEA-21 authorized $72 million for each of six years for the Section 
403 research and development program. Of that amount, only $7 million 
was earmarked for driver and behavioral research in FY 2002. As a 
result of this low level of funding, many research needs are completely 
or partially unmet. States are compelled to implement programs for 
which there is not a strong research justification.
    Currently, for example, there is a significant body of research on 
graduated licensing laws, per se impaired driving laws, repeat offender 
sanctions, primary safety belt laws, the impact of repealing motorcycle 
helmet laws, Selective Traffic Enforcement Programs (STEP's) and 
enforcement of safety belt laws. NHTSA is just completing a series of 
studies on distracted driving.
    However, there is a significant gap in the current state of 
knowledge about most safety issues and the effectiveness of most safety 
countermeasures. Among other things, there is no current research on 
crash causation. The last crash causation study was conducted more than 
thirty years ago. There is little research on effective pedestrian, 
drowsy driving, or aggressive driving countermeasures, behavioral 
programs for older drivers, and community traffic safety programs. 
There is little research on effective ways to reach the minority 
community with highway safety programs. There is no research to 
determine why motorcycle fatalities have increased so dramatically in 
the last five years and whether motorcycle licensing and education have 
any impact on safety. There is no research on the effectiveness of 
countermeasures recommended in the Federal Highway Administration's 
Older Driver Design Handbook. There has been little research on the 
best way to improve the content of driver education programs for young 
and novice drivers. Very little research has been conducted on programs 
that reach the young adult drinking driver--those aged 21-34. There is 
little research on the impact of various safety messages and on the 
efficacy of enforcement programs other than STEP's. There is virtually 
no research on the interactive effects of combined roadway and 
behavioral improvements. In effect, there is considerably more research 
to be conducted.
    The issue of open container legislation is illustrative of the need 
for further research. TEA-21 mandated that states enact open container 
legislation by October 1, 2000 (FY 2001) or have a portion of their 
highway construction funding transferred to the 402 program. However, 
no research had been conducted to determine whether open container 
legislation has any impact on impaired driving. In fact, NHTSA has only 
recently completed such research and has not broadly disseminated the 
results. Consequently, SHSOs have had to go before their state 
legislatures without research to support open container laws.
    Additionally, there is no formal process by which highway safety 
research priorities are set. NHTSA researches issues that are of 
interest to the agency or are consistent with their national goals and 
program needs. State research needs are sometimes secondary, and states 
do not have a formal mechanism with which to provide input into the 
research agenda setting process. There is nothing comparable to the 
National Cooperative Highway Research Program for safety in which 
states, through the American Association of State Highway and 
Transportation Officials, play a very strong role in determining 
research priorities.
    GHSA recommends the Federal driver and behavioral research program 
be expanded to $20--$25 million a year and that an ongoing safety 
program should be authorized and modeled after the National Cooperative 
Highway Research Program. GHSA also recommends that the Future 
Strategic Highway Research Program (FSHRP) should focus, in part, on 
safety, including the behavioral aspects of highway safety. The safety 
funding under FSHRP should be used to undertake a comprehensive 
research program on crash causation and some of the funding should be 
used to evaluate the effectiveness of highway safety countermeasures.

Alter Lobbying Restrictions
    In response to concerns raised by the motorcycle user community, 
Congress enacted new lobbying prohibitions in TEA-21 and in subsequent 
appropriations legislation. TEA-21 prohibits the use of Federal funds 
for ``any activity specifically designed to urge a State or local 
legislator to favor or oppose the adoption of any specific pending 
State or local legislation.'' Section 326 of the FY 2000 DOT 
Appropriations Act prohibits the use of Federal funds for any activity 
``intended to influence in any manner a Member . . . of a State 
legislature to favor or oppose by vote or otherwise, any legislation or 
appropriation by . . . a State legislature . . . after the introduction 
of any bill or resolution in a State legislature proposing such 
legislation or appropriation.''
    NHTSA has interpreted these statutory provisions to mean that 
recipients of Federal funds, including SHSO's and their grantees, 
cannot lobby on state legislation once the bill or resolution has been 
introduced in the legislative body. This means that SHSO's cannot 
advocate for safety legislation introduced by their governor or a state 
legislator. It also means that SHSO's cannot, after a bill or 
resolution is introduced, use Federal funds to support state coalitions 
that have been formed to favor specific safety legislation. NHTSA 
policy also encourages SHSO staff to testify before a state or local 
legislative body only if there is a written invitation to do so.
    These provisions have had a chilling effect on the advocacy 
activities of SHSO's. States no longer believe they can show support 
for any safety legislation, even if their own governors introduce it. 
Further, the provisions appear to be counterproductive. The 163, 405 
and 410 incentive programs, the 154 and 164 penalty programs, and the 
.08 Blood-Alcohol Concentration (BAC) sanctions enacted after TEA-21 
are all based on passage of state safety legislation. If states are 
going to qualify for the incentives and come into compliance with the 
penalties and sanctions, then they need the ability to affect state 
legislation.
    GHSA recommends, at a minimum, that Congress should alter the 
lobbying restrictions to allow SHSO's and their grantees to lobby state 
legislatures on behalf of positions approved by governors and their 
administrations.

Continue Paid Advertising
    Prior to TEA-21, NHTSA policy prohibited the use of Federal highway 
safety funding for paid advertising. SHSO's were compelled to use 
public service announcements (PSA's) in order to implement their safety 
messages. While PSA's are less costly than paid media, they have 
limited impact because they are generally aired during off-peak times.
    TEA-21 changed that by allowing the use of 402 funding for paid 
advertising for FY 1999 and 2000. (157 and 163 funds that were used for 
402 purposes could also be spent on paid advertising.) Congress 
extended the permission to FY 2001, 2002, and 2003 as well.
    The result has been that larger audiences view safety messages 
during prime time. Although there are scant evaluative data on paid 
advertising, there is ample anecdotal information that the state safety 
paid advertising is paying off. Further, there is supporting evaluation 
data from the FY 2001 safety belt enforcement effort in NHTSA Region IV 
(the southeastern region) and the FY 2002 safety belt enforcement 
demonstration program with thirteen states in which paid advertising 
was used. The combination of paid advertising and high visibility 
enforcement in that region resulted in significant increases in safety 
belt use under both of those efforts.
    GHSA strongly supports paid advertising and recommends that its use 
continue to be allowed in the next reauthorization.

Avoid New Sanctions and Penalties
    TEA-21 authorized two new penalty provisions (the 154 open 
container penalty and the 164 repeat offender penalty) but no new 
sanctions. Following TEA-21, Congress authorized a new sanction for 
states that fail to enact .08 BAC legislation.
    There are currently 18 penalties and sanctions with which states 
must comply. Of those, seven are safety-related (minimum drinking age, 
drug offenders, use of safety belts, zero tolerance, open containers, 
repeat offenders and .08 BAC). Three of the seven have been enacted in 
the last six years.
    GHSA and other state associations generally oppose sanctions and 
penalties for a number of reasons. Sanctions are not universally 
effective. Impaired driving-related sanctions appear to have strong 
public support and appear to work reasonably well. Other sanctions and 
penalties, such as those for the National Maximum Speed Limit and the 
mandatory motorcycle helmet legislation enjoyed little public support, 
were abysmal failures and were subsequently repealed.
    Sanctions are often counterproductive. With fewer highway funds, 
the conditions of highways deteriorate and become less safe. 
Withholding funds only exacerbates the safety problem. Sanctions 
penalize the state broadly without specifically targeting the entity 
that perpetrated the safety problem. Since there is no clear 
relationship between the safety problem and the policy solutions 
(withholding of construction funds), states are not motivated to act.
    TEA-21 encourages state agencies to work together to solve safety 
problems, but sanctions and penalties pull those agencies apart. The 
mandatory motorcycle penalties divided SHSO's from state Departments of 
Transportation (DOT's), causing them to oppose each other instead of 
working together toward enactment of motorcycle helmet laws. Opposition 
to the penalties by state DOT's contributed to their repeal. Similar 
friction has been felt by many SHSO's with respect to the open 
container and repeat offender penalties. SHSO's have been blamed for 
the TEA-21 penalties even though they were not responsible for their 
enactment. New penalties and sanctions make it harder for the SHSO's to 
work with state legislatures, even under the limited conditions allowed 
by TEA-21.
    Frequent sanctioning by Congress makes states very resentful and 
less motivated to enact the requisite legislation. Some states will 
wait until the last minute and then enact legislation that is minimally 
acceptable in order to avoid the sanction, as has been the case with 
about a dozen states and the .08 sanction.
    As former President Dwight Eisenhower said, ``You do not lead by 
hitting people over the head--that's assault, not leadership.'' For the 
reasons outlined previously, GHSA recommends that no new sanctions or 
penalties be enacted.

Make Technical Changes to Current Penalties
    TEA-21 requires states to enact, by October 1, 2000, repeat 
offender legislation or face the transfer of certain Federal highway 
funding into the 402 program. For second or subsequent alcohol-related 
offenses, state law must require that: (1) the offender's license be 
suspended for not less than one year; (2) the offender's vehicle be 
subject to impoundment or immobilization or the installation of an 
ignition interlock; (3) the offender receives an assessment of the 
degree of alcohol abuse and treatment as appropriate; and (4) in the 
case of a second offense, the offender must receive not less than five 
days in jail or 30 days of community service and in the case of a third 
or subsequent offense, not less than 10 days in jail and 60 days of 
community service.
    As of October 1, 2002, 32 states plus D.C. and Puerto Rico were in 
compliance with the repeat offender provisions. A number of states 
represented on this Committee--Alaska, California, Louisiana, 
Massachusetts, Montana, North Dakota, South Carolina, and West 
Virginia--were among the states in non-compliance at that time. A 
number of technical problems with the repeat offender provisions 
contributed to the relatively low level of compliance.
    One major problem concerns the license suspension provisions. NHTSA 
has interpreted the Section 164 language to mean that the mandatory 
minimum one-year license suspension must be a hard suspension with no 
hardship waiver or restricted license. Law enforcement officials are 
often reluctant to charge a repeat offender under those circumstances 
because they view the penalty as too harsh. Judges are also reluctant 
to give an offender a hard suspension because it would deprive a person 
of his/her livelihood for an entire year. Rural and indigent offenders 
would be especially impacted because they may be unable to arrange for 
alternate transportation, particularly transportation to treatment 
facilities. Offenders would have fewer resources to pay for interlock 
devices, impounded vehicles or treatment. State legislatures are often 
reluctant to enact the one-year hard suspension because it encourages 
repeat offenders to avoid the sanction by driving without a license. In 
fact, the driving-while-suspended problem is a growing one and is of 
increasing concern to both NHTSA and GHSA and its state members.
    A related problem is that NHTSA regulations do not permit the 
installation of interlock devices until after the hard suspension 
period. Current research shows that ignition interlock devices are very 
successful in reducing recidivism when used in combination with 
restricted licenses, supervised probation and treatment. By delaying 
the use of interlocks, the NHTSA regulations do not allow the offender 
to drive to work or treatment, thereby increasing the risk of 
recidivism. The regulations are inconsistent with NHTSA's own research 
and show a misunderstanding of the purpose of the ignition interlock 
devices.
    At the opposite end of the spectrum, the NHTSA regulations do not 
place a time limitation on vehicle impoundment and immobilization. An 
offender's vehicle can be impounded or immobilized only for a few hours 
and then returned to the offender. As a result, the impoundment/
immobilization sanction can be expected to have little impact on repeat 
offenders.
    Another problem with the regulations is that the impoundment/
immobilization/interlock sanction must apply to every vehicle owned by 
the offender. Hence, if an offender owns five vehicles, the sanction 
must apply to every vehicle. State legislatures are often reluctant to 
enact laws that would penalize car collectors and owners of fleets of 
vehicles. More importantly, the language encourages offenders to change 
the title of their vehicles to another family member in order to avoid 
the sanction.
    GHSA recommends that the one-year suspension be changed to a 
limited hard suspension (e.g., 60 or 90 days) with a restricted license 
and imposition of an ignition interlock device during a subsequent 
restriction period. Further, there should be a time limit (e.g., 10-30 
days) on the impoundment/immobilization sanction. The language 
requiring the sanctions to be applied to an offender's vehicles should 
be changed to the vehicle used by the offender.
    The transfer provisions for both the open container and repeat 
offender penalties are also problematic. Non-compliant states have a 
portion of their Surface Transportation Program, National Highway 
System and Interstate Maintenance funds transferred into the 402 
program. They can then use the transferred funds for impaired driving 
countermeasures or activities eligible under the Hazard Elimination 
Program (HEP).
    Many states have lessened the impact of the penalty by using the 
transferred funds to supplement current HEP funding. Instead of 
budgeting for new HEP funding, the transferred funds are used. In 
effect, some state DOTs have played an elaborate shell game with the 
transferred funds. As a result, the penalty transfers have not 
motivated states to enact the requisite legislation.
    The administration of the transfers has also been very difficult. 
Since all of the transferred funds must be transferred into the state's 
402 account, the SHSO is responsible for administering them, even if 
all the funds are ultimately used for HEP purposes. In other words, 
there is no mechanism to retransfer funds used for HEP purposes into 
the state's HEP account. As a result, the small, overworked SHSO is 
financially responsible for overseeing the expenditure of HEP funds 
over which they have no programmatic control.
    GHSA recommends that, if the transfer penalties are continued, the 
transferred funds only be used for impaired driving countermeasures. 
This would eliminate the administrative difficulties and would create a 
stronger ``incentive'' for states to enact the requisite legislation.
Comments on the DOT Reauthorization Proposal
    Under the Safe, Accountable, Flexible, and Efficient Transportation 
Equity Act of 2003 (SAFETEA), the Department of Transportation has 
proposed a three-part consolidated behavioral highway safety grant 
program. The proposed program includes basic formula funds, performance 
incentive funds, and a strategic impaired driving program. The 
performance incentive funds will be further divided into three types of 
incentives. In addition, DOT has proposed a separate data grant program 
and a very small EMS grant program. In FY 2004, total funding would be 
at the same level as FY 2003 NHTSA grant funding.
    GHSA is pleased about some aspects of the funding request but very 
disappointed about several others.
    The Association is pleased that DOT supported the idea of grant 
consolidation. A single grant program with one application and one 
deadline should be much easier to administer. GHSA is also pleased that 
the Administration is proposing performance incentive grants and 
increased funding for states that enact primary safety belt laws. The 
Association also supports performance-based incentives, particularly 
for states that enact primary belt laws, and has incorporated that 
concept into its own proposal. Clearly NHTSA heard and positively 
responded to the states' concerns in these areas.
    GHSA strongly supports the proposed DOT data incentive grant 
program. The program funding level, the eligibility criteria, and the 
proposed use of grant funds are identical to those recommended by the 
Association.
    GHSA supports the Section 151 (Title I) requirement that states 
coordinate their highway safety construction, behavioral and motor 
carrier grant programs and develop comprehensive, strategic highway 
safety goals. Future improvements in highway safety are not as likely 
unless states coordinate the disparate aspects of their highway safety 
programs.
    GHSA supports the proposed funding for the crash causation study. 
As noted above, it has been about thirty years since such a study was 
conducted. If states are to improve driver and road user behavior, it 
is essential to know why crashes were caused. GHSA recommends, however, 
that the difference between the NHTSA crash causation study and the 
proposed FSHRP crash causation study need to be clarified and the 
studies coordinated.
    GHSA also supports the proposed increased funding for the Section 
403 program. However, it appears that most of the increase will be used 
for the crash causation study. Additional research resources must be 
directed to the NHTSA 403 program so that evaluation studies can be 
conducted on the effectiveness of a variety of safety countermeasures.
    GHSA is extremely disappointed in the overall funding level for the 
behavioral safety grant programs. If safety is such a high priority for 
DOT, why wasn't behavioral safety grant funding increased more? How are 
the states to have an impact on the increasing number of fatalities and 
injuries without adequate funding? Why was the funding increase limited 
to the safety construction program? It appears that, once again, DOT's 
commitment to safety does not match its willingness to fund behavioral 
safety programs adequately. It will be no surprise if future years show 
further increases in motor vehicle-related fatalities and injuries.
    GHSA finds the level of funding for the impaired driving program 
totally unacceptable. $50 million is considerably less than has been 
spent on impaired driving under TEA-21 and far less than is needed to 
adequately address this growing problem. Further, we believe that the 
program is too narrowly focused on a few states where an intervention 
would have the biggest impact. Impaired driving is a problem in every 
state, yet the proposal would provide no funds for the remaining, 
``non-strategic'' states.
    It is apparent that the proposed impaired driving program will be 
implemented in the same manner as the 157 innovative program. Under 
that program, NHTSA set very restrictive conditions on the grants and 
completely micro-managed the way eligible states expend funds. States 
have found the program very onerous and do not wish to repeat the 
experience under the proposed impaired driving program. In our view, 
the proposed strategic impaired driving initiative is more appropriate 
as a Section 403 demonstration program than as a state incentive grant 
program. We urge Congress to reject this proposal in the next 
reauthorization.
    The Administration is proposing funding for three types of 
incentives--for enacting primary belt laws, for improving safety belt 
use rates and for improving performance. Each of these incentives will 
have their own eligibility criteria and their own earmarked funding. We 
are concerned that the performance incentive program may be just as 
complex as the myriad of programs that are currently authorized under 
TEA-21. As noted previously, GHSA urges that the goal in the next 
reauthorization should be simplicity and consolidation.
    In the proposed primary belt law incentive grants, GHSA is very 
troubled by the distinction between states that enacted their primary 
belt laws during TEA-21 and those that enact them under SAFETEA. The 
former states are eligible for 1/2 of their FY 2003 402 apportionments 
over a two-year period. The latter are eligible for 5 times their FY 
2003 402 apportionments. GHSA believes that it can be very difficult 
for states to adopt primary belt laws, no matter when they enacted such 
laws, and that to make such a distinction is patently unfair. States 
that have primary belt laws should be rewarded for their superior 
performance and states wishing to enact such laws should be strongly 
encouraged to do so.
    There are also some technical difficulties with the proposal. For 
one, if every eligible state enacted a primary belt law, there wouldn't 
be enough funding to give them the amount for which they would be 
eligible. If two or three large states enacted a primary belt law in 
one year, there wouldn't be enough funding in that year for any other 
states. States would have to wait one or more subsequent years, which 
may serve as a disincentive to states considering primary belt law 
passage.
    SAFETEA also proposes that the performance incentive funds can be 
flexed into the safety construction program and vice versa. While GHSA 
members like funding flexibility, we have some major reservations about 
the proposed flexibility provisions. GHSA believes that the flexibility 
provisions may result in fewer--potentially far fewer--funds for 
behavioral safety grant programs.
    States can flex all $100 million of their primary safety belt law 
incentive funds into the new Section 150 Highway Safety Improvement 
Program (HSIP). The intent of this flexibility is to encourage state 
Departments of Transportation to become involved in the passage of 
primary belt laws. While we support the involvement of state DOTs in 
the legislation, GHSA also believes that the language strongly 
encourages state DOTs to move funds into the HSIP in a kind of quid pro 
quo even though funding for safety construction is proposed to increase 
54 percent over FY 2003 levels. According to the recent Government 
Accounting Office report, sixty-nine percent of the 34 states that were 
penalized in 2001 and 2002 used the money for HEP safety construction 
purposes and only thirty-one percent used the money for alcohol-related 
programs.
    At the same time, GHSA believes that the flexibility provisions 
work against the passage of primary belt laws. DOT has proposed that, 
by FY 2005, states must enact primary belt laws or have 10 percent of 
their Section 150 funds transferred into the consolidated 402 program. 
However, states can flex 50 percent of their safety belt use rate 
incentives and 50 percent of their general performance incentive funds 
into the Section 150 program. As a result, the $100 million loss of 
safety construction funds can be partially offset by flexing $37.5 
million of safety incentive funds into the HSIP. Hence, a state that 
fails to enact primary belt law legislation could have the impact 
mitigated to some extent by the flexibility provisions.
    State DOTs can also flex 50 percent of the HSIP funds into the 
consolidated safety program. However, there is always a need for safety 
improvements to roadways, particularly for low cost improvements like 
rumble strips, traffic control devices, lighting and pavement markings. 
We see little possibility that the behavioral safety grant programs 
would be the beneficiaries of the flexibility provisions. SHSO 
experience with the open container and repeat offender penalties have 
shown that flexibility provisions often pit one state agency against 
another. The agency with the most political clout usually determines 
how the penalty funds will be used. Hence, GHSA believes that the 
flexibility provisions will result in less funding for behavioral 
safety programs, not more. Consequently, we urge Congress to reject the 
proposed flexibility language and simply allow each safety program to 
be used for the purposes authorized.
    This concludes GHSA's prepared statement on the reauthorization of 
safety programs. Thank you for the opportunity to present our views and 
recommendations on programs of utmost importance to its members. We 
look forward to working with the members and staff of the Committee as 
they draft reauthorization language in the coming months. Thank you 
again.
                                 ______
                                 
    GHSA also submitted ``Federal Behavioral Highway Safety Grant 
Program Details, April 2003.'' This document can be found at http://
www.gpo.gov/fdsys/browse/
committeecong.action;jsessionid=15yvRplJ1LTTzVzL8GxgW5D2yGP3BPNz
QycBFJv818fP2sl5xRJ9!-1031405584!1936429658?collection=CHRG&committee=
commerce&chamber=senate&congressminus=112&ycord=0.

    Senator Smith. Thank you very much, Ms. Swanson.
    Mr. Strassberger.

       STATEMENT OF ROBERT STRASSBERGER, VICE PRESIDENT,

             VEHICLE SAFETY, ALLIANCE OF AUTOMOBILE

  MANUFACTURERS; ON BEHALF OF JOSEPHINE COOPER, PRESIDENT AND 
                    CHIEF EXECUTIVE OFFICER

    Mr. Strassberger. Thank you, Mr. Chairman. My name is 
Robert Strassberger, and I am Vice President of Vehicle Safety 
of the Alliance of Automobile Manufacturers.
    Preliminary data for 2002 show that 42,850 people lost 
their lives last year on U.S. highways, and almost 3 million 
were injured. Tragically, 59 percent of vehicle occupants 
killed were not restrained by safety belts or child safety 
seats. Alcohol-related fatalities also increased for the third 
consecutive year and account for 42 percent of all fatalities. 
The number of overall fatalities is no longer declining. This 
is unacceptable. As a nation we simply must do better.
    The single most effective way to reduce traffic fatalities 
and serious injuries immediately is to increase the use of 
safety belts and child safety seats. Primary enforcement of 
safety belt use laws results in higher safety belt usage. 
States with primary enforcement laws have an average of 80 
percent belt usage compared to just 69 percent in states with 
secondary enforcement laws.
    The Administration has requested funding for incentives for 
states passing primary enforcement laws. Congress should 
approve this proposal.
    Impaired driving is also a problem and one that is getting 
worse. While there was progress in the last two decades, 
impaired driving is once again on the rise. The 
administration's recommendation of $50 million is far less than 
the current funding levels and is not adequate. Congress should 
provide more.
    The Alliance believes that if we are to continue to make 
progress in reducing traffic fatalities and injuries, it is 
critical that future public policy decisions be data-driven, 
supported by scientifically evidence, and demonstrate the 
potential for effective safety benefits without adverse side 
effects.
    NHTSA's two primary crash database programs, NASS and FARS, 
provide crucial information to safety planners and vehicle 
design engineers. The Alliance strongly supports upgrading 
crash data systems and urges Congress to provide appropriate 
levels of funding. In addition to adequate funding for NASS and 
FARS, the Alliance believes it is important for NHTSA to have 
the resources necessary to conduct a comprehensive study of 
crash causation, similar to the multiyear Indiana Tri-Level 
Study that was completed 25 years ago. The Alliance strongly 
supports NHTSA's Fiscal Year 2004 budget request for $10 
million for this purpose.
    Advancing motor vehicle safety remains a significant public 
health challenge and the Alliance is pursuing a number of 
safety initiatives. The Alliance and the Insurance Institute 
for Highway Safety are developing recommendations that auto 
companies could implement voluntarily both in the short-term 
and the long-term to enhance vehicle-to-vehicle crash 
compatibility. These steps will improve compatibility in both 
front and side crashes in which a light truck is the striking 
vehicle. We anticipate delivering to NHTSA final short-term 
recommendations by late summer or early fall.
    Another Alliance initiative is aimed at reducing the 
frequency and consequences of rollover. The Alliance agrees 
that rollovers represent a significant safety challenge that 
warrants action. The Alliance efforts include developing a 
vehicle handling test procedure that will assess the 
performance of electronic stability control systems and other 
advanced handling systems. We are also examining roof strength 
in rollover crashes and we expect to make recommendations in 
the near future. We are also working to develop test procedures 
intended to reduce occupant ejections in rollovers.
    These efforts to develop voluntary standards for crash 
compatibility and rollover, when combined with an industry 
commitment to design vehicles in accordance with them is 
following a model for responsible industry action that has 
proven to be an effective way to bring significant safety 
improvements into the fleet faster than has been historically 
possible through regulation.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer any questions.
    [The prepared statement of Ms. Cooper follows:]

          Prepared Statement of Josephine Cooper, President, 
                  Alliance of Automobile Manufacturers

    Thank You Mr. Chairman. My name is Josephine Cooper and I am 
President of the Alliance of Automobile Manufacturers. I am pleased to 
be afforded the opportunity to offer the views of the Alliance at this 
important hearing. The Alliance of Automobile Manufacturers (Alliance) 
is a trade association of 10 car and light truck manufacturers who 
account for more than 90 percent of U.S. vehicle sales. Alliance member 
companies, include BMW Group, DaimlerChrysler, Ford Motor Company, 
General Motors, Mazda, Mitsubishi Motors, Nissan, Porsche, Toyota and 
Volkswagen, employing more than 620,000 Americans at 250 facilities in 
35 states.

Significant Progress Has Been Made To Reduce Fatalities and Injuries 
        From Motor Vehicle Crashes, But Challenges Remain
    Over the past 20 years significant progress has been made in 
reducing the traffic fatality rate. In 1981, the number of fatalities 
per 100 million vehicle miles traveled stood at 3.17. By 2001, this 
rate had been driven down by 52 percent to 1.51 fatalities per 100 
million vehicle miles traveled. Indeed, when compared to 1991, in 2001 
the fatality rate had dropped by 21 percent, indicating that real 
progress has been made. The level of competitiveness among automakers, 
which key industry observers have described as ``brutal,'' has helped 
to accelerate the introduction of safety features ahead of regulation 
further aiding in the progress made. See Attachment 1. According to the 
J. D. Power and Associates 2002 U.S. Automotive Emerging Technologies 
study, 9 of the top 10 features most desired by consumers in their next 
new vehicle are designed to enhance vehicle or occupant safety.
    Despite the progress made, however, preliminary data show that 
42,850 people lost their lives on U.S. highways in 2002 and almost 3 
million were injured. Tragically, 59 percent of vehicle occupants 
killed in crashes were not restrained by safety belts or child safety 
seats. Alcohol-related fatalities increased for the third consecutive 
year and accounted for 42 percent of all fatalities. The fatality rate 
may no longer be declining. This is unacceptable. As a nation, we 
simply must do better.
    The Alliance and our members are constantly striving to enhance 
motor vehicle safety. And, we continue to make progress. Each new model 
year brings safety improvements in vehicles of all sizes and types. 
But, as the General Accounting Office recently reaffirmed, vehicle 
factors contribute less often to crashes than do human or roadway 
environment factors.\1\ We will never fully realize the potential 
benefits of vehicle safety technologies until we get vehicle occupants 
properly restrained and impaired drivers off the road. That is why 
reauthorization and adequate funding of the National Highway Traffic 
Safety Administration's (NHTSA's) highway safety programs is so 
important.
---------------------------------------------------------------------------
    \1\ ``Highway Safety--Research Continues on a Variety of Factors 
That Contribute to Motor Vehicle Crashes.'' United States General 
Accounting Office, GAO-03-436, March 2003.
---------------------------------------------------------------------------
Increased Safety Belt Usage and Preventing Impaired Driving Are Needed 
        Today To Prevent Needless Fatalities and Injuries
    The single most effective way to reduce traffic fatalities and 
serious injuries in the short term is to increase the use of occupant 
restraint systems, safety belts and child safety seats. If the United 
States could increase its safety belt usage rate from the current 75 
percent to 92 percent (the same usage rate as in Canada) it is 
estimated that another 4,500 lives would be saved and countless 
injuries would be avoided. Members of the Alliance have a long and 
proud record in supporting increased safety belt usage beginning in the 
mid 1980s with funding for Traffic Safety Now, a safety belt advocacy 
group lobbying state governments for the passage of mandatory safety 
belt use laws to participation in and funding of the Airbag & Seat Belt 
Safety Campaign (Campaign). The Campaign is housed in the National 
Safety Council and principally funded by the voluntary contributions of 
motor vehicle manufacturers. The effectiveness of the Campaign is 
reflected in the increase in belt use from 61 percent, when the 
Campaign was formed in 1996, to today, with belt use now at 75 percent.
    This 14 percentage point increase in belt use is largely due to 
high visibility enforcement Mobilizations coordinated by the Campaign 
in cooperation with NHTSA, state highway safety offices and law 
enforcement agencies in all fifty states. We are currently in the midst 
of the largest Mobilization ever with more than 12,500 law enforcement 
agencies providing stepped up enforcement and close to $25 million in 
paid advertising to augment the enforcement effort. Funding for the 
enforcement ads, both national and state, comes from funds earmarked by 
Congress for this purpose. High visibility enforcement of safety belt 
laws has been extensively tested in more than twenty states. It has 
consistently achieved dramatic increases in safety belt use. Although 
the Administration has not requested funds for the paid advertising 
that has proven to be a vital component of this effective program, we 
believe that it is important for Congress to continue to provide this 
funding.
    Primary enforcement safety belt use laws are significantly 
correlated with higher safety belt usage levels. States with primary 
enforcement laws have an average of 80 percent belt usage, compared to 
69 percent in states having secondary enforcement laws. Currently, only 
19 jurisdictions have primary safety belt laws. While the Campaign, 
through its lobbying efforts, has contributed to getting primary 
enforcement legislation enacted in several states, progress has been 
difficult to achieve. The Administration has requested significant 
funding for incentives to states passing primary enforcement laws. We 
believe this proposal has merit and should be approved by Congress.
    Impaired driving is also a significant highway safety problem and 
one that is getting worse. While substantial progress in reducing 
impaired driving was made in the last two decades, impaired driving is 
once again on the rise. Repeat offenders are disproportionately 
involved in fatal crashes. Congress should provide funding beyond the 
level proposed by the Administration to enable states to address this 
deadly problem. The Administration recommendation of $50 million is far 
less than current funding levels and is inadequate.
    In addition to the priority areas of increasing safety belt use and 
reducing impaired driving, Congress needs to provide adequate funding 
for the Section 402 State and Community Highway Safety Program. The 
Administration's proposal wisely consolidates several smaller programs 
into Section 402, but Congress should consider providing additional 
resources.

Comprehensive and Current Data Is Necessary To Make Insightful and 
        Sound Public Policy Decisions
    NHTSA's two key traffic crash database programs, the National 
Automotive Sampling System (NASS) and the Fatality Analysis Reporting 
System (FARS) provide crucial information to safety planners and 
vehicle design engineers. The NASS program, in particular, has been 
chronically under-funded. On October 17, 2002, the Alliance and various 
other safety groups sent a letter to NHTSA Administrator Dr. Jeffrey 
Runge outlining the importance of sound crash and injury data. The 
Alliance emphasized the need for additional funds for NASS in order to 
effectively evaluate the effectiveness of both behavioral and vehicular 
safety measures. See Attachment 2.
    The Administration has proposed substantial funding to upgrade 
state traffic records systems. Improved state record systems can help 
improve the quality of FARS data and assist states in establishing 
safety program priorities. The Alliance strongly supports upgrading 
state and Federal crash data systems and urges Congress to provide 
appropriate levels of funding for them. The Alliance believes this 
funding is critical because future NHTSA rulemakings should be data-
driven, supported by scientifically sound evidence, and demonstrate the 
potential for effective safety benefits without undesired side effects.
    The Alliance also sponsors a significant amount of safety research 
that is shared with the safety community. The Alliance is sponsoring a 
program to collect-real world crash data on the performance of 
depowered and advanced air bags at three sites around the U.S. (Dade 
County, Florida, Dallas County, Texas, and Chilton, Coosa, St. Clair, 
Talledega, and Shelby Counties in Alabama). This program adds valuable 
information about air bag performance to the extensive crash data 
already being collected by NHTSA through NASS. The Alliance is 
committed to funding this program that will run through 2005. The 
current Alliance commitment for the advanced air bag research is $4.5 
million over 4 years. The Alliance project will observe all the NASS 
data collection protocols so that the Alliance funded cases can be 
compared with, and evaluated consistently with, other cases in the NASS 
dataset.
    In addition to adequate funding for NASS, the Alliance believes it 
important for NHTSA to have the resources necessary to conduct a 
comprehensive study of crash causation similar to the multi-year 
``Indiana Tri-Level Study'' that was completed 25 years ago. 
Researchers at Indiana University Bloomington's Institute for Research 
in Public Safety conducted the Tri-Level Study of the Causes of Traffic 
Accidents from 1972 through 1977. According to NHTSA officials, the 
Indiana Tri-Level study has been the only study in the last 30 years to 
collect in-depth, on-scene crash causation data. The National Highway 
Traffic Safety Administration relies on it today because other NHTSA 
data is collected from police crash reports or collected days or weeks 
after the crash, making it difficult to obtain causation data. 
Significant advancements in vehicle safety technology and design have 
occurred since then, making this study rather obsolete as a baseline on 
which to base substantial regulatory decisions. For example, the Tri-
Level study, studied crashes in which nearly all tires were bias-ply, 
rather than the radial tires that are prevalent today. Yet NHTSA cited 
data from this study in support of a portion of its decision on tire 
pressure monitoring system that will be used in conjunction with radial 
tires. See Attachment 3. In addition, traffic patterns, numbers and 
types of vehicles in use, on-board technologies and lifestyles have 
changed dramatically in the last 30 years.
    Therefore, the Alliance strongly supports the National Highway 
Traffic Safety Administration's FY 2004 budget request for $10 million 
so that NHTSA can effectively update their crash causation data. An 
updated study would help guide and enlighten public policy aimed at 
reducing the frequency of traffic crashes, injuries, and fatalities. 
This is a crucial step toward improving the quality of data available 
to inform sound regulatory decision-making at NHTSA.

Alliance Members Are Aggressively Pursuing Safety Advancements, 
        Collectively and Individually
    Advancing motor vehicle safety remains a significant public health 
challenge--one that automakers are addressing daily, both individually 
and collectively. The Alliance is pursuing a number of initiatives to 
enhance safety. We have redoubled and unified our activities to 
collectively address light truck-to-car collision compatibility and 
vehicle rollover. On February 11-12, 2003, the Alliance of Automobile 
Manufacturers and the Insurance Institute for Highway Safety sponsored 
an international meeting on enhancing vehicle-to-vehicle crash 
compatibility. On February 13, 2003, the Alliance and IIHS sent NHTSA 
Administrator Runge a letter summarizing the results of this meeting, 
and indicating the industry planned to develop recommendations that 
auto companies could take to enhance crash compatibility. These steps 
will enhance crash compatibility in both front-to-front and front-to-
side crashes in which a light truck is the striking vehicle.
    The industry promptly formed two technical working groups of 
experts: one on front-to-side crashes and one on front-to-front 
crashes. These groups have been working continuously since their 
establishment to develop recommendations for appropriate short and 
longer term actions. On March 10, 2003, the Alliance and IIHS sent 
Administrator Runge a letter indicating that we anticipate delivering 
to NHTSA final short-term recommendations by late Summer or early Fall. 
While our work is still in progress, we remain on track to meet this 
commitment.
    For the North American market, front-to-side crashes where the 
striking vehicle is a light truck or SUV, represent a significant 
compatibility challenge. We are placing a high priority on enhancing 
the protection of occupants inside vehicles struck in the side. Our 
immediate efforts are focused on developing recommendations that will 
lead to enhanced head protection of occupants in struck vehicles. We 
expect our efforts to lead to measures that auto manufacturers can 
incorporate in their vehicles. Concurrently, evaluation criteria will 
be established to drive improvements in car side structures to reduce 
side impact intrusion and provide for additional absorption of crash 
energy.
    With regard to front-to-front crashes, we anticipate reaching 
agreement on specific recommendations to enhance alignment of front-end 
energy absorbing structures of vehicles. Manufacturers have been 
working to improve this architectural feature by modifying truck 
frames. The voluntary standard will govern structural alignment for the 
entire light-duty vehicle fleet and provide for an industry wide 
solution. In addition, through research to be undertaken, we expect to 
develop sophisticated test procedures for assessing the forces, and the 
distribution of these forces, which light trucks may impose on cars in 
frontal crashes. These procedures should lead to more comprehensive 
approaches to measuring and controlling these forces. We also expect to 
develop state-of-the-art test procedures for measuring and controlling 
the frontal stiffness characteristics of passenger cars and light 
trucks.
    These efforts to develop voluntary standards for crash 
compatibility and rollover, when combined with an industry commitment 
to design vehicles in accordance with them, is following a model for 
responsible industry action that has proven to be a very effective way 
to bring significant safety improvements into the fleet faster than has 
been historically possible through regulation. The voluntary standards 
process also has the flexibility to produce rapid modifications should 
the need arise.
    The best way to illustrate the benefits for such an approach is to 
examine the recent development of the Recommended Procedures for 
Evaluating Occupant Injury Risk From Deploying Side Airbags finalized 
in August 2000. In response to concerns about potential injury risk to 
out-of-position (OOP) women and children from deploying side airbags, 
the Alliance, the Association of International Automobile Manufacturers 
(AIAM), the Automotive Occupant Restraints Council (AORC), and the 
Insurance Institute for Highway Safety (IIHS) used a joint working 
group to develop test procedures with injury criteria and limits to 
ensure that the risk of injury to OOP occupants from deploying side 
airbags would be very limited.
    After a little over a year of intensive effort, the working group 
developed a draft set of procedures. This draft was presented in a 
public meeting on June 22, 2000. Comments were collected and the 
finalized procedures were presented to NHTSA on August 8, 2000. Now, 
just 2 model years later, 60 percent of Alliance member company side 
airbags have been designed in accordance with the August 8, 2000 
Recommended Procedures. More importantly, the field performance of side 
air bags remains positive.
    These Procedures and public commitment were also used by Transport 
Canada as the basis for a Memorandum of Understanding (MOU) between 
automobile manufacturers and the Canadian government.
    Another Alliance initiative is assessing opportunities which may 
further reduce the frequency and consequences of rollover. The Alliance 
agrees that rollovers represent a significant safety challenge that 
warrants attention and action. In releasing the preliminary statistics 
for 2002, NHTSA stated that, ``Fatalities in rollover crashes involving 
sport utility vehicles and pickup trucks accounted for 53 percent of 
the increase in traffic deaths.'' NHTSA did not state, however, that an 
increase in passenger car rollover fatalities accounted for 25 percent 
of the increase in traffic fatalities. Indeed, rollover fatalities 
occurring with passenger cars, SUVs, and pickups all contributed 
roughly equally to the increase observed. In fact, the increase in 
number of passenger car rollover fatalities was nearly 8 times higher 
than might otherwise had been forecasted from the growth in the number 
of registered passenger cars in 2002, over 2001.
    Consequently, Alliance efforts to reduce the frequency and 
consequences of rollover involves passenger cars as well as SUVs, vans, 
and pickup trucks. Our efforts include developing a handling test 
procedure or recommended practice that will focus on an assessment of 
the performance of electronic stability control systems and other 
advanced handling enhancement devices. A typical rollover is one in 
which the driver becomes inattentive or distracted, loses control of 
the vehicle, and then strikes something that trips the vehicle causing 
it to roll. Electronic stability control systems are designed to help 
drivers to keep out of trouble in the first place. However, should a 
rollover occur, the Alliance is assessing opportunities to enhance 
rollover occupant protection. We are assessing the current state of 
knowledge on roof/pillar deformation during rollover crashes, and will 
make recommendations as to whether new performance criteria and/or test 
procedures would further reduce the risk of injury in vehicle rollover 
crashes. We are also working to determine the feasibility of developing 
test procedures to assess the performance of countermeasures designed 
to further reduce the risk of occupant ejection in rollover crashes.

The Potential Benefits of Vehicle Safety Technologies Cannot Be Fully 
        Realized Until Vehicle Occupants Are Properly Restrained and 
        Impaired Drivers Are Off The Road
    Motor vehicle safety is a shared responsibility among government, 
consumers and vehicle manufacturers. Auto manufacturers are more 
committed than ever to developing advanced safety technologies to 
reduce fatalities and injuries resulting from motor vehicle crashes. 
But as a nation, we will never fully realize the potential benefits of 
vehicle safety technologies until we get vehicle occupants properly 
restrained and impaired drivers off the road. In this regard, Congress 
has a unique role to play by:

  <bullet> Enacting incentives for states that pass primary enforcement 
        safety belt laws and ensuring high visibility enforcement of 
        these laws by providing adequate funding for paid advertising 
        and Section 402 State and Community Highway Safety Programs;

  <bullet> Providing funding beyond the level proposed to address the 
        deadly problem of impaired driving; and

  <bullet> Authorizing adequate funding for a modern, comprehensive 
        study of crash causation and to update state and Federal crash 
        data systems.

                              Attachment 1

``Voluntarily Installed Safety Devices''
    A partial list of voluntarily installed advanced safety devices (w/
o or prior to regulation)
Crash Avoidance Advances
    Tire/suspension optimization
    Automatic brake assist
    Electronic stability controls to help drivers maintain vehicle 
control in emergency maneuvers
    Anti-lock brakes
    Traction control
    Obstacle warning indicators
    Active body control

    Intelligent cruise control
    Convenience controls on steering wheel to minimize driver 
distraction
    Automatic obstacle detection for sliding doors on minivans
    Head-up displays
    Child-proof door locks
    Automatic speed-sensitive door locks
Vision
    Automatic dimming inside mirrors to reduce headlamp glare
    Heated exterior mirrors for quick deicing
    Rear defrost systems
    Headlamp wiper/washers
    Automatic-on headlamps
    Automatic-on headlamps when wipers are used
    Infinitely variable wiper (only 2 req'd by regulation)
    Night vision enhancements
    Advance lighting systems
    Right side mirrors
Crashworthiness Advances
    Side air bags for chest protection
    Side air bags for head protection that reduce ejection
    Rollover triggered side/curtain air bags
    Advanced air bags (e.g., dual stage inflators) several years in 
advance of regulatory requirements
    Safety belt pre-tensioners
    Rear center seat lap/shoulder belts
    Load-limiting safety belts to reduce chest injuries
    Safety belt pre-tensioners Improved belt warning indicators
    Rear seat head restraints Integrated child seats
    Anti-whiplash seats
    Breakaway mirrors for pedestrian protection
Post Crash
    Automatic notification to emergency providers during air bag 
deployment

                              Attachment 2

                                                   October 17, 2002
Hon. Jeffrey W. Runge, M.D.,
Administrator,
National Highway Traffic Safety Administration,
Washington, DC.

 RE: National Automotive Sampling System: Increased Funding

Dear Dr. Runge:

    Sound crash and injury data are critical components needed for 
advanced vehicle safety design and for both initiating and evaluating 
countermeasures for improving highway safety. The National Highway 
Traffic Safety Administration's (NHTSA) Fatality Analysis Reporting 
System provides comprehensive data on people dying in motor vehicle 
crashes throughout the United States. These data have enjoyed 
widespread use in the evaluation of many motor vehicle safety 
countermeasures and their effectiveness in reducing motor vehicle 
death. NHTSA's National Automotive Sampling System Crashworthiness Data 
System (NASS/CDS) is an essential resource that provides the agency, 
researchers, vehicle manufacturers--indeed the entire safety 
community--with a detailed crash and injury causation database suitable 
for identifying traffic safety issues, establishing priorities, 
assisting in the design of future countermeasures and for evaluating 
existing countermeasures.
    The NASS/CDS provides in-depth crash investigations of a 
representative sample of police-reported tow-away crashes throughout 
the United States, so data can be weighted to provide a nationwide 
estimate of crashes of all severities according to the severity of 
injuries. Furthermore, researchers can examine the detailed crash 
investigations in depth to learn about crash characteristics and injury 
causation focusing on subsets of the data. For example, such 
investigations have proven to be of critical importance in the 
understanding of airbag performance--the conditions under which airbags 
save lives, but also when they contribute to occupant injury.
    The application of sound science to improve traffic safety requires 
that real world data or field data be used wherever possible. The 
continuation of vehicle and highway safety improvements requires a 
solid factual basis. However, the essence of such investigations is 
timeliness. As the recent experience with frontal airbags has taught 
us, we need to understand as soon as possible how new vehicle 
technologies, such as airbags, are performing in the real world. And 
with new technologies being introduced at such a fast pace, it is now 
more important than ever to understand how these technologies are 
performing in the real world.
    The agency's NASS/CDS database is one of the most comprehensive 
databases in the world to look in depth at the causes of motor vehicle 
injury. However, we are concerned that the budget for NASS has not kept 
pace with either the agency's informational needs or inflation. The 
NASS program has been constrained by either flat or reduced funding at 
a time when technological developments (e.g., advanced frontal and side 
air bags, telematics) and occupant behavior (from increased seat belt 
use to booster seat installations) are changing. We believe it is 
important to ensure that NHTSA continues to have the ability to 
evaluate actual field performance on a national basis.
    Therefore, NASS must have the resources necessary to collect high-
quality, real-world data by conducting investigations at the full 
complement of sites that will provide statistically valid, nationally 
representative data on a timely basis. The NASS reorganization of the 
mid 1980s called for 36 Primary Sampling Units. Currently, NASS has the 
resources to conduct investigations at only 24 sites. The effectiveness 
of NASS has also been subject to inflationary increases in operating 
costs of about 3-5 percent per year, which have been offset by reducing 
field staff. This has resulted in fewer cases reported from the 24 
sites.
    From the original projections of 7000 cases annually, NASS has been 
reduced to providing only about 4500 cases annually across the spectrum 
of crash types and severities. The result is that there are often too 
few cases of serious injury to make an informed decision about the 
sources and mechanisms of injury in motor vehicle crashes (for example, 
in side impacts, or in crashes involving children) without having to 
include data from many years of data collection. This blunts our 
ability to look at current issues in real time. We believe NASS should 
be funded at a level that will restore NASS to its design scope to 
ensure critical ``real-world'' data can be collected at a sufficient 
number of sites to produce the statistically valid, nationally 
representative sample originally intended. Initially, the NASS design 
called for 50 active sites.
    Thus, we believe it is critical that the proposed NHTSA Fiscal Year 
2004 budget include a request to fully fund NASS, so that our ability 
to evaluate the effectiveness of both behavioral and vehicular safety 
measures is enhanced. We stand ready to support you in this most 
important endeavor.
            Sincerely,

Josephine S. Cooper
President and CEO
Alliance of Automobile Manufacturers, Inc.

Timothy C. MacCarthy
President and CEO
Association of International Automobile Manufacturers, Inc.

Heather Paul
Executive Director
National Safe Kids

Charles A. Hurley
Transportation Safety Group
National Safety Council

Phil Haseltine
President
Automotive Coalition for Traffic Safety

Yvonne McBride
President Governors
Highway Safety Association

Susan G. Pikrallidas
Vice President of Public Affairs
AAA

Susan Ferguson
Senior Vice President, Research
Insurance Institute for Highway Safety
      
                                 ______
                                 
                              Attachment 3
                          Executive Office of the President
                            Office of Management and Budget
                                      Washington, DC, June 28, 2002
Hon. Jeftrey W. Runge. M.D.,
Administrator,
National Highway Traffic Safety Administration,
Washington, DC 20590

Dear Dr. Runge:

    I am writing to thank you and your staff for making significant 
improvements in the Economic Assessment of the recently adopted final 
rule requiring tire pressure monitoring systems for new motor vehicles. 
I would also like to suggest some longer-term research directions that 
may strengthen the scientific basis of future vehicle safety 
rulemakings.
    First, OIRA appreciates the significant improvements NHTSA made in 
the regulatory analysis. Those improvements include (1) an explicit 
cost-effectiveness analysis of a 1-tire standard, including a 
comparison of costs and safety impacts compared to a 4-tire standard, 
(2) a significant discussion of the ABS safety issue, including a 
careful summary of the real-world crash data concerning the safety 
impacts of ABS, and (3) a qualitative discussion of some of the 
technical uncertainties in the agency's estimates of the safety 
benefits that could be expected from various tire-pressure monitoring 
systems.
    Recognizing the limitations in current knowledge, we are eager to 
work with NHTSA between now and March of 2005, when more information 
will be available and a final decision will be made on this matter for 
model years 2007 and later. We are pleased that NHTSA agrees upon the 
need to analyze all options and information about the safety impacts of 
ABS, regardless of whether such information is judged to be relevant to 
this rulemaking or a separate rulemaking. We believe that further 
improvements in NHTSA's economic assessment of the tire-pressure 
monitoring issue will result from the collection and development of 
additional information between now and March of 2005. OIRA wants to 
work closely with NHTSA to develop analysis sufficient to inform and 
support NHTSA's ultimate decision in this important rulemaking.
    Second, in the course of reviewing this particular rule, OIRA 
encountered a research gap that, if filled, would provide a stronger 
technical foundation for future vehicle- and tire-related rulemakings 
at NHTSA. The 1977 ``Indiana Tri-Level Study'' was a seminal effort to 
quantify the relative frequency of different causes of crashes. 
However, much has changed in the past 25 years. For example, minivans 
and SUVs were virtually nonexistent in the mid-70s, as were front-wheel 
drive vehicles and radial tires. These changes raise questions about 
the continuing validity of the Indiana Tri-Level Study's findings about 
the relative frequency of different causes of crashes. However, there 
has been no subsequent comprehensive study of crash causation.
    We know that NHTSA is now responsible for conducting a crash 
causation study tor large trucks and that you are exploring the 
possibility of building on that work to do a broader crash causation 
study. Such a study would allow us in the government to better 
understand the safety payoffs and costs associated with initiatives in 
the area of crash avoidance, such as enhanced tires, braking, and 
handling performance. It would also give us a stronger basis for 
setting priorities in this area. My staff and I would like to meet with 
you and your staff to discuss the potential value and costs of a 
comprehensive crash causation study.
    We thank you again for being responsive to OIRA's concerns and we 
look forward to discussions with you regarding both research gaps and 
the analysis necessary to support future rulemakings.
            Sincerely,
                                     John D. Graham, Ph.D.,
                                                     Administrator,
                          Office of Information and Regulatory Affairs.

    Senator Smith. Thank you very much.
    Mr. Berman.

  STATEMENT OF RICHARD BERMAN, LEGISLATIVE COUNSEL, AMERICAN 
              BEVERAGE LICENSEES AND THE AMERICAN 
                       BEVERAGE INSTITUTE

    Mr. Berman. Yes, sir, thank you, Senator. Like the speakers 
before me, sir, we believe the Nation must improve the way we 
fund and enforce traffic safety programs, including how we 
address drunk driving problems. The retailers that I represent, 
as well as the producer industries, are committed to 
responsible beverage service. We have collectively spent 
hundreds of millions of dollars to educate the public and train 
our employees on the responsible use of adult beverages, and we 
are much more than commentators. We have been on the front 
lines in stopping product abuse and underage purchases.
    Our first issue today starts with the question of the 
relationship between the states and the Federal Government when 
it comes to funding effective traffic safety programs. It's our 
belief that State governments should not be subjected to 
financial blackmail because they do not endorse the Federal 
recommendations on how to combat drunk driving.
    This is not an industry position exclusively but one that 
was taken by numerous traffic safety groups during the last two 
debates over highway funding, including the National Governors 
Association, the Council of State Governments, the League of 
Cities, the National Association of Counties, AAA, the National 
Association of Governors Highway Safety Representatives, and 
many others. It is a position shared by President Bush and 
Secretary Mineta, who said before another Senate Committee this 
week that their current proposal is designed to ``enhance the 
capacity and flexibility of states to use Federal grants and 
their own funds to improve highway safety.''
    In this reauthorization we should end the pattern of 
mandating traffic safety programs that are driven by political 
agendas and return to a fully incentive-based program.
    Our industry is further concerned about how we will find 
effective solutions to the problem of drunk driving in the face 
of continually shifting semantics. In many ways how we, 
including the Government, the media, special interests and 
others talk about this issue prevents us from reaching 
consensus.
    Consider that the term ``alcohol-related accidents'' has 
been translated by interest groups to mean drunk driving. That 
is not the case, as many alcohol-related incidents are in no 
way alcohol-caused. And due to NHTSA's system of imputation, 
many accidents that don't even show the presence of alcohol are 
still labeled alcohol-related. Further, all the crashes are 
lumped into one group, implying that we have a much greater 
problem than we really do. That is not to minimize the drunk 
driving problems, but it is to get the focus of the solution 
where it belongs, on repeat offenders and product abusers. This 
point was driven home in a recent Los Angeles Times story that 
we've attached to our testimony.
    One year ago a representative of the National Sleep 
Foundation testified there are many highway deaths miscounted 
as alcohol-related that are in fact caused by drowsy drivers. 
Our question is, why has NHTSA failed to promote purchase 
restrictions on overpowered cars by individuals with long lists 
of speeding violations, or have done something about the drowsy 
driver situation.
    New potential impairments abound. We hear about cell 
phones, onboard electronics in cars, older drivers whose 
hearing, reaction times and vision are all impaired. And yet, 
most of the impairment conversation that takes place in this 
town is continually over whether or not someone has had an 
adult beverage. Traffic safety funding should cover all safety 
programs to reduce highway deaths, not just those focused on 
alcohol-related problems.
    We have agreed with MADD in the past that high BAC drivers 
and repeat offenders are problems that need to be addressed. 
Too much attention and time has been spent on fighting for .08 
BAC laws in this town that have minimal value, and I urge you 
to refer to the two charts that I have also attached to my 
testimony that compares what has happened in the .08 states and 
the various states that have been spoken about here today that 
have so far refused to adopt that language.
    Before we launch into another round of legislative 
initiatives, we should cautiously review how we spend taxpayer 
dollars. There are ideas proposed, including increased use of 
random roadblocks that should be contemplated after a serious 
review of their effectiveness, a cost-benefit analysis, and a 
look at the reported abuses and intrusions on privacy that may 
be posed by increased use of enforcement measures that are not 
preceded by probable cause.
    I will allow the rest of my statement to be admitted into 
the record, sir, but I would like to just read, when it comes 
to roadblocks, one quote that I found this afternoon just 
before coming up here. It is by the Chief Justice of the Oregon 
Supreme Court, it would be no surprise that I looked for that 
one.
    And in terms of roadblocks the Chief Justice has said, 
objecting to this use of random roadblocks: What has occurred 
is quite simply the seizure of a car and its driver without any 
probable cause in the hope that sometime during the ensuing 
detention, evidence of a crime will be discovered.
    This is probably the biggest problem that we're going to be 
facing in the debates coming up, this increased rhetoric about 
let's get random roadblocks out there and start arresting 
people, start frightening people, start taking away people's 
individual privacy. And I hope in the deliberations that ensue 
after these hearings, that this becomes a focus of people who 
are seeking to protect privacy, not to see that it's given up.
    [The prepared statement of Mr. Berman follows:]

  Prepared Statement of Richard Berman, Legislative Counsel, American 
         Beverage Licensees and the American Beverage Institute

    Good afternoon. Thank you for the opportunity to testify before 
this committee on this issue of funding the National Highway Traffic 
Safety Administration. I am honored to represent the community of adult 
beverage retailers.\1\
---------------------------------------------------------------------------
    \1\ American Beverage Licensees (an association of taverns, package 
stores and restaurants) and the American Beverage Institute (an 
association of national chain and single unit restaurants).
---------------------------------------------------------------------------
    Like the speakers before me, I believe the Nation should improve 
the way we fund and enforce traffic safety programs including how we 
address drunk driving problems. Retailers--as well as the producer 
industries--are committed to responsible beverage service. We have 
collectively spent hundreds of millions of dollars to educate the 
public and train our employees on the responsible use of adult 
beverages. We are much more than commentators, we have been on the 
front lines in stopping product abuse and underage purchases. We want 
to offer our perspective on the effective and efficient ways to fund 
drunk driving countermeasures.
    Our first issue starts with a question of the relationship between 
states and the Federal government when it comes to funding effective 
traffic safety programs. The Federal government is becoming more 
aggressive about using ``mandates'' or ``blackmail'' to force states, 
governors, legislators and highway safety officials to accept 
Washington's view of what works. In ever more instances, states are 
being penalized even when they have above-average safety records, 
because they do not adopt federally approved laws. With few exceptions 
(e.g., the minimum drinking age, requiring helmet use for motorcycle 
riders and a mandated national speed limit, which was rescinded), 
highway safety countermeasures were funded on incentives.
    State governments should not be subjected to financial blackmail 
because they do not endorse the Federal recommendations on how to 
combat drunk driving. This is not an industry position, but one that 
was taken by numerous traffic safety groups \2\ during the last two 
debates over highway funding. It is a position shared by President Bush 
and Secretary Mineta, who said before another Senate committee this 
week that their current proposal is designed to ``enhance the capacity 
and flexibility of states to use Federal grants and their own funds to 
improve highway safety.'' \3\ In this reauthorization, we should end 
the pattern of mandating traffic safety programs driven by political 
agendas and return to a fully incentive-based program.
---------------------------------------------------------------------------
    \2\ These traffic safety groups include the National Governors' 
Association, the National Conference of State Legislatures, the Council 
of State Governments, the National League of Cities, the National 
Association of Counties, the American Automobile Association, the 
American Association of State Highway and Transportation Officials, the 
American Traffic Safety Services Association, the International 
Association of Chiefs of Police and the National Association of 
Governors' Highway Safety Representatives.
    \3\ Statement of Norman Y. Mineta, Secretary of Transportation, 
before the Committee on Transportation and Infrastructure, Committee on 
the Environment and Public Works, United States Senate, 
``Reauthorization of Surface Transportation Programs,'' 20 May 2003.
---------------------------------------------------------------------------
    Our industry is further concerned about how we will find effective 
solutions to the problem of drunk driving in the face of continually 
shifting semantics. In many ways, how we (the government, the media, 
special interests and others) talk about this issue prevents us from 
reaching consensus. Consider that the term ``alcohol-related'' 
accidents has been translated by interest groups to mean ``drunk 
driving.'' That is not the case, as many alcohol-related incidents are 
in no way ``alcohol-caused.'' And, due to NHTSA's system of imputation, 
many accidents that don't even show the presence of alcohol are still 
labeled alcohol-related. Further all crashes are lumped into one group, 
implying that we have a much greater problem that we really do. That is 
not to minimize the drunk driving problems, but it is to get the focus 
of the solution where it belongs, on repeat offenders and product 
abusers. This point was driven home in a recent LA Times story that 
broke down the 17,448 deaths in 2001 to ``5,000 sober victims killed by 
legally drunk drivers.'' \4\
---------------------------------------------------------------------------
    \4\ ``A breakdown of the 17,448 deaths includes:

    <bullet>  About 2,500 to 3,500 crash deaths in which no driver was 
legally drunk but alcohol was detected.

    <bullet>  1,770 deaths involved drunk pedestrians killed when they 
walked in front of sober drivers.

    <bullet>  About 8,000 deaths involved only a single car and in most 
of those cases the only death was the drunk driver.

    <bullet>  That leaves about 5,000 sober victims killed by legally 
drunk drivers.''

    Vartabedian, Ralph, ``A Spirited Debate over DUI Laws,'' Los 
Angeles Times, 30 December 2002.
---------------------------------------------------------------------------
    One year ago, a representative of the National Sleep Foundation 
testified \5\ there are many highway deaths miscounted as alcohol-
related that are in fact caused by drowsy drivers. And why has NHTSA 
failed to promote purchase restrictions on overpowered cars by 
individuals with long lists of speeding violations. New potential 
``impairments'' abound--from cell-phones to on-board electronics. 
Traffic safety funding should cover all safety programs to reduce 
highway deaths, not just those focused on alcohol-related problems.
---------------------------------------------------------------------------
    \5\ Testimony before the Subcommittee on Highways and 
Infrastructure, Committee on Transportation and Infrastructure, 
``Various Approaches to Traffic Safety,'' 27 June 2002.
---------------------------------------------------------------------------
    Because we use the broadest definition of the drunk driving problem 
and treat alcohol as the only significant impairment on our Nation's 
highways, no one should be surprised that we have a penalty system that 
is also disproportional. Most states punish a .08 percent BAC drinker 
with the same set of penalties as an extreme .28 percent BAC drinker. 
The situation is analogous to punishing an individual driving five 
miles over the speed limit with the same penalty as someone going 50 
miles over the posted restrictions. Hard-core drunk drivers are not 
responsive to public appeals. Programs designed specifically to address 
their drinking patterns should be where we focus the most time, the 
most research, resources and political capital instead of developing 
programs suited to targeting casual social drinkers who are not a part 
of the problem.
    We have agreed with MADD in the past that these high BAC drivers 
and repeat offenders are problems that need to be addressed. Too much 
attention and time has been spent on fighting for .08 percent BAC laws 
that have minimal value,\6\ I testified before the House Judiciary 
Subcommittee on Crime and Criminal Justice and proposed the same 
concept of tailoring the level of punishment to the level of the crime: 
``. . . a prosecution strategy with a graduated series of penalties in 
the form of fines, license revocation and imprisonment. The magnitude 
of the penalty would reflect the degree of infractions, where 0.20 
drivers even on their first offense suffer a more exacting penalty than 
the marginal offender, with a graduated increase according to BAC 
levels and multiplicity of offenses.'' \7\ And developing a high-BAC/
repeat offender initiative program would be the best way to achieve 
improvements in these areas.
---------------------------------------------------------------------------
    \6\ See Chart 1.
    \7\ It is notable that a state implementing such a graduated 
penalties system today would--even if the program was proven effective 
in reducing drunk driving deaths--still be sanctioned under TEA-21. In 
fact, many states (like Minnesota and Wisconsin) have implemented a 
strong graduated penalty program (only starting at a higher BAC) but 
will still be sanctioned for not adopting .08 percent BAC.
---------------------------------------------------------------------------
    While we advocate aggressively implementing more effective 
programs, we want to focus on the word ``effective.'' Before we launch 
into another round of legislative initiatives, we should cautiously 
review how we spend taxpayer dollars. There are ideas proposed, 
including the increased use of random roadblocks, that should be 
contemplated after a serious review of their effectiveness, a cost-
benefit analysis, and a look at the reported abuses and intrusions on 
privacy that may be posed by increased use of enforcement measures not 
preceded by probable cause.
    If we agree on the problem--high-BAC drivers that MADD says causes 
most of the alcohol-related traffic fatalities--then the solution must 
target these product abusers. A system of increased use and funding of 
random roadblocks surely does not. Roadblocks are the backbone of a 
``PR''-heavy traffic safety program, one that seeks to convince the 
public that it is illegal or immoral to drink any adult beverage and 
then drive. We've all heard the slogans: ``Don't drink and drive.'' 
``You drink. You drive. You lose.'' ``Impairment begins with the first 
drink.'' These slogans do not reflect the law, nor do they reflect 
reality. Roadblocks take that message one step further by targeting and 
punishing casual drinkers who are not a part of the problem and who are 
already behaving responsibly.\8\
---------------------------------------------------------------------------
    \8\ See Chart 2.
---------------------------------------------------------------------------
    Unfortunately, roadblocks are neither effective, nor do they have 
the level of support from law enforcement officials that you would 
expect from a truly effective safety program. A National Academy of 
Sciences study, conducted by economists from Harvard University and the 
University of Chicago, suggested that, ``policies focused on stopping 
erratic drivers might be more successful.'' \9\ Even research by NHTSA, 
the Insurance Institute for Highway Safety and the FBI point to 
saturation patrols to catch more drunk drivers. Because police 
discretion works, we hear from policemen that, ``[roadblocks are] not a 
valid use of police time. We are involved in enforcement and education, 
but we do not have to include mass inconvenience and mass fear.'' \10\
---------------------------------------------------------------------------
    \9\ Levitt, Steven D., and Porter, Jack, ``How dangerous are 
drinking drivers?'' The Journal of Political Economy, Chicago, December 
2001.
    \10\ Wayne, NJ, Police Chief Robert H. Pringle, quoted in the 
Bergen Record, ``Value of DWI Checks Doubted,'' 30 December 1985. See 
also the attached opinion editorial by former Indiana state trooper 
Stan Worthington, who manned some of that state's first-ever roadblocks 
20 years ago.
---------------------------------------------------------------------------
    The adult beverage retailing community joins with the safety 
community in thanking you for your attention to these important issues 
and the dedication of important new funds to making our roads safer. 
Thank you, Mr. Chairman, for the opportunity to share our perspectives 
on safety issues with you today.

                              Attachment 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 2

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Unpublished ABI analysis of U.S. Department of 
Transportation Fatality Analysis Reporting System data on BAG levels 
and fatalities in accidents where a driver was actually tested. Imputed 
fatalities were not included in this analysis. Nineteen States were 
considered 0.08 states for the analysis including the District of 
Columbia. These 19 states all had 0.08 laws in effect prior to the 2001 
year that was used for this analysis.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 3

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Smith. Thank you, sir.
    Ms. Hamilton.

          STATEMENT OF WENDY J. HAMILTON, PRESIDENT, 
                 MOTHERS AGAINST DRUNK DRIVING

    Ms. Hamilton. Thank you. Good afternoon, Mr. Chairman. I'm 
Wendy Hamilton, national President of Mothers Against Drunk 
Driving. It is indeed an honor to be here today to testify on 
DOT's SAFETEA proposal, and MADD's priorities for the 
reauthorization of TEA-21. We look forward to working with this 
Committee to develop transportation policies that save lives 
and prevent injuries on our Nation's highways.
    For the third consecutive year, alcohol-related traffic 
deaths have increased. Early statistics show that last year 
nearly 18,000 people were killed, and hundreds of thousands 
more were injured in these crashes. Alcohol-involved crashes 
accounted for an overwhelming 46 percent of all fatal injury 
costs. Unfortunately, the data speaks for itself.
    The Nation, including its political leaders, has become 
complacent in this effort. Lack of funding for effective 
behavioral traffic safety programs and minimal resources for 
law enforcement officers to enforce existing laws are a major 
part of the problem. Last week MADD released its new Federal 
plan for the reauthorization of TEA-21. On that day we heard 
from members of the Senate who expressed their firm commitment 
to move the Nation in the right direction. MADD sincerely 
thanks Senator Dorgan, Senator Lautenberg, Senator DeWine and 
Senator Murray for their participation in this event and their 
leadership to reduce traffic death and injury.
    Today MADD is asking Congress and the Administration to 
adopt MADD's research plan. I would like to submit this plan 
for the record.
    Senator Smith. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Hamilton. MADD's plan establishes a national traffic 
safety fund of $1 billion annually. Under this fund, MADD 
recommends dedicated increased funding for highly visible law 
enforcement activities. The Click It or Ticket national law 
enforcement mobilization campaign has been very successful at 
increasing seat belt usage. We know that sobriety check points 
are one of the most effective tools the Nation has to stop 
impaired driving, and that they are especially effective when 
coupled with media campaigns that raise the visibility of these 
efforts.
    Thanks to the Senate, funds were dedicated in Fiscal Year 
2003 to conduct these mobilizations. Why then has NHTSA not 
requested any funding to continue this lifesaving effort? I 
would like to thank Senator Lautenberg and Senator DeWine for 
introducing legislation today that would provide substantial 
funding for enforcement efforts to stop drunk driving and 
increase seat belt use. If enacted, this bill will save lives.
    MADD also recommends dedicating increased behavioral 
funding for State efforts to improve traffic safety. While 
NHTSA's funding request appears to have increased dollars for 
behavioral safety, this is not the case. Only a percentage of 
this funding will be spent on behavioral safety, since states 
are able to use much of this funding for roadway construction 
safety projects. Though NHTSA continuously states that reducing 
alcohol-related traffic fatalities is a top priority, the 
Fiscal Year 2004 budget request simply does not support these 
claims.
    MADD was shocked to learn that impaired driving programs 
merit less than one page of DOT's 378-page SAFETEA proposal. 
SAFETEA actually decreases funding for alcohol-impaired driving 
by 67 percent. The only funding specifically allocated for 
impaired driving is $50 million. The overwhelming majority of 
safety funding in the SAFETEA proposal is budgeted in the new 
highway safety improvement program, which is really dedicated 
to roadway construction safety projects. This specific 
construction safety program receives a 117 percent increase. 
While construction safety is important, DOT itself along with 
the GAO recognizes that human behavior, not roadway 
environment, is overwhelmingly seen as the most prevalent 
contributing factor to crashes.
    To compare, DOT's recreational trails program, funded at 
$60 million in the Fiscal Year 2004 budget, receives 20 percent 
more funding than the impaired driving grants program. It 
appears from a budget standpoint that keeping recreational 
trails safe for a small population of users is even more 
important to DOT than keeping all highway users safe from 
impaired drivers. Again, why?
    MADD's plan calls for greater accountability controls to 
ensure that Federal funds are being used in a strategic and 
coordinated manner. Recently the GAO at the request of Senator 
Dorgan released a report detailing the management and use of 
Federal highway safety funds. GAO concluded, and I quote, 
``NHTSA's oversight of highway safety programs is less 
effective than it could be, both in ensuring the efficient and 
proper use of Federal funds and in helping the states achieve 
their highway safety goals.'' GAO's report shows that in the 
face of rising traffic deaths, more Federal oversight and 
guidance is needed for the expenditure of Federal safety 
dollars to ensure that these funds are spent on effective 
behavioral programs. This is fiscal responsibility. MADD urges 
Congress to strongly encourage states to enact proven traffic 
safety laws such as a national traffic primary seat belt 
standard, and high risk driver standards.
    MADD knows that the best defense against a drunk driver is 
a seat belt. As NHTSA proposes, states should be given 
financial incentives to enact primary belt laws. However, 
states that do not enact this lifesaving measure after 3 years 
should lose Federal highway construction funds.
    MADD also calls for the enactment of a national standard to 
combat higher risk drivers. While higher risk drivers are a 
small portion of the population, they pose a significant threat 
to motorists. And again, we want to thank Senator Lautenberg 
and Senator DeWine for introducing legislation today that 
targets this dangerous population. If enacted, this bill would 
close loopholes to ensure that repeat and high BAC offenders do 
not slip through the cracks.
    This bill is one that has significant meaning for me and my 
family. On September 19, 1984, a high BAC driver caused the 
head-on collision that killed my 32-year-old sister, Becky and 
my 22-month-old nephew, Timmy. That crash occurred at 1:50 p.m. 
on a beautiful sunny Wednesday afternoon. Three hours after the 
crash, the offender tested at a .16 blood alcohol. The police 
pulled 4 empty bottles of Jim Beam from his vehicle.
    Ms. Gillan mentioned in 2009, she hopes the war against 
drunk driving is being won. MADD is here to say we hope that 
this war has been won and with the goals that we have asked 
for, we know that we can. Our Nation lacks a clear, 
consolidated, coordinated solution to reduce impaired driving 
fatalities. Maintaining the status quo or worse, decreasing 
resources dedicated to fighting drunk driving, will not reverse 
this deadly trend. The reauthorization of TEA-21 provides the 
best chance to provide adequate funding, behavioral safety 
funding to ensure these funds are being used effectively and to 
enact laws that will save lives. I urge Congress to adopt 
MADD's proposal and to create safer roads for all Americans. 
Thank you.
    [The prepared statement of Ms. Hamilton follows:]

     Prepared Statement of Wendy J. Hamilton, National President, 
                  Mothers Against Drunk Driving (MADD)

    Good Morning. My name is Wendy Hamilton and I am the National 
President of Mothers Against Drunk Driving. I am honored to be here 
today to testify on the reauthorization of the National Highway Traffic 
Safety Administration (NHTSA) and its safety programs. We look forward 
to working with the Committee to develop transportation policies that 
provide appropriate funding and employ effective, aggressive 
countermeasures to prevent injuries and save lives on our Nation's 
roads.

Administration Outlines Highway Safety As A Public Health Crisis; 
        However, Funding Requests Do Not Adequately Address Problem
    According to DOT, motor vehicle crashes are responsible for 95 
percent of transportation sector deaths and 99 percent of all 
transportation-related injuries within the United States as well as the 
leading cause of death for people ages 4 through 33. In 2002, an 
estimated 42,850 people died on the Nation's highways, up from 42,116 
in 2001.
    This alarming amount of injury and death on our Nation's roadways 
creates a tremendous drain on the Nation's economy. Economic losses due 
to motor vehicle crashes cost the Nation approximately $230.6 billion 
each year, an average of $820 for every person living in the United 
States.
    DOT's announcement of preliminary 2002 fatality estimates calls for 
``better state laws that address the causes of the problem and stricter 
enforcement.'' But DOT's FY04 request and its reauthorization proposal 
cut funding for behavioral safety initiatives, even while DOT's own 
research demonstrates that human behavior is overwhelmingly the leading 
factor in death and injury on our Nation's roads.

Alcohol-Related Traffic Fatalities On The Rise For Third Consecutive 
        Year
    For the third consecutive year, alcohol-related traffic deaths have 
increased. Preliminary statistics show that nearly 18,000 people were 
killed and hundreds of thousands more were injured in these crashes 
just last year. That's 49 deaths and hundreds of injuries day in and 
day out. Alcohol-involved crashes accounted for 21 percent of nonfatal 
injury crash costs, and an overwhelming 46 percent of all fatal injury 
crash costs. In order to reverse this trend, the Nation cannot maintain 
the status quo and expect a different result.
    Last week at a national news conference, MADD commemorated the 15-
year anniversary of the worst drunk driving crash in U.S. history--the 
Kentucky Bus Crash. On May 14, 1988, 27 people--24 children and 3 
adults--were killed and 30 others were injured coming home from a 
church outing. They were victims of a repeat drunk driving offender, 
behind the wheel of his pickup driving on the wrong side of the road. 
He had a blood alcohol concentration of .24--three times the illegal 
limit today in Kentucky and the majority of all other states and DC.
    The Kentucky Bus Crash was heard around the world because 27 
perished and 30 others were injured in an instant. But tragically, one 
by one, over the past 15 years, the equivalent to 10,400 Kentucky Bus 
Crashes have occurred in our country as nearly 281,000 Americans have 
been killed and millions of others have been injured in alcohol-related 
traffic crashes since that tragic day.
    Unfortunately, the data speaks for itself: the nation--including 
its political leaders--has become complacent in this effort. Drunk 
drivers continue to slip through cracks in the system. Weak laws, lack 
of funding for effective traffic safety programs and minimal resources 
for law enforcement officers to enforce existing laws are all part of 
the problem. There is no coordinated effort at the national, state and 
local level to combat this public health problem. Additionally, drunk 
driving is still often treated as a minor traffic offense rather than 
what it really is--the most frequently committed violent crime in our 
country.

MADD's Safety Plan: Putting Research Into Practice
    Last week MADD released its new Federal plan for the 
reauthorization of Federal traffic safety programs. In conjunction with 
MADD's announcement, we heard from Members of the Senate who expressed 
firm commitment to move the Nation in the right direction. MADD 
sincerely thanks Senator Frank Lautenberg, Senator Mike DeWine, Senator 
Byron Dorgan and Senator Patty Murray for their participation in this 
event and for their leadership to reduce traffic death and injury.
    Today, MADD is asking Congress and the Administration to ensure 
that highway safety is a cornerstone of the reauthorized Transportation 
Equity Act for the 21st Century (TEA-21). And they can do so by 
embracing MADD's research-based reauthorization plan. MADD's plan 
would:

  <bullet> Establish a National Traffic Safety Fund (NTSF)--$1 billion 
        annually--to provide a major infusion of dedicated Federal 
        funds to support state and national traffic safety programs, 
        enforcement and data improvements;

  <bullet> Under the NTSF:

    <ctr-circle> dedicate increased funding for states and local 
            communities to expand highly visible law enforcement 
            activities to reduce impaired driving and increase seat 
            belt use, including national enforcement mobilizations 
            supported by paid media;

    <ctr-circle> dedicate significantly increased funding for state 
            efforts to improve traffic safety by implementing data-
            driven programs;

  <bullet> Create stricter accountability controls to ensure that 
        Federal funds are being used in a strategic and coordinated 
        effort at both the state and Federal level;

  <bullet> Encourage states to enact priority traffic safety laws, such 
        as primary seat belt enforcement, higher-risk driver and open 
        container standards.

    I want to briefly talk in more detail about MADD's reauthorization 
priorities.
    Funding is key to the success of national, state and local traffic 
safety programs to reduce drunk driving. But in the year 2001, while 
traffic crashes cost taxpayers $230 billion, the Federal government 
spent only $522 million on highway safety and only one-quarter of that 
was used to fight impaired driving. Compared to the financial and human 
costs of drunk driving, our Nation's spending is woefully inadequate to 
address the magnitude of this problem.
    Establishing a National Traffic Safety Fund would give those on the 
front lines an increased, ongoing and reliable funding stream for 
national, state and local highway safety programs. MADD recommends an 
annual $1 billion dedicated fund for traffic safety programs. We know 
that for every dollar spent on effective highway safety programs about 
$30 is saved by society in the reduced costs of crashes. This would be 
a wise investment.
    States must have additional resources if they are expected to reach 
their highway safety goals. Section 402, State and Community Highway 
Safety grants, provides funding to states to support highway safety 
programs designed to reduce traffic crashes and resulting deaths, 
injuries, and property damage. TEA-21 authorized $163 million in FY03 
for Section 402 grants. MADD recommends a substantial increase in 
Section 402 funding to help states reach their highway safety goals. Of 
the $1 billion annually, MADD recommends $425 million for the 
reauthorized Section 402.
    Although alcohol is a factor in 42 percent of all traffic deaths, 
only 26 percent of all highway safety funding available to the states 
through TEA-21 is spent on alcohol-impaired driving countermeasures. 
Too often highway safety funding made available to the states is used 
for other programs that may not save as many lives or prevent as many 
injuries as priority traffic safety programs. It is critical that these 
funds are spent on data-driven programs that include comprehensive 
impaired driving and seat belt initiatives. The National Traffic Safety 
Fund would also be used to expand states' well-publicized law 
enforcement activities to curb drunk driving and increase seat belt 
use. These law enforcement resources would support training, over-time, 
technology and paid advertising throughout the year. Additionally, 
funds would be available for three highly visible national impaired 
driving and seat belt law enforcement mobilizations.
    These law enforcement activities should utilize, when possible, 
frequent and highly visible sobriety checkpoints. These are among the 
most effective tools used by law enforcement to deter impaired driving. 
We know through research and real world experience that sobriety 
checkpoints save lives. The CDC found that sobriety checkpoints can 
reduce impaired driving crashes by 18 to 24 percent. These checkpoints 
are especially effective when coupled with media campaigns that raise 
the visibility and awareness of drunk driving enforcement efforts in 
the community with the bottom line goal of deterring impaired driving 
before it happens.
    Without significant increases in the level of funding for these 
critical safety programs, the current deadly trend will continue to 
worsen.
    But it is just as important to know where the money is going and 
how it is being spent. That is why MADD is asking Congress to hold 
states and the National Highway Traffic Safety Administration 
accountable for the expenditure of Federal highway safety funds. Our 
goal is not to make their jobs more difficult. It is to recognize that 
political pressures and ``flavor of the month'' traffic safety issues 
can influence how dollars are spent. If DOT's primary goal is to 
reverse the current trend, it is time to create a more consistent 
process that ensures the efficient and proper use of Federal funds to 
help the Nation achieve its highway safety goals.
    MADD also urges Congress to strongly encourage states to enact 
proven traffic safety laws, such as a national primary seat belt 
enforcement standard. According to NHTSA, for every percentage point 
increase in seat belt usage, 280 lives can be saved. MADD knows that 
the best defense against a drunk driver is a seat belt. The fact is, of 
those killed in alcohol-related traffic crashes, 76 percent were not 
wearing their seat belt. Had they been, a significant portion of them 
would be alive today.
    Drunk drivers typically do not buckle up, nor do they make sure 
their passengers are properly restrained. The sad fact is that two-
thirds of children killed in alcohol-related crashes are passengers 
driven by an impaired driver. We also know that seat belt use for 
children generally decreases the more impaired a driver becomes. MADD 
calls for the establishment of a national primary seat belt standard. 
States would be eligible for ``jumbo'' financial incentives for three 
years. States that have not enacted this lifesaving measure after three 
years would lose Federal highway construction funds.
    MADD also calls for the enactment of a national standard to combat 
``higher-risk drivers.'' ``Higher-risk drivers'' are defined as repeat 
offenders, those with BACs of .15 or higher, or persons caught driving 
on a suspended license when the suspension is a result of a prior DUI 
offense.
    This priority is one that has personal meaning for me. On September 
19, 1984, a high BAC driver caused the head-on collision that killed my 
32-year-old sister Becky and my 22-month old nephew Timmy. Three hours 
after the crash, the offender tested at a .16 BAC. Police pulled four 
empty bottles of alcohol from his vehicle.
    While higher-risk drivers are a small portion of the population, 
they pose a significant threat to innocent motorists. On a typical 
weekend night, only one percent of drivers have a BAC of .15 or higher, 
but high BAC drivers were involved in over one-half of all alcohol-
related traffic deaths in 2000. And, about one-third of all drivers 
arrested or convicted of DUI are repeat offenders. Clearly, we need 
leadership from Congress and the Administration to encourage states to 
act now to get this most dangerous segment of the driving public off of 
our roads.
    MADD is backing research-based solutions to address the higher-risk 
driver through what we call: Restrictions, Restitutions and Recovery. 
Restrictions include mandatory sentencing, strict licensing and vehicle 
sanctions such as immobilization and ignition interlock devices. 
Restitution includes payment to victims and to the community by 
offenders. Recovery focuses on efforts to address the offender's 
substance abuse and addiction. States that do not enact comprehensive 
higher-risk driver legislation would lose Federal highway construction 
funds.
    Lastly, MADD calls on Congress to enact a national ban on open 
containers in the passenger compartment of motor vehicles. Open 
container laws separate the consumption of alcohol from the operation 
of a vehicle. A common-sense measure, banning open containers in the 
passenger compartment of a vehicle will decrease the likelihood that 
drinking and driving will occur. One NHTSA study found that states with 
open container laws have lower rates of alcohol-related fatalities, 
while another study conducted by the Stanford University Institute for 
Economic Policy Research found that, controlling for other variables, 
open container laws had a significant effect on reducing fatal crash 
rates (by over five percent).
    The Kentucky Bus Crash reminds us that for every loss and for every 
tragic death and injury there is untold suffering and emotion. That 
said, MADD is committed to advocating research-based and proven-
effective countermeasures to prevent others from having to experience 
what the families of these victims have suffered.
    It's not about feel good. It's about doing what is right, and doing 
what will most effectively save lives. That is what drives our agenda, 
and that is what is behind our proposals for the reauthorization of 
TEA-21.

NHTSA's FY 2004 Budget Provides Inadequate Resources and Little 
        Guidance To Reach Highway Safety Goals
    In the FY04 Budget in Brief, NHTSA states that it is ``committed to 
pursuing an aggressive safety agenda'' and that ``[b]ehavioral safety 
initiatives will be directed to increasing safety belt use and 
deterring impaired driving, which are central to achieving the 
Department's traffic fatality goal.'' While NHTSA's funding request 
appears to have increased monies for behavioral funding, this is not 
the case. In fact, the FY04 request is less than the FY03 request. This 
is because the FY04 request includes $222 million of TEA-21 resources 
for the Sections 157 and 163 grant programs formerly appropriated in 
the Federal Highway Administration budget. NHTSA has always 
administered these funds and is now requesting receipt of this funding 
directly. This apparent increase is really no increase at all, just a 
shifting of grant funds.
    The current FY04 request for behavioral funding is $516,309,000, 
but once Sections 157 and 163 monies are subtracted the amount is 
lowered to $294,309,000. The FY04 request is actually $234,000 less 
than the FY03 request.
    Additionally, only a percentage of this funding will be spent on 
behavioral safety since states are able to use this funding for roadway 
safety/highway construction projects.
    One of NHTSA's primary FY04 goals is to reduce the rate of alcohol-
related highway fatalities per 100 million vehicle miles traveled (VMT) 
to 0.53. In its Budget in Brief, NHTSA states the following:

        The 2003 target of .53 per 100 million VMT, if met, will result 
        in a reduction of alcohol-related fatalities to 15,600. . .It 
        will be a challenge to meet this target by the end of 2003. The 
        agency is implementing new programs in 2003 that should begin 
        to see positive results by the end of the year. Even though 
        NHTSA should begin to see results in 2003, the agency still may 
        not be able to achieve the target without the states and 
        communities enacting and, more importantly, enforcing strong 
        alcohol laws and reforming their individual impaired driving 
        control systems.

    However, it is not clear from the FY04 budget what these new 
programs are and where the money is coming from to continue them. 
NHTSA's FY04 budget request clearly does not reflect the severity of 
the impaired driving problem. While NHTSA's FY04 budget states that 
``Protecting vehicle occupants and deterring impaired drivers are among 
the major ways we are able to reduce death and injury,'' the level of 
funding for impaired driving countermeasures is utterly insufficient. 
For example, the Impaired Driving Division budget request is 
significantly lower than FY02 enacted levels ($10,926,000 FY04 request 
compared with $13,497,000 FY02 enacted). NHTSA states that ``Aggressive 
actions are needed to expand focus on several key high-risk 
populations, including underage drinkers, 21-34 year olds, and repeat 
offenders,'' but seeks fewer resources to reach these goals.
    Under ``Anticipated FY 2003 Accomplishments'' NHTSA recognizes that 
``Two nationwide law enforcement mobilizations (July and December) will 
be conducted,'' bolstered by a national media public service 
advertising campaign. The ``Click It or Ticket'' national law 
enforcement mobilization campaign has been highly successful at 
increasing seat belt usage. Thanks to the Senate, funds were dedicated 
in the FY03 budget to conduct similar national mobilizations to reduce 
alcohol-impaired driving deaths and injuries. However, NHTSA does not 
request any funding to continue this effort.
    Additionally, NHTSA's State & Community Highway Safety Program 
drastically reduces funds available to states for impaired driving 
initiatives. NHTSA's FY04 request provides a $50 million impaired 
driving grant program to only a subset of states to demonstrate the 
effectiveness of a comprehensive approach to reducing impaired driving 
and for identifying causes of weakness in a state's impaired driving 
control system. This funding level is $100 million less than funds 
available to states in FY03 for impaired driving improvements.
    While NHTSA continuously states that reducing alcohol-related 
traffic fatalities is a top priority, the FY04 budget request does not 
support these assertions.

Administration's ``SAFETEA'' Proposal Cuts Alcohol-Impaired Driving 
        Funding and Incentives, Lacks Behavioral Safety Funding
    MADD was dismayed to learn that impaired driving control programs 
merit less than one page out of the 378 page U.S. Department of 
Transportation (DOT) surface transportation proposal. DOT's proposal, 
``SAFETEA,'' falls woefully short of real ``safety'' for America's 
roadways and includes an inadequate response to this urgent national 
problem.
    ``SAFETEA'' decreases funding for alcohol-impaired programs by 67 
percent. The proposal recommends an impaired driving program of only 
$50 million, far less than current funding levels and clearly not 
enough to reverse this deadly trend. In FY03, TEA-21 authorized $150 
million for alcohol-impaired driving countermeasures and also contained 
requirements for states to enact repeat offender and open container 
laws. If states failed to pass these alcohol-impaired driving laws then 
a percentage of their Federal construction funds were transferred. Not 
only does ``SAFETEA'' cut impaired driving funding to $50 million, it 
also does not include any incentives to states to enact alcohol-
impaired driving laws.
    In comparison, ``SAFETEA'' provides the Recreational Trails Program 
(RTP)--$60 million in FY04--with 20 percent more funding than the 
Impaired Driving Grants Program. The RTP program provides funds to 
develop and maintain recreational trails for motorized and non-
motorized recreational trail users. It appears, at least from a budget 
standpoint, that keeping recreational trails safe for a small 
population of users is even more important to DOT than keeping all 
highway users safe from impaired drivers.
    The overwhelming majority of ``safety'' funding in the ``SAFETEA'' 
proposal is budgeted in the new ``Highway Safety Improvement Program'' 
(HSIP), which is really a highway construction project program. In 2004 
alone, $1 billion is allocated to the HSIP program. These funds are to 
be used for ``safety improvement projects,'' defined below.

        A safety improvement project corrects or improves a hazardous 
        roadway condition, or proactively addresses highway safety 
        problems that may include: intersection improvements; 
        installation of rumble strips and other warning devices; 
        elimination of roadside obstacles; railway-highway grade 
        crossing safety; pedestrian or bicycle safety; traffic calming; 
        improving highway signage and pavement marking; installing 
        traffic control devices at high crash locations or priority 
        control systems for emergency vehicles at signalized 
        intersections, safety conscious planning and improving crash 
        data collection and analysis, etc.

    While these are all important activities, DOT itself recognizes 
that human behavior, not roadway environment, is overwhelmingly seen as 
the most prevalent factor in contributing to crashes. The General 
Accounting Office (GAO) released a report in March 2003 that reconfirms 
this premise after surveying data, experts and studies focusing on 
factors that contribute to motor vehicle crashes. Given that behavioral 
factors account for the majority of traffic crashes, it is difficult to 
understand the vastly disproportionate funding levels for behavioral 
versus roadway construction safety programs and why DOT allows a 
significant portion of the behavioral funds to be used to augment even 
more roadway construction spending.
    While NHTSA continuously states that reducing alcohol-related 
traffic fatalities is a top priority, the Administration's ``SAFETEA'' 
proposal does not support these claims.

Increased Resources Are Required To Significantly Reduce Highway Deaths 
        and Injuries
    Research demonstrates that certain programs and initiatives will 
significantly reduce traffic deaths and injuries. In order to implement 
these programs and initiatives, increased resources are needed. The 
reauthorization of Federal highway safety programs provides the vehicle 
to obtain more resources to combat this public health problem. MADD 
urges Congress to consider the merits of each traffic safety program 
based upon their ability to reduce or prevent alcohol-related traffic 
fatalities. MADD's goal is to ensure that Federal traffic safety 
dollars are spent on effective programs and that states pass basic laws 
to combat alcohol-impaired driving.
    NHTSA's traffic safety budget is wholly inadequate. Faced with the 
highest number of highway fatalities since 1990, and a cost to 
America's economy of over $230.6 billion annually, the agency's budget 
request should reflect the growing need for more resources rather than 
maintain the status quo. Currently, the Federal government's funding 
for traffic safety programs does not reflect the importance of this 
public health crisis. The reauthorization of TEA-21 offers Congress the 
opportunity to review and reallocate funds to traffic safety.

GAO Report Highlights Deficiencies In Oversight Of Highway Safety 
        Initiatives
    Recently the General Accounting Office (GAO) released a report 
detailing the management and use of Federal highway safety programs and 
funding. GAO concluded the following:

        . . . NHTSA's oversight of highway safety programs is less 
        effective than it could be, both in ensuring the efficient and 
        proper use of Federal funds and in helping the states achieve 
        their highway safety goals.

    GAO's report shows that Federal oversight of state spending on 
highway safety programs has been inadequate in the face of rising 
traffic deaths and that NHTSA has not been consistently monitoring how 
funds are being used. GAO also found that NHTSA has no consistent 
policy for conducting state reviews or improvement plans. As a result, 
some regional offices conduct reviews as infrequently as every two 
years, while others conduct them only when a state requests one. This 
clearly enables some states to slip through the cracks. For example, 
the report found that the rate of alcohol-related traffic deaths rose 
in 14 states between 1997 and 2001; in seven of those states, the rate 
was higher than the national average, but only one of the seven states 
had a NHTSA improvement plan. The GAO also found that seat belt use was 
declining in some states that didn't have NHTSA improvement plans.
    The GAO report also reveals how states use some of their highway 
``safety'' funding. States that did not meet either the open container 
or the repeat offender requirements in TEA-21 has a percentage of funds 
transferred from their Federal highway construction program to their 
Section 402 highway safety grants program. However, states were also 
able to allocate transferred funds to highway construction projects 
under the Federal Highway Administration's (FHWA) Hazard Elimination 
Program (HEP). An overwhelming 69 percent of the transferred funds were 
used by states for construction anyway projects anyway, the GAO 
reported.
    The GAO report demonstrates that more Federal oversight and 
guidance is needed for the expenditure of Federal highway safety funds 
to ensure that these funds are spent on effective behavioral programs. 
Clearly there are legitimate areas of public health and safety in which 
the Federal government should be involved in setting standards. Similar 
to airline safety, highway safety warrants Federal government 
involvement. In this country we have a national highway system. 
Families should be protected from the consequences of impaired driving 
whether they are driving through Alabama, Washington or North Dakota. 
Impaired drivers do not recognize state boundaries. Drunk driving is a 
national problem and it demands a national solution.

Call To Action: Nation's Leaders Must Provide A Roadmap
    However, our Nation lacks a clear, coordinated national and state 
solution to reduce impaired-driving deaths and injuries. Congress now 
has the opportunity to dedicate proper funding to address this public 
health epidemic, and to ensure proper use of these funds. While 
continued research efforts are critical in order to identify new and 
improved methods to deter drunk driving, there are many proven, 
research-based strategies that are not being used to reverse the 
current deadly trend. These strategies can and must be employed to make 
progress in the effort.
    MADD urges Congress to provide adequate funding to NHTSA, and to 
require NHTSA to develop a roadmap for itself and the states to 
significantly reduce alcohol-related deaths and injuries. The nation is 
waiting for short-term, immediate strategies such as high-visibility 
enforcement efforts and sobriety checkpoints to turn this trend around, 
as well as long-term strategies that will ensure our safety on 
America's roadways for years to come. Our nation can no longer afford 
the current state of inaction on this issue.
    Today, we are at a historic crossroads as Congress takes up the 
multi-billion dollar reauthorization of TEA-21 that will shape 
transportation policy for the rest of this decade and beyond. 
Maintaining the status quo, or worse, decreasing resources dedicated to 
fighting drunk driving will not reverse this deadly trend. This is our 
best chance to ensure adequate highway safety funding, to ensure that 
these funds are being used effectively, and to enact laws that will 
keep drunk drivers from getting behind the wheel. I urge Congress to 
adopt MADD's proposal and create safer roads for all Americans. Thank 
you.

    Senator Smith. Thank you. And a genuine appreciation to 
each of you for your preparation and participation in this 
hearing. In the interest of the vote that's about to begin, I 
will leave the record open so that others of my colleagues may 
have questions and I do as well, that we will submit to you in 
writing so that they can be included in the record as well.
    Thank you all, and we are adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]

                            A P P E N D I X

Comments of Consumers Union on Reauthorization of the National Highway 
Traffic Safety Administration (Nhtsa) Before the Senate Transportation 
                         and Commerce Committee

1. Increase NHTSA's Motor Safety and Consumer Information Programs 
        Budget
    In 2002, an estimated 42,850 people died on the Nation's highways 
and over 3 million more were injured in motor vehicle crashes at a cost 
of $230.6 billion per year. This is the highest number of highway 
fatalities since 1990. Further, rollover crashes involving SUVs and 
pickup trucks accounted for 53 percent of the increase in traffic 
deaths over the past year. Although nearly 95 percent of all 
transportation-related fatalities occur as a result of highway crashes 
and this number appears to be growing, NHTSA's total budget for motor 
vehicle and traffic safety programs is disproportionately small, 
representing less than 1 percent of the U.S. Department of 
Transportation's annual budget--too small to adequately cover their 
large mandate. We share the concerns of Advocates for Highway and Auto 
Safety and others that the authorization funding level for NHTSA's 
motor vehicle safety and consumer information programs, only $107.9 
million currently, needs to be increased dramatically to meet the 
agency's growing obligations, which include more extensive crash and 
rollover testing through the New Car Assessment Program (NCAP). These 
programs contribute dramatically to giving consumers better choices. 
That information and those choices have a significant impact on how the 
vehicles are designed and what safety features they provide.

2. Reduce Rollover Risks:
    Rollover crashes represent 3 percent of all collisions but account 
for 32 percent of occupant fatalities. Hence, while the auto industry 
argues frequently that rollover crashes are relatively rare events, 
what they fail to note is that rollover crashes are far more deadly 
than other types of crashes.

  <bullet> CU urges Congress to insure that NHTSA moves quickly to 
        finalize its proposal for dynamic testing for rollover in the 
        very near future. This mandate resulted from the requirement in 
        the TREAD Act of 2000 that NHTSA develop a dynamic rollover 
        test within a two-year period. We are well past that period, 
        and while CU recognizes that NHTSA has had many new 
        responsibilities and obligations to fulfill since the enactment 
        of TREAD Act, the problem of rollover prevention has never been 
        more pressing: fatalities in rollover crashes involving SUVs 
        and pickup trucks accounted for 53 percent of the increase in 
        traffic deaths over the past year, directly correlated with the 
        change of the fleet to include a far higher percentage of SUVs 
        and pickup trucks than a decade ago, vehicles that are more 
        prone to roll over than the passenger car.

    We eagerly anticipate NHTSA's program to test SUVs and other 
vehicles and rate their rollover resistance through the New Car 
Assessment Program (NCAP) program. We believe the rating system will 
have a strong impact on SUV design, as the NCAP program has had on 
vehicle crashworthiness, with consumers enjoying steady improvements in 
the crash protection provided by the vehicles since the NCAP program's 
inception. This is not government regulations, but rather a highly 
effective information program.
    As noted above, Congress should provide additional resources to 
NHTSA to conduct the testing needed to keep the NCAP program active and 
ongoing. Without resources, the rollover testing program will languish 
as a weak ineffective tool.
    In addition to the rollover resistance testing that is in the works 
for light trucks, we also:

  <bullet> recommend that Congress support legislation offered by 
        Senator Snowe that would require that 15-passenger vans be made 
        part of the testing program and that the agency consider rating 
        the stability of these vans, as well;

  <bullet> recommend that collision avoidance or electronic stability 
        control (ESC) technology be made standard equipment on all 
        SUVs, which have a greater tendency to roll over. In the next 3 
        years, NHTSA should test light trucks with and without ESC 
        systems and provide guidance as to which systems are most 
        effective.

    ESC has performed well overall in CU's emergency handling tests and 
        appears to be very effective in helping drivers to maintain 
        vehicle control in panic or emergency maneuvers and helps 
        prevent the vehicle getting into a situation where it can roll 
        over. Their widespread use is virtually certain to result in 
        fewer rollover-related deaths and injuries.

  <bullet> We believe it is possible that adding ESC systems and dual 
        rear wheels to 15-passenger vans would improve their stability, 
        as well, and recommend the agency consider requiring ESC and 
        dual rear wheels on these vans as standard equipment at a date 
        certain in the future.

  <bullet> Dynamic interior head air bag protection systems have also 
        been shown to reduce occupant ejection and prevent injuries 
        during a crash. These air bag systems give occupants more side 
        protection in a rollover and also prevent unbelted occupants 
        from being ejected. Congress should direct NHTSA to study the 
        effectiveness of head air bags in NHTSA's compatibility crash 
        testing. Congress might also consider directing NHTSA to 
        require, phased in over the next five years, these systems be 
        standard on all vehicles, especially small and medium size 
        cars.

  <bullet> NHTSA is currently reviewing comments for an updated 
        standard on vehicle roof crush. This committee should urge the 
        agency to speed it's work on that critical area--many belted 
        drivers in SUV rollovers have been killed or gravely injured as 
        a result of injuries to the spine from inadequately designed 
        roofs.

3. Recommendations for reducing the risks from vehicle incompatibility
  <bullet> Congress should direct NHTSA to develop crash tests to 
        assess crash incompatibility between sedans and light trucks, 
        and make results available to consumers. NHTSA should begin to 
        set standards to reduce vehicle incompatibility to better 
        protect smaller vehicle occupants, and to reduce the effects of 
        SUV and pickup truck aggressivity.

  <bullet> Congress should direct NHTSA to evaluate the injury 
        reduction and lives saved from requiring new passenger cars to 
        be equipped with side and head air bags as standard equipment 
        to protect passengers in a crash with a larger, higher and more 
        aggressively designed vehicle. The Insurance Institute for 
        Highway Safety and the Alliance of Automobile Manufacturers are 
        already recommending these air bags but we are concerned that 
        we will not see them as standard equipment in vehicles but 
        instead they will be ``optional'' equipment, resulting in their 
        availability to more affluent car buyers getting the protection 
        they need in a collision with an SUV or pickup.

4. Recommendations for getting NHTSA to evaluate technologies and 
        evaluate their ability to prevent backover injuries and deaths 
        and other injuries and deaths to children in and around cars
    Though it has the authority to do so, NHTSA inexplicably has never 
kept statistics on noncrash, nontraffic incidents, especially in 
driveways of homes or other private property. Safety advocates have met 
with NHTSA officials for over five years to call this matter to the 
agency's attention, but little has changed. As a result, the apparent 
growth in the number of incidents in which small children have been 
backed over and killed, usually by a parent in their own driveways, has 
not been effectively documented by NHTSA. The California nonprofit 
safety group, KIDS 'N CARS, does, however, collect these data and in 
2002, KIDS 'N CARS documented just over one child a week being backed 
over and killed in the US. KIDS 'N CARS has documented 294 incidents in 
the U.S. in the past ten years where young children were injured or 
killed by vehicles backing up. A death occurred in 179 of the 294 
document cases. The majority of victims were one year olds and over 57 
percent of those incidents involved a larger size vehicle like an SUV 
or pickup truck. CU believes that technology holds the solution to 
preventing these terrible tragedies and that NHTSA could put in place 
the necessary regulatory steps to help prevent these tragedies, but 
history also suggests that unless Congress directs NHTSA to take on 
this problem, not only of backing over incidents but other dangers to 
children in and around cars, the agency will simply not make this 
children's safety issue a priority. Therefore, CU recommends that 
Congress take the following steps:

  <bullet> Require NHTSA to begin keeping track of data regarding 
        injury and death to children in and around motor vehicles.

  <bullet> Require NHTSA to test backup warning devices, set 
        performance standards for these devices, and make them standard 
        equipment on SUVs and pickup trucks in the next 2 years.

  <bullet> Require NHTSA to finalize a rule on power windows and 
        sunroofs to insure all such devices have auto reverse and push 
        down/pick up window switches. (Only the big three auto makers 
        still make windows without auto reverse feature) Last year, 
        four children were strangled in power windows and countless 
        others suffered injuries to head, neck, and fingers

  <bullet> Require NHTSA to study and evaluate technology developed by 
        General Motors, National Aeronautics and Space Administration 
        and other aftermarket technologies that warn parents when a 
        child has been left inside a vehicle, often by a conscientious 
        parent who has changed his or her routine.

Enhanced Consumer Information
    Consumers Union knows from publishing comparative information 
regularly to our readers that consumers are hungry for such information 
and use it to guide their purchasing decisions. CU therefore agrees 
with Advocates for Highway and Auto Safety and other safety advocates 
that comparative ratings of vehicle crashworthiness would assist 
consumers in making safer purchase decisions. We therefore support 
legislative efforts to require NHTSA to develop a crashworthiness 
safety label for all new motor vehicles similar to the EPA energy 
efficiency rating and prominently display that information to the 
buying public for all new passenger vehicles.

May 21, 2003
                                            Respectfully submitted,

                                                        Consumers Union

                                           R. David Pittle,
                           Senior Vice President, Technical Policy.

                                           Sally Greenberg,
                                     Senior Product Safety Counsel.

                                            David Champion,
                                               Director, Auto Test.
                                 ______
                                 
        Response to Written Questions Submitted to Jeffrey Runge

    Question 1. SAFETEA would reward a State with one times the portion 
of their respective section 402 funds if it adopted primary seatbelt 
enforcement laws before the end of 2002. However, for states that adopt 
primary seatbelt laws after December 31, 2002, the reward is equal to 5 
times that amount. It seems that we would be penalizing states for 
early action. How did NHTSA arrive at this 500 percent difference--Is 
it an arbitrary number?

    Question 1a. Do you believe it is fair that a State which has 
already adopted a primary seatbelt law should not be rewarded the same 
amount, or an amount closer to that which would be received by states 
that have not yet acted on their own in enacting primary seatbelt laws?
    Answer. The proposal to award states grants equaling 5 times their 
Section 402 allocations for Fiscal Year (FY) 2003 for enacting primary 
safety belt laws subsequent to December 31, 2002, reflects the fact 
that 32 states still do not have primary laws. Those states, in which 
slightly less than half of Americans reside, did not respond to the 
less direct inducements of TEA-21 to pass primary legislation. Indeed, 
since enactment of TEA-21, only four states (Alabama, Michigan, New 
Jersey and Washington) passed primary laws that apply to all passenger 
motor vehicles. The Agency believes that a onetime grant equal to 5 
times the Section 402 allocation for FY 2003 will be a powerful 
motivator that ultimately will extend primary law coverage to all or 
nearly all Americans.
    As for the states that have had primary laws since December 31, 
2002 or earlier, the Agency believes that the proposed one-time grant 
equal to one times their Section 402 allocation for FY 2003 is an 
appropriate reward for their early, exemplary work, since they have 
already received significant awards under TEA-21. During the span of 
the TEA-21 authorization, the 18 states, Puerto Rico and the District 
of Columbia (DC) with primary laws received substantial grants under 
the Section 157 Incentive program, due to the higher safety belt use 
rates associated with primary laws. Those states, with slightly more 
than half the Nation's population, shared approximately $182 million of 
the $221 million in 157 Incentive funds distributed from FY 1999 
through FY 2003, or about 82 percent of the total. In addition, the 18 
states, Puerto Rico, DC and the four territories would share nearly $80 
million in one-time Primary Safety Belt Law grants under the SAFETEA 
proposal. Thus, a total of about $262 million either already has been, 
or would be, awarded to the 24 jurisdictions with primary laws in 
effect prior to December 31, 2002.

    Question 2. NHTSA has pointed to the absence of seatbelt use as a 
significant factor, which contributes to occupant fatalities and 
injuries during motor vehicle crashes. In your opinion, what are the 
advantages and disadvantages of requiring all states to enact primary 
safety belt laws?
    Answer. Passing primary safety belt laws in every State would save 
hundreds of lives and prevent tens of thousands of injuries each year. 
Safety belts are the single most effective safety device in vehicles 
today. In 2001, safety belts prevented 13,274 fatalities and more than 
500,000 injuries. The economic and societal costs associated with motor 
vehicle crashes also are greatly reduced with the enactment of primary 
safety belt laws.
    Primary laws are proven to increase safety belt use. In 2002, the 
average belt use rate among primary law states was 11 percentage points 
higher than in states with secondary laws. This is critical because for 
every percentage point increase in National safety belt use, 
approximately 250 lives are saved, 7,000 injuries are prevented and 
more than $700,000 is saved in injury related costs.
    Primary laws are effective because they are more enforceable than 
secondary laws, and the general public is more likely to buckle up when 
there is the possibility of receiving a citation for not doing so. 
Support for primary safety belt laws can be found throughout 
communities and across the Nation. However, when objections do arise 
they tend to focus on concerns related to differential enforcement and 
individual rights. Differential enforcement is the term used for 
alleged malpractice by law enforcement officers, singling out vehicles 
driven by a citizen based purely on race or ethnicity. In-depth studies 
of primary enforcement laws conducted in various communities found no 
evidence to show any shift in enforcement patterns that could be 
interpreted as harassment or differential enforcement. With regard to 
individual rights, the discussion needs to be balanced with the issue 
of personal responsibility. Most people are willing to accept the 
degree of control imposed by traffic laws because they recognize the 
potential societal impact of noncompliance and their own responsibility 
to protect themselves and others from serious harm.
    The advantages of primary safety belt laws far outweigh any 
objections that have arisen. The Department of Transportation 
recognizes this and recently proposed under the Safe, Accountable, 
Flexible and Efficient Transportation Equity Act (SAFETEA) of 2003, a 
safety belt performance program that will promote the enactment of 
primary safety belt use laws in all states and the increase of safety 
belt use rates across the country.

    Question 3. Regarding the SAFETEA discretionary program of $50 
million to combat impaired driving, how many states does NHTSA believe 
would qualify for this funding?

    Question 3a. Why shouldn't we instead work to improve the Section 
410 program by revising the current criteria, which now helps about 35 
states, rather than implementing your proposed discretionary program, 
which may not help as many?

    Question 3b. Under the proposed new discretionary program, how does 
NHTSA intend to join in partnership with the states and help them 
improve their alcohol countermeasure programs without becoming too 
involved managing the State programs?
    Answer. The impaired driving grant program under SAFETEA would 
focus significant resources on up to ten states with particularly high 
numbers or rates of alcohol-related fatalities. States differ widely 
with regard to the severity of the impaired driving problem. In 2001, 
State alcohol-related fatality numbers ranged from 35 to 1,789, while 
rates varied from .29 to 1.38 per 100 million vehicle miles traveled. 
The Department believes that the greatest potential impact on the 
National impaired driving problem can be realized by working intensely 
with those states that are contributing the greatest share of 
fatalities.
    The Section 410 program does not provide for the type of focused, 
data-driven impaired driving effort needed to resume a downward trend 
in impaired driving fatalities. SAFETEA's new impaired discretionary 
grant program will allow NHTSA to focus resources directly on states 
with particularly severe impaired driving problems. By identifying the 
root causes of individual states' impaired driving weaknesses, based on 
sound problem identification, states can take the critical steps needed 
to deal with this serious highway safety hazard. This proposal builds 
on the performance-based approach adopted by the agency for the Section 
402 program. That approach calls for directing scarce resources at the 
most significant problem areas. Resources targeted on the most pressing 
alcohol problem areas have an increased likelihood of leading to 
reductions in alcohol-related fatalities and injuries.
    NHTSA will work closely with the states in the new grant program, 
providing technical and programmatic assistance to assess their 
impaired driving problem, identify appropriate countermeasures, and 
develop strategies for implementation. NHTSA intends to provide 
services such as coordinating visitations by teams of National experts 
to conduct in-depth problem and program assessments. NHTSA will also 
work with these states to develop plans for implementing programs, 
based on these assessments. However, implementation of these plans will 
be the states' responsibility.

    Question 4. The Administration is not proposing any rulemakings 
related to vehicle performance and safety. How do you defend this lack 
of administrative action given the critical safety issues involving 
vehicle rollover and compatibility?
    Answer. NHTSA did not propose any mandated rulemaking actions in 
SAFETEA because we are proactively addressing the critical safety 
problems of rollover and compatibility, and other important safety 
issues. Given that SAFETEA [already] addresses a broad range of highway 
infrastructure and driver behavior programs, NHTSA believes that issues 
related to potential changes to its vehicle programs should be 
addressed in a separate vehicle reauthorization bill rather than 
SAFETEA.
    There is no lack of administrative action in addressing the 
critical safety areas facing the Nation. NHTSA is undertaking 
rulemaking actions on a broad spectrum of vehicle safety issues. In the 
areas of vehicle rollover and compatibility, which were the focus of 
your question, the agency published on June 13, 2003 the reports by its 
Integrated Project Teams on Rollover and Compatibility. Those reports 
identify the current actions and new strategies that NHTSA is 
undertaking in rulemaking and consumer information, further defined in 
the milestones below:
Rollover
  <bullet> Final rule on new light vehicle tire standard--2003

  <bullet> Part 2 of the final rule for light vehicle tire pressure 
        monitoring systems (TPMS)--2005

  <bullet> Final rule including dynamic rollover in Rollover NCAP--2003

  <bullet> Proposed upgrade of door lock and latch systems--2004

  <bullet> Proposed upgrade of roof crush standard--2004
Compatibility
  <bullet> Proposals to reduce glare from light truck headlamps--2004

  <bullet> Proposal to upgrade side impact protection--2003/2004

  <bullet> Request for comments on new offset frontal crash test 
        requirement--2003

    Question 5. As you know, this Committee is very concerned about SUV 
rollover and vehicle compatibility issues. Can we have your commitment 
that you will provide this committee with a rulemaking agenda that 
outlines exactly which rulemakings are going to be issued, when the 
notices of proposed rulemaking are going to come out, and specific 
dates and timetables for action so we will have an appropriate 
regulatory strategy to deal with these issues?
    Answer. NHTSA is undertaking rulemaking actions on a broad spectrum 
of vehicle safety issues. Many of them will culminate in published 
notices of proposed rulemaking (NPRM) and final rules in the near term 
(2003-4). In other areas, there are active research programs underway 
that will produce the information to publish notices or final rules in 
the 2005-6 time frame. Rollover and compatibility are two of NHTSA's 
top priorities, and we are committed to solving these critical 
problems. On June 13, 2003, the agency's Rollover and Compatibility 
Integrated Project Teams reports were published in the Federal 
Register. These reports outline in general what the agency is currently 
doing and new strategies to address these problems. The answers below 
address your question concerning specific planned research and 
rulemaking actions.

Rollover
    Rollover crashes are extremely dangerous events. Eight percent of 
light vehicles (passenger cars, pickups, vans, and sport utility 
vehicles (SUVs)) in crashes roll over, yet 21 percent of seriously 
injured occupants and 31 percent of occupant fatalities occur in 
rollovers. In 2001, 10,138 people were killed as occupants of light 
vehicles in rollover crashes. Of those, 8,407 were killed in single-
vehicle rollover crashes. Nearly 30,000 people are seriously injured in 
rollover crashes each year. Seventy-eight percent of the people who 
died in single-vehicle rollover crashes were not wearing their vehicle 
safety belt, and 64 percent were partially or completely ejected from 
the vehicle (including 53 percent who were completely ejected). NHTSA 
is committed to reducing the number of rollover crashes and reducing 
the deaths and injuries when those crashes do occur. In addition to 
actions targeted at the belt-wearing behavior of vehicle occupants, 
specific rulemaking and consumer information milestones to address 
light vehicle rollover (from the list above) are:

  <bullet> Final rule on new light vehicle tire standard, FMVSS No.139 
        by the end of this month (June 2003)

  <bullet> Part 2 of the final rule for light vehicle tire pressure 
        monitoring systems (TPMS) in 2005

  <bullet> Final Rule, Dynamic Rollover Rating Program for NCAP in 2003

  <bullet> Research in 2003-4 to evaluate the effectiveness of 
        electronic stability control in preventing single vehicle 
        crashes, with a rulemaking decision in 2005

  <bullet> NPRM to upgrade door systems, FMVSS No. 206 in 2004

  <bullet> NPRM to upgrade FMVSS No. 216 roof crush test procedure in 
        2004, with final action in 2005

Compatibility
    The number of fatalities from collisions between a car and an LTV 
demonstrates a strong upward trend starting in 1983 and tracks the 
trends in LTV sales and registrations. This increase in LTV sales also 
has important implications for vehicle crashworthiness, glare 
initiatives, and roadside hardware. The Compatibility IPT report 
demonstrates that in frontal crashes involving a car and a LTV, there 
are almost 1,000 more fatalities in the cars than in the LTVs. In the 
case of cars struck in the side by LTVs, there are almost 2,000 more 
fatalities in the struck cars than the striking LTVs. For driver 
fatalities, the fatality risk in a car-LTV frontal crash is four times 
higher for the car driver than the LTV driver and the results are even 
more dramatic for side impact crashes. The driver in a car struck in 
the side by another car has an eight times greater fatality risk than 
the driver in the striking car compared to a twenty-nine times greater 
risk when the striking vehicle is an LTV. Specific rulemaking and 
consumer information milestones to address incompatibility are:

  <bullet> NPRM on headlighting glare reduction related to headlamp 
        mounting height in 2004, with final rule in 2005-6.

  <bullet> Final regulatory action for offset frontal crash test 
        requirements in 2004 (following a Request for Comments in 2003)

  <bullet> NPRM to upgrade FMVSS No. 214 side impact protection in 
        2003, with final rule in 2004-5.

  <bullet> The final decision on a summary safety score for consumer 
        information in 2005.

    Question 6. Dr. Runge, you have expressed concern with the safety 
issues related to vehicle compatibility and rollover and indicated that 
NHTSA would monitor this effort closely and undertake its own research 
and analysis of these safety problems. What is NHTSA's budget request 
for research and analysis?

    Question 6a. Are these resources sufficient for NHTSA to provide 
effective oversight over an issue that is highly complicated and 
involves potentially hundreds of vehicle designs.
    Answer. Yes, the Agency believes the requested funds are 
sufficient. The budget request for vehicle compatibility research is 
$1.45 million. However, this sum will be augmented with another $800 
thousand using the requested research funding of the closely associated 
efforts for frontal and side crash protection. The crash testing 
planned under these research efforts will be carefully coordinated so 
as to provide valuable data for the compatibility research program. 
Additionally, the Agency participates in the International Harmonized 
Research Activities' Vehicle Compatibility Working Group. The research 
among the participating members from European and Asia-Pacific 
countries and Canada is closely coordinated with the ongoing research 
in various jurisdictions.
    The budget request for rollover is $2.61 million. The Agency 
previously has funded $4.5 million over a three-year period for the 
development of a dynamic rollover propensity test procedure. This 
effort has been completed. A large part of the requested funding will 
be used to conduct NCAP tests utilizing the dynamic rollover propensity 
test procedure already developed as well as to conduct tests to measure 
static stability factors. Among the planned research activities is the 
evaluation of the benefits of dynamic stability control systems and 
other related technologies. Finally, research will continue for 
preventing ejection from rollover crashes.
    The Agency will continue to leverage the research funding by 
maintaining close coordination with others. The Agency is also 
exploring the feasibility of initiating cooperative research programs 
with universities and other interested parties.

    Question 7. It is my understanding that NHTSA is investigating a 
significant overhaul of the current CAFE system, perhaps to a highly 
complex weight or attribute-based system. Can you comment on that?

    Question 7a. What is the process NHTSA is undertaking to gather the 
detailed data needed to investigate these difficult questions?

    Question 7b. What is the expected time line for NHTSA to perform an 
independent analysis of the CAFE system? Would additional funding be 
necessary?
    Answer. In February 2002, Secretary Mineta sent a letter to 
Congress expressing the Department's intent to examine reforms to the 
CAFE system and requesting additional statutory authority to implement 
reforms. It is the Administration's intent to identify and implement 
reforms to the CAFE system that will facilitate improvements in fuel 
economy without compromising motor vehicle safety or jobs. Accordingly, 
NHTSA is presently investigating a number of potential reforms to the 
CAFE system, including attribute-based standards. Attribute-based 
standards, particularly weight-based standards, was among the reforms 
recommended in the National Academy of Sciences (NAS) CAFE report.
    Later this year, NHTSA will issue a Request for Comments on 
alternative approaches for reforming the structure of CAFE within the 
agency's current statutory authority. This document will solicit data 
from manufacturers as well as comments from the public. The agency is 
currently coordinating data collection activities with the 
Environmental Protection Agency, the Department of Energy, and various 
experts in the field who have been exploring CAFE reforms. As 
recommended in the NAS report, NHTSA is also updating its 1997 study of 
the relationship between vehicle size and safety. The new study, which 
is nearing completion, will provide information useful in determining 
how the CAFE system should be restructured.
    The agency's analysis of CAFE reform alternatives will be conducted 
during FYs 2003 and 2004. Accordingly, a significant portion of our FY 
2003 and 2004 budget is devoted to reform efforts. This includes an 
additional $250,000 in FY 2004 that was initially allocated to 
performing an environmental impact statement, which is now not 
necessary.

    Question 8. Prior to 1998, NHTSA took a more directive approach 
with its involvement with the states. Since that time, NHTSA has moved 
to a ``Performance-Based'' approach that relies on states setting goals 
and working toward those goals. Dr. Runge, how effective do you believe 
the new performance management approach has been? Do you have concerns 
that the change in less micro-management has not had a more positive 
impact on state performance?
    Answer. NHTSA has traditionally pursued a partnership approach in 
working with the states on implementing and evaluating highway safety 
programs. The move to performance-based highway safety programs in 1998 
represented the natural evolution of a mature program with a long 
history of problem identification and well established, long-standing 
priority program emphasis areas. NHTSA has continued to provide program 
and project monitoring, but reflecting congressional guidance and the 
natural evolution of the program, has taken a less federally directive 
approach in providing oversight of State program activities. Recently, 
in conjunction with the Governor's Highway Safety Association, the 
agency initiated development of specific criteria that would lead to 
provision of additional oversight by NHTSA through management reviews 
and improvement plans. This effort reflects the findings of a recent 
GAO Report (GAO-03-474, May 2003), which determined there was uneven 
program oversight of State highway safety programs by NHTSA field 
offices. On balance, the move to a performance-based program has 
resulted in program improvements. Working with our state partners, the 
agency is seeking to resolve program management issues of concern to 
both parties.

    Question 9. NHTSA and State safety officials are prohibited from 
lobbying State legislators on pending highway safety legislation. Do 
you believe that this has had an adverse impact on the passage of new 
highway safety laws?
    Answer. The prohibition on lobbying has not itself had an adverse 
affect on enactment of State highway safety laws but had a chilling 
effect on the ability of the agency and our State partners to provide 
technical assistance, including advantages and disadvantages, of 
specific highway safety legislative proposals pending in State 
legislatures. As organizations charged with responsibility for reducing 
traffic crash related fatalities and injuries nationally and in the 
states, NHTSA and our State Highway Safety Office colleagues often have 
technical knowledge and expertise to offer on highway safety 
legislation. Once a specific bill is introduced, the restrictions on 
lobbying can hinder the ability of our agencies to offer detailed, 
specific recommendations regarding safety impacts.

    Question 10. Although considerable progress has been made over the 
last decades in reducing highway fatalities, why do you believe the 
number of fatalities has recently increased?
    Answer. The number of traffic-related fatalities has increased 
somewhat, based on the latest estimates. In 2002, an estimated 6 
million crashes were reported to law enforcement agencies, with nearly 
43,000 people killed, and 2.9 million people injured.
    Recently, during the past 6 years, the total fatality count is up 
about 2 percent.

----------------------------------------------------------------------------------------------------------------
        1997                 1998               1999              2000              2001              2002
----------------------------------------------------------------------------------------------------------------
            42,013             41,501             41,717             41,945            42,116            42,850
----------------------------------------------------------------------------------------------------------------

    Traffic volume has increased about 10 percent.

----------------------------------------------------------------------------------------------------------------
        1997                 1998               1999              2000              2001              2002
----------------------------------------------------------------------------------------------------------------
      2.56 T miles       2.63 T miles       2.69 T miles       2.75 T miles      2.78 T miles      2.83 T miles
----------------------------------------------------------------------------------------------------------------
T=Trillion

    Motorcycle rider deaths have increased 50 percent (about 1,000 
deaths) during this time period.

----------------------------------------------------------------------------------------------------------------
        1997                 1998               1999              2000              2001              2002
----------------------------------------------------------------------------------------------------------------
             2,116              2,294              2,483              2,897             3,181             3,276
----------------------------------------------------------------------------------------------------------------

    Occupant deaths in rollover crashes of passenger vehicles continue 
to increase.

----------------------------------------------------------------------------------------------------------------
        1997                 1998               1999              2000              2001              2002
----------------------------------------------------------------------------------------------------------------
             9,527              9,773             10,140              9,959            10,130            10,626
----------------------------------------------------------------------------------------------------------------

    Recently, the number of persons killed in alcohol-related crashes 
has increased about 1,000.

----------------------------------------------------------------------------------------------------------------
        1997                 1998               1999              2000              2001              2002
----------------------------------------------------------------------------------------------------------------
            16,711             16,673             16,572             17,380            17,448            17,970
----------------------------------------------------------------------------------------------------------------

    It's not all bad news, pedestrian death have fallen recently.

----------------------------------------------------------------------------------------------------------------
        1997                 1998               1999              2000              2001              2002
----------------------------------------------------------------------------------------------------------------
             5,321              5,228              4,939              4,763             4,882             4,776
----------------------------------------------------------------------------------------------------------------

    Occupant deaths of children age 0 through 3 have also fallen about 
100 recently.

----------------------------------------------------------------------------------------------------------------
        1997                 1998               1999              2000              2001              2002
----------------------------------------------------------------------------------------------------------------
               466                447                458                451               409               380
----------------------------------------------------------------------------------------------------------------

    Large truck-related fatalities have fallen recently.

----------------------------------------------------------------------------------------------------------------
        1997                 1998               1999              2000              2001              2002
----------------------------------------------------------------------------------------------------------------
             5,398              5,395              5,380              5,282             5,082             4,902
----------------------------------------------------------------------------------------------------------------
Note: Source: NHTSA, NCSA
2002 data are from the 2002 Early Estimate file.


    Question 11. Can you please comment on the efficacy of TEA-21 on 
the traffic fatality rates of Native Americans living on reservation 
and trust land? What measures are included in SAFETEA to address the 
ever-increasing problem of alcohol-related traffic crashes and traffic 
fatalities in Indian country?
    Answer. Under TEA-21, NHTSA worked with the Bureau of Indian 
Affairs (BIA) and tribal representatives to improve the accuracy, 
completeness and timeliness of reporting of crashes and fatalities on 
reservation and trust land. Absent a significantly improved crash data 
system, it is not possible to determine traffic fatality rates of 
Native Americans living on reservation and trust land. According to 
CDC's Injury Mortality Reports, annual per capita motor vehicle 
fatality rates for Native Americans has been between 30 and 32 deaths 
per 100,000 population. The overall national rate for all races is 
approximately 15 per 100,000. Largely due to funds provided under 
Section 411 of TEA-21, BIA, with NHTSA's assistance, developed a 
strategic plan for improving tribal crash data systems. With the 
significantly greater funds that would be available under the proposed 
Section 412 of SAFETEA, the Agency anticipates that BIA and the tribes 
would be able to make substantial progress in implementing the 
strategic plan.
    With regard to the specific issue of reducing alcohol-related 
crashes and fatalities, under provisions of SAFETEA, the BIA will 
continue to receive an annual formula grant apportionment of not less 
than \3\/4 of 1 percent of the program's total apportionment. TEA-21 
increased Section 402's highway safety funding formula for the Tribes 
to \3\/4 of 1 percent from \1\/2 of 1 percent of the total 
apportionment for the section. Any or all of this basic formula 
apportionment could be used for increasing safety belt use and 
prevention of impaired driving. Over SAFETEA's 6-year authorization 
period, $7.875 million will be available to the BIA in basic formula 
grants alone. Additionally, data improvements may facilitate the BIA's 
participation in SAFETEA's performance-based incentive grant programs 
and provide additional funding that may be used to address impaired 
driving.

    Question 12. A recent GAO report concludes that behavioral factors 
are the leading cause of most traffic fatalities. Outline for us how 
SAFETEA builds upon the success of existing programs rather than simply 
restructuring them? What requests does NHTSA make in SAFETEA to bolster 
existing behavioral programs?
    Answer. SAFETEA builds upon and expands the performance-based 
management of highway safety programs that has been universally adopted 
by the states since 1998. Under TEA-21, the Section 402 formula program 
has been performance based, but incentive grant funds were awarded 
primarily based on State implementation of specified laws or programs; 
only a few select criteria in the Section 410 Alcohol Incentive Grant 
Program and Section 157 Safety Belt Use Incentive Grant program were 
performance-based. SAFETEA is the logical extension of the Section 402 
performance-based formula program. Under SAFETEA's consolidated Section 
402 program, the majority of incentive funds will be awarded based on 
State performance.
    SAFETEA would also builds upon the proven effectiveness of highly 
visible enforcement of strong safety belt laws, by providing $100 
million each year to encourage and reward states that enact primary 
safety belt laws, and by providing performance incentive grants, 
starting at $25 million and growing to $34 million, to states that 
achieve high levels of belt use.
    SAFETEA would continue and expand NHTSA's renewed emphasis on 
impaired driving, by allocating $50 million per year to bolster the 
impaired driving countermeasures in states that have high rates or high 
totals of alcohol-related fatalities.
    SAFETEA would accelerate the process of improving State crash data 
systems to ensure better problem identification, performance 
measurement and program management. Under TEA-21, the Section 411 
grants produced strategic plans for traffic records improvements in 
nearly all states. Under the proposed Section 412 of SAFETEA, States 
would receive the resources they need to carry out those strategic 
plans.
    The Agency also believes that SAFETEA would build upon and improve 
the intermodal flexibility that was established under TEA-21, 
permitting states to apply their resources to both behavioral programs 
and infrastructure enhancements, as their needs dictate.
                                 ______
                                 
       Response To Written Questions Submitted To Peter Guerrero

    Question 1. Your statement mentions three factors that contribute 
to traffic crashes: human, environment, and vehicular. Vehicles are the 
least of the three causes, yet we've heard a lot recently about SUV 
safety. In proportion to all traffic safety problems, how much of a 
concern are SUVs?
    Answer. Sport Utility Vehicle (SUV) safety is a concern primarily 
because they are more likely to rollover in a crash when compared to 
passenger cars, vans, and pickup trucks. Rollover crashes are 
particularly serious because they are more likely to result in 
fatalities than other types of crashes. We found, for example, that 
SUVs were over three times more likely to roll over in a crash than 
passenger cars. Our analysis of NHTSA crash data also found that SUVs 
rolled over in fatal crashes 35 percent of the time compared with 16 
percent of the time in passenger cars. In 2002, SUV rollovers resulted 
in 2,353 occupant fatalities, by NHTSA's estimate, or about 5.5 percent 
of all fatalities. In addition, NHTSA recently concluded that, despite 
declines in passenger car occupant fatalities, the increasing influence 
of light truck and SUV fatal crashes in general, and rollover crashes 
in particular, was instrumental in the lack of progress in reducing 
traffic fatalities in 2002.
    In 2003, the Alliance of Automobile Manufacturers, a trade group 
that represents the three main major U.S. automobile manufacturers and 
a number of foreign manufacturers, published analyses examining 
occupant fatality rates between vehicle types. It found that in 2001, 
SUVs had a slightly higher overall occupant fatality rate than had 
passenger cars--16.25 and 15.70 per 100,000 registered vehicles, 
respectively. The Alliance also points out that 72 percent of people 
killed in SUV rollover crashes were not wearing safety belts and that 
35 percent of SUV single-vehicle rollover fatalities were alcohol-
related.

    Question 2. GAO's recent report entitled, ``Better Guidance Could 
Improve Oversight of State Highway Safety Programs,'' as mentioned in 
your testimony, raised issues regarding NHTSA's oversight of state 
highway safety programs. How would you suggest NHTSA improve in this 
area?
    Answer. We found that NHTSA is making inconsistent and limited use 
of the oversight tools that it has to ensure states programs are 
operating within guidelines and are achieving desired results. For 
example, NHTSA regions can conduct management reviews to help improve 
and enhance the financial and operational management of state programs. 
In conducting these reviews, a team of NHTSA regional staff visits a 
state and examines such items as its operations and staffing, program 
management, financial management, and selected programs like impaired 
driving, occupant protection, public information and education, and 
outreach. However, we found that there was no written guidance on when 
to perform management reviews. As a result, management reviews were not 
being conducted consistently--some regions had goals of doing them 
every 2 years while others conducted them only when requested by a 
state.
    Similarly, we found that the NHTSA regional offices are making 
limited and inconsistent use of improvement plans. According to 
regulations, if a NHTSA regional office finds that a state is not 
making progress towards its highway safety goals, NHTSA and the state 
are to develop an improvement plan to address the shortcomings. The 
regulations call for the plan to detail strategies, program activities, 
and funding targets to meet the defined goals. However, NHTSA regional 
offices have made limited use of improvement plans to help address the 
states' highway safety performance. Since 1998, only 7 improvement 
plans have been developed in 3 of NHTSA's 10 regional offices. In 
addition, we found that the regional offices have made inconsistent use 
improvement plans. For example, we found that highway safety 
performance of a number of states that were not operating under 
improvement plans was worse than the performance of other states that 
were under such plans. For example, we found that the rate of alcohol-
related fatalities increased from 1997 through 2001 in 14 states and 
that for half of these states the alcohol-related fatality rate also 
exceeded the national rate. Only one of these seven states was on an 
improvement plan to reduce alcohol-related fatalities. We found that 
the limited and inconsistent use of improvement plans is due to a lack 
of specificity in criteria for requiring such plans. NHTSA guidance 
says simply that these plans should be developed when a state is not 
making progress towards its highway safety goals.
    We made recommendations to the Secretary of Transportation to 
improve the use of management reviews and improvement plans by 
providing more specific guidance to the regional offices on when it is 
appropriate to use them. The guidance for using the improvement plans 
should include a consistent means of measuring progress toward meeting 
established highway safety goals. In responding to our report, NHTSA 
officials said they have begun taking action to develop criteria and 
guidance on when field offices should use these management tools.

    Question 3. Do you think that a consolidated grant application 
process for the states would have a noticeable impact on their ability 
to obtain increased funding? What is the best way to consolidate the 
grant program? Should we follow the GHSA proposal, or that outlined in 
SAFETEA? Do you have any recommendations to improve SAFETEA and improve 
traffic safety that have not been mentioned, or that stand out in your 
mind as superior to the others?
    Answer. A consolidated grant process would help ease the 
administrative burden on the states, and states with very small highway 
safety offices and limited resources would benefit. A consolidated 
program also would allow states to devote more resources to project 
oversight and evaluation, which would also be a benefit.
    The SAFETEA and GHSA proposals for reauthorization have some 
significant differences that could affect the decision to select one 
over the other. The SAFETEA proposal provides for partial consolidation 
of the grant programs, but allows states considerable flexibility in 
how the funds could be used, including transferring NHTSA program funds 
to highway safety construction. The GHSA proposal contains a greater 
degree of consolidation, but does not provide for the transfer of NHTSA 
funds to construction programs. Thus, the SAFETEA proposal gives the 
states more flexibility in how the funds may be used, but the GHSA 
proposal goes farther in simplifying the administration of the program 
by the states. Finally, the SAFETEA proposal includes a new safety belt 
sanction, while GHSA is opposed to any new sanctions.
    As we pointed out in our report, when 34 states were given the 
option of using highway safety funds for either road construction or 
behavioral programs (programs to reduce drunk driving), more than two-
thirds of funds were spent on construction. The Administration's 
SAFETEA proposal, while promoting greater flexibility for states to 
decide how to spend Federal funds, could have the unintended effect of 
depleting behavioral programs of funds needed to make continued 
progress in reducing traffic fatalities.
    Motorcycle safety is one area that SAFETEA mentions but GHSA's 
proposal does not directly address. Motorcycle deaths have increased 
each year since reaching an historic low in 1997. In 2002, 3,276 
motorcyclists were killed, an increase of over 54 percent between 1997 
and 2002. Without the increase in motorcycle fatalities, overall 
highway fatalities would have experienced a decrease of about 2.6 
percent. NHTSA has outlined an approach to motorcycle safety in three 
areas: crash prevention, injury mitigation, and emergency response. 
Crash prevention goals are focused on factors that contribute to 
crashes--operator fitness, experience, and training, and licensing. 
Injury mitigation research would stress the use of protective gear, 
including helmets. Emergency response emphasizes the importance of 
first response medical care. SAFETEA would support NHTSA's initiatives 
in these areas through general performance grants. These grants would 
provide incentive funds to states based on performance in three 
categories: (1) motor vehicle crash fatalities, (2) alcohol-related 
crash fatalities, and (3) motorcycle, bicycle, and pedestrian crash 
fatalities.

    Question 4. Can you please comment on the efficacy of TEA-21 on the 
traffic fatality rates of Native Americans living on reservation and 
trust land?
    Answer. According to the Bureau of Indian Affairs' Indian Highway 
Safety Program plan for Fiscal Year 2003, the rate of highway-related 
injuries and fatalities on American Indian Reservations is 
significantly higher than State and National rates. While our recent 
reports did not address the issue of Native American traffic fatalities 
and NHTSA's fatality and accident databases do not capture this type of 
information, the National Center for Injury Prevention and Control of 
the Centers for Disease Control and Prevention has reported on deaths 
of American Indians in unintentional motor vehicle crashes. As shown in 
figure 1, motor vehicle deaths for American Indians are higher than the 
rate for the U.S. population as a whole. (See fig. 1.)

Figure 1: Motor Vehicle Fatalities per 100,000 People

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Centers for Disease Control and Prevention

    As we reported, about $2 billion has been provided over the last 5 
years for highway safety programs under TEA-21. During this period, the 
Indian Highway Safety Program received less than half a percent of this 
total, or $5.8 million. NHTSA provided $1.07 million for the BIA's 
Indian Highway Safety Program in 1998; and by 2002, funding for this 
program rose to $1.32 million. Over 94 percent of these funds came as 
annual Section 402 State and Community Formula Grant Program funding. 
The program's remaining funds came from two of TEA-21's seven incentive 
grants: Section 2003(b) Child Passenger Protection Education Grants--
beginning in 2000, and Section 411 State Highway Safety Data 
Improvement grants--mostly in 2002. (See fig. 2.)

Figure 2: NHTSA Funding for BIA's Indian Highway Safety Program, Fiscal 
        Years 1998 through 2002

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Source: GAO presentation of NHTSA data.
                                 ______
                                 
    Response to Written Questions Submitted to Jacqueline S. Gillian
    Question 1. In your testimony, you indicate that there was an 
increase in motor vehicle fatalities in nearly every category of 
crashes. Does this mean the number of overall motor vehicle fatalities 
has increased, or the fatalities per vehicle miles traveled have 
increased?
    Answer. The 2002 Early Assessment figures released by the National 
Highway Traffic Safety Administration's (NHTSA) National Center for 
Statistics and Analysis in April 2003 shows the following:

  <bullet> The number of persons killed in motor vehicle traffic 
        crashes increased to 42,850, the highest level since 1990. The 
        increase was 1.7 percent over the number killed in 2001. Within 
        this general finding were the following specific changes from 
        2001 by category:

  <bullet> Alcohol-related deaths increased.

  <bullet> Passenger vehicle occupant deaths in rollovers increased. 
        This is especially dramatic for sport utility vehicles (SUVs)--
        nearly 10 percent more people died in SUV rollovers in 2002 as 
        compared with the previous year.

  <bullet> The number of intersection and intersection-related deaths 
        increased.

  <bullet> Passenger vehicle occupant deaths in two-vehicle crashes 
        involving a pickup truck, van, or SUV increased.

  <bullet> Motorcyclist deaths increased.

  <bullet> Pedestrian deaths decreased.

  <bullet> Large truck crash-involved deaths decreased. However, more 
        large truck occupants died in these crashes in 2002 than in 
        2001, particularly in multi-vehicle collisions.

  <bullet> Deaths of children 0-7 years of age decreased while deaths 
        of children 8-15 years increased.

  <bullet> Deaths of young drivers 16-20 years of age increased.

  <bullet> The overall fatal crash rate using 100 million vehicle-
        miles-traveled (VMT) as the exposure denominator remained the 
        same as 2001 at 1.51 deaths per 100 million VMT. NHTSA has not 
        yet disaggregated VMT or other exposure measures by type of 
        crash or by age of persons involved in crashes; only the 
        overall, national fatal crash rate is available.

    The answer to the question then is an emphatic yes. The overall 
number of motor vehicle fatalities has increased and has done so each 
year since 1998. In fact, highway fatalities in 2002 were the highest 
in more than a decade. Because each year there is an increase in VMT, 
the fatality rate has not increased but it has also not decreased. In 
fact, the fatality rate has become stagnant, with only marginal 
improvement since 1991. If this situation applied to air travel, that 
is, if there were more deaths and crashes each year because more planes 
were flying more miles, there would be a hue and cry from the American 
public and Congress regardless of any change in the fatality rate.

    Question 1a. Given that every year there are more cars on the road, 
and that terrorism fears have caused more motorists to drive rather 
than fly, is it safe to assume that fatalities will always rise each 
year if all things remain constant?
    Answer. Carefully selected vehicle safety design and performance 
regulation, coupled with better highway design and human factors 
management, such as requiring safety belt use, countering driver 
fatigue and alcohol/substance abuse, and reducing in-vehicle driver 
distraction can easily result in increased vehicle-miles-traveled by 
more vehicles each year, but a lower crash death rate with fewer 
fatalities. Unfortunately, however, all things do not remain constant. 
The continuing displacement of passenger cars in the passenger vehicle 
fleet by SUVs, a consistent trend over more than a decade, has resulted 
in a distinct and deadly change in crash types to more motor vehicle 
deaths resulting from (a) the increased numbers and frequency of 
rollover crashes by these unstable, rollover-prone vehicles and (b) 
increased number and frequency of deaths from side impact crashes due 
especially to larger, heavier SUVs striking the sides of smaller, 
lighter cars. If the safety design and performance of light trucks and 
vans (LTVs), particularly SUVs, were properly controlled by careful 
safety regulation, both the number of deaths and the rate of deaths 
could decline each year.

    Question 1b. Which of your recommendations would have the most 
significant impact on reducing traffic fatalities if enacted by 
Congress?
    Answer. There are several recommendations that will have a 
significant impact on traffic fatality reduction when enacted.

  <bullet> Primary (or standard) enforcement of state seat belt laws 
        will increase seat belt use rates substantially, a critical 
        factor for reducing fatalities and serious injuries since 
        unbelted occupants comprise more than half of all traffic 
        fatalities. Experience in state after state has shown that 
        adoption of primary enforcement alone increases seat belt use 
        rates by 10 to 15 percent. Unfortunately, in most states, the 
        life-saving potential of primary enforcement of seat belt laws, 
        and Federal incentive grants, have not motivated state 
        legislatures to upgrade secondary enforcement laws to primary 
        enforcement. Currently, 18 states and the District of Columbia 
        have primary enforcement, while 31 states have only secondary 
        enforcement and one state has no law requiring occupants to use 
        seat belts at all. It is estimated that if all states adopted 
        primary enforcement, that is, enforced the state seat belt law 
        just like any other traffic infraction, thousands of additional 
        lives could be saved each year.

  <bullet> Rollover crashes have become a more important factor in 
        highway fatalities over the years. In the 1980s, less than 
        5,000 deaths a year involved rollover crashes, in 2002 more 
        than 10,000 traffic deaths involved vehicle rollover. A large 
        part of the increase in the rollover problem stems from the 
        design of LTVs, especially SUVs, that are built with a high 
        center of gravity, narrow track-width, and are unstable 
        particularly when fully loaded. Danger from rollover, and the 
        number of fatalities, will continue to grow as a problem as 
        LTVs, and particularly SUVs, increase as a proportion of the 
        overall vehicle fleet. A rollover stability standard could 
        potentially prevent the deaths of hundreds, if not thousands, 
        of people each year.

  <bullet> Vehicle aggressivity, or the lack of compatibility among 
        different vehicle designs when they crash is a result of the 
        mismatch in size, weight, height and other design features of 
        LTVs and passenger cars. As the number and percentage of larger 
        LTVs and SUVs in the vehicle fleet increase annually, so do the 
        number of crashes in which a larger, heavier, higher LTV 
        collides with a smaller, lighter, lower passenger car. In these 
        crashes, the occupants of the car are far more likely to be 
        killed than the occupant of the LTV. This mismatch already 
        presents a substantial danger to passenger car occupants which 
        will continue to increase as LTVs become a larger percentage of 
        the vehicle fleet and are involved in more multi-vehicle 
        crashes.

  <bullet> Drunk driving related fatalities have recently been on the 
        increase, and in 2002 alcohol or drugs were a factor in 42 
        percent of occupant fatalities. Thus, despite historic 
        improvements in the alcohol-related fatality statistics, 
        further improvements in drunk and drugged driving behavior 
        remain a critical area in which a significant impact in 
        fatality reduction can be obtained.

    Question 2. In recent years, progress in reducing highway 
fatalities has slowed despite a large investment of resources in 
highway safety. What do you see as the best strategies to reduce 
traffic deaths and injuries?
    Answer. A substantial increase in Federal investment in funding 
motor vehicle and traffic safety programs is necessary. NHTSA's budget 
and program resources have increased little in actual purchasing power 
over the years, despite the fact that the number of registered 
vehicles, annual vehicle miles of travel, and complexity of the traffic 
safety and the highway environment have increased dramatically. The 
best approach is a systems engineering model that takes into account 
all aspects that contribute to traffic crashes and fatalities including 
the vehicle, the occupant, and the roadway (and environment), and the 
development of countermeasures to address the problems that contribute 
significantly to crashes and fatalities through prevention and crash 
avoidance (pre-crash), occupant protection (during the crash), and 
emergency response/medical treatment (post-crash).

    Question 2a. Should the focus be on the behavioral aspects or on 
vehicle preference and safety?
    Answer. Both. Traffic safety is a complex, multi-faceted issue that 
has no single solution. Moreover, driver (and occupant) behavior cannot 
be neatly separated from vehicle preference and safety. Obviously, 
improvements in behavior such as seat belt use can provide dramatic 
safety benefits to which the success of anti-drunk driving campaigns 
involving passage of strong laws and increased enforcement in the 1980s 
and 1990s can attest. However, behavior modification on a broad scale 
is expensive, resource intense, difficult to sustain for prolonged time 
periods, and they do not guarantee permanent improvements in behavior 
or safety. The recent increase in drunk-driving related fatalities may 
be a reflection of this. Behavior modification must be continually 
maintained and reinforced, and additional efforts must be made to reach 
each new generation of young drivers. At the same time, success in 
improving one or even a few types of behavior does not guarantee 
improvement in other driving-related behaviors that may be just as 
dangerous. Thus, targeted efforts at changing behavior have been 
successful and should be continued, especially to require seat belt use 
through adoption of primary enforcement laws and to combat drunk 
driving, but behavior modification is only a partial solution.
    Designing vehicles with greater built-in safety, for both crash 
avoidance and occupant protection, can ensure traffic safety 
improvement regardless of individual behavior and the degree of success 
experienced through behavior modification efforts. Design and equipment 
improvements that build-in greater stability to reduce the incidence of 
rollovers, for example, or that make different types of vehicles less 
aggressive in multi-vehicle crashes, improve safety when crashes occur. 
This is necessary because improved behavior alone, even if largely 
successful, will not eliminate all crashes, and because crashes result 
from other factors such as road conditions, vehicle equipment defects, 
etc., not just driver behavior. This approach of trying to build-in 
crashworthiness, is taken from the model used in the health care field, 
where efforts to change at-risk behavior are not relied on exclusively 
when immunization to prevent disease is available.

    Question 3. Is the amount of money spent on highway safety directly 
related to lives saved, if used correctly? In other words, does an 
increase in highway safety funding equate directly to lives saved?
    Answer. Yes, if used correctly, there is a direct relationship 
between safety funding levels and lives saved. The relationship between 
funding levels and safety is the same for motor vehicles as for airline 
safety--greater investment in safety will result in fewer deaths. 
Current NHTSA funding levels, however, are not much higher than they 
were in 1980. See NHTSA historic budget chart [to be forwarded by fax]. 
Even though 95 percent of transportation fatalities, and 99 percent of 
transportation injuries occur on our Nation's roads, NHTSA receives 
less than one percent of the Department of Transportation (DOT) budget.

    Question 3a. To what extent should we worry about a diminishing 
return when funding these safety programs?
    Answer. Because funding for motor vehicle safety programs is low, 
compared to the overall U.S. DOT budget and expenditures on air 
transportation safety, there is no legitimate reason for concern that 
we are nearing the point of diminishing returns when it comes to 
funding motor vehicle safety programs. The issue is not that we are 
reaching the point of diminishing returns on safety expenditures but 
that factors that play a role in crashes, including increases in 
traffic volume, size, weight, and speed, as well as diverse designs and 
behavioral issues, have overwhelmed the ability of NHTSA, law 
enforcement, and the safety community to respond appropriately due to 
budget limitations. In addition, major improvements in safety can still 
be achieved by reducing vehicle rollover, increasing the crash 
compatibility among the types of vehicles in the passenger fleet, 
developing feasible crash avoidance and warning technologies, 
increasing the national seat belt use rate, and reducing the incidence 
of drunk/drugged driving.

    Question 4. What would be the cost passed on to consumers should 
your proposals for roof crush, safety labeling, and vehicle 
compatibility be adopted by Congress?
    Answer. There is no fixed dollar figure for the vehicle safety 
proposals included in the testimony because each depends on the manner 
in which it is implemented by manufacturers and NHTSA. However, the 
costs are expected to be relatively small in comparison to the safety 
benefits for several reasons. First, a number of improvements are ready 
for use or have been introduced in more expensive vehicle lines. Mass 
production of these safety features for installation as standard 
equipment, rather than as options, would significantly lower the cost 
of production. Second, manufacturers are already conducting research 
and development on a host of different design issues and are already 
introducing certain changes to address vehicle compatibility issues. 
Thus, the costs associated with a number of changes, as well as the 
research and development costs for other improvements, have already 
been factored into the price of at least some vehicles by the 
manufacturers themselves. Third, any required changes could be 
introduced and implemented as manufacturers alter and redesign vehicle 
platforms, which lowers the burdens to manufacturers and the costs to 
consumers. Fourth, according to the industry, costs for many safety 
improvements, from seat belts, to air bags, to traction control systems 
were expected to be cost prohibitive but have proven to be cost-
effective and reasonable when mass produced. Moreover, surveys 
consistently indicate that consumers are willing to pay for safety 
improvements. Lastly, in addition to the toll in deaths and injuries, 
motor vehicle crashes and mortality are already a huge economic burden 
to consumers. According to NHTSA, in 2000 the total cost of motor 
vehicle crashes in the U.S. was $230.6 billion.

    Question 4a. Do you propose incentives that would make it easier 
for automobile manufacturers to incorporate your proposed safety 
improvements to their vehicle production?
    Answer. No specific additional industry incentives are necessary. 
First, safety is a public health issue and the responsibility of 
manufacturers. In order to achieve widespread safety benefits for the 
public at large, improvements should be built in to all vehicles not 
just in expensive models at the high-end of the market. Second, in many 
cases, the design knowledge and technology for improving safety is 
already developed, available, and on-the-shelf, so extensive research 
and development costs are not necessary. Finally, ``safety sells,'' and 
manufacturers have been able to market higher-priced vehicle models on 
the basis of safety. In recent years, the average price of vehicles has 
increased for a number of reasons, and a larger proportion of the 
vehicle market now consists of high-priced LTVs and SUVs, and yet sales 
and profitability continue to increase. It appears that manufacturers 
have been able to pass on the costs of safety improvements to customers 
and do not need added incentives to improve safety.

    Question 5. What can be done to improve safety belt usage by states 
such as Virginia where the votes defeat proposals to adopt primary 
safety belt laws?
    Answer. Safety belt use rates in states such as Virginia would 
improve dramatically if the reauthorization of TEA-21 included a 
sanction for states that did not pass a primary enforcement safety belt 
law within a reasonable amount of time. Currently, only 18 states and 
the District of Columbia have primary enforcement laws. Most of these 
laws were passed in the mid-1980s through the mid-1990s. In the past 
three years, only two states (Washington and New Jersey) have enacted 
primary enforcement laws. The lesson from the enactment of a national 
.08 percent blood alcohol content (BAC) law in 2000 is instructive in 
this context: sanctions work. In the three years since .08 BAC was 
signed the number of states with a .08 BAC law jumped from 18 to 38 and 
the District of Columbia. That's an increase of 117 percent. There is 
every reason to believe that the pattern of state enactment of primary 
enforcement seat belt laws will follow that of .08 BAC laws.

    Question 5a. Are incentives the only way to improve safety belt 
usage, or can public advertising campaigns make a difference?
    Answer. As noted above, sanctions are crucial to the passage of 
primary enforcement safety belt laws, which are critical to increasing 
safety belt use rates. Incentives, therefore, are not an effective way 
to improve safety belt use rates. Public advertising campaigns can make 
a difference, but only in tandem with passage and strong enforcement of 
primary seat belt laws. People are more likely to change their behavior 
in response to a public advertising campaign that is coupled with 
strong enforcement of a safety belt law than in response to a public 
service announcement alone. Secondary enforcement laws tie the hands of 
police because they can only be enforced if another traffic violation 
has occurred.

    Question 6. Does your organization believe that rear-view monitors 
to aid drivers when reversing larger vehicles should be standard 
equipment in vehicles, or merely a safety option available to 
consumers?
    Answer. Advocates generally regards rear visibility in the current 
vehicle fleet, both for passenger vehicles and for medium/heavy 
vehicles, to be poor and inadequate. Neither manufacturers nor NHTSA 
use safety performance principles to optimize rear visibility, 
especially for the rear view of the area immediately behind a vehicle 
when backing so that every driver can easily determine whether there is 
a child or other person in danger of being injured or killed in a 
backing incident. Backing incidents that take the lives of young 
children and elderly persons are more common than one might think 
because they are often not reported in state and national databases.
    Advocates believes that a combination of advanced mirror designs, 
especially of aspheric mirrors, coupled with rear view imaging or 
detection technologies, should be required by NHTSA through the 
adoption of a performance standard that will facilitate the detection 
of persons immediately behind the rear ends of larger vehicles. We 
believe that these combined improvements in rear detection and 
visualization technologies should be required for vehicles both with 
and without rear windows because current vehicles even with rear 
windows do not permit a driver to see or to detect the presence of 
small children immediately behind a vehicle. Moreover, these 
improvements in visualization and detection to the rear of a motor 
vehicle for improving safety when backing can simultaneously be 
engineered to enhance both the side and rear fields of view of motor 
vehicles in forward motion, thereby improving the detection of nearby 
vehicles in the traffic stream.
    In general, safety equipment that is proven to help avoid crashes, 
save lives, and reduce injuries should become standard equipment on all 
new vehicle models. Safety equipment will maximize life saving benefits 
only if it is installed throughout the vehicle fleet and in general use 
on all vehicles. Moreover, safety systems and equipment should not just 
be available to people with the means to afford high-end vehicle models 
and safer optional equipment.

    Question 7. Considerable progress has been made over the last 
decades in reducing highway fatalities, but this progress has been 
slowed in the last few years. In fact, the number of fatalities has 
increased recently. What are the reasons for this spike?
    Answer. The recent increase in traffic fatalities to 42,850 (2002 
early assessment data), now at the highest total since 1990, is also 
reflected in the stagnant fatality rate that has remained at nearly the 
same level for a decade. Only marginal improvements in the overall 
traffic fatality rate have been achieved in that time period. (The 
fatality rate dropped to 1.7 per 100 million VMT in 1992, then to 1.6 
in 1996, and to 1.5 in 1999, where it remains.) There are three reasons 
for this. First, funding levels for NHTSA's regulatory and traffic 
safety programs have increased only incrementally over the past decade. 
Safety programs have not been able to keep pace with the myriad of 
complex safety problems facing the nation, the change in the types of 
vehicle in the fleet, as well as annual increases in motor vehicle 
registration and vehicle miles traveled. Second, despite improvements 
that are saving hundreds of lives each year, including improved child 
safety requirements, increased seat belt use rates, and more widespread 
availability of air bags, other negative safety trends have emerged to 
offset the lives being saved. For example, rollover deaths have 
increased dramatically through the 1990s as the percentage of LTVs, and 
especially SUVs, have increased in the vehicle fleet. Likewise, deaths 
in multi-vehicle crashes in which LTVs are the striking vehicle have 
also increased with the greater percentage of LTVs in the vehicle 
fleet. Third, too many states lack some of the most important life-
saving laws to address impaired driving, to protect teen drivers, to 
require seat belt and motorcycle helmet use, and to require that 
children be restrained in age appropriate restraints.

    Question 8. The lack of progress in reducing highway fatalities is 
especially frustrating in light of the billions of dollars that have 
been spent on highway safety and infrastructure improvements under TEA-
21. As we move forward and reauthorize these programs, where should we 
make future safety investments to ensure sustained progress?
    Answer. Safety related investment in behavioral, regulatory and 
highway infrastructure programs should be continued, however, 
investment should be increased in program areas that work and yield 
results, while programs that are ineffective or counterproductive 
should be dropped. First, on the behavioral side, we know that targeted 
programs that reinforce state laws with clear public safety messages 
and strong enforcement are successful. The ``Click It or Ticket'' seat 
belt enforcement projects are an example of behavioral efforts that are 
effective because they support existing requirements in state law. 
Similar efforts to reduce drunk driving can also be effective. However, 
without stronger Federal oversight and accountability of state 
expenditures of Section 402 funding (see below, last response in 
Question #5), there can be no assurance that state expenditure of 
Federal funding is being used effectively.
    Second, greater safety benefits can be achieved through regulatory 
efforts to limit occupant fatalities and injuries through careful 
selection of the next generation of crash avoidance and occupant 
protection countermeasures. Just as airbags are now saving hundreds of 
lives each year, NHTSA can improve safety by issuing regulations to 
require vehicle stability to prevent rollover, to reduce the design 
incompatibility of different types of vehicles, to provide better side 
impact protection, and to install effective crash prevention warning 
systems. In addition, NHTSA should develop regulations to control the 
dissemination and use of vehicle telematics that can distract drivers 
from the driving task, another emerging safety concern.
    The third area for future safety investment is better highway 
design and engineering requirements. It is easy to forget that drivers 
and vehicles operate within the limits of the designs of the highways 
we all use. Those highways can be designed better or worse, and many 
thousands of miles of these roads have obsolete, substandard designs 
that are long overdue for upgrading. Many highway crashes are directly 
linked to drivers having little margin for error because narrow lanes 
and shoulders, steep drop-offs at the roadside, limited sight distance, 
low pavement skid resistance, and lethal fixed object hazards are often 
sited directly adjacent to high-speed traffic. Both multi-and single-
vehicle crashes frequently occur or are substantially more severe 
because ``forgiving'' design features were not built into the road to 
accommodate driver mistakes without loss of life and infliction of 
serious physical injuries. Although large sums of Federal funds are 
spent annually on highway construction and rehabilitation, at present, 
with the exception of the Interstate system and limited mileage on the 
National Highway System, there are no required highway design standards 
to govern the construction and rehabilitation of the vast majority of 
Federal-aid, state and local highways.

    Question 9. The Administration's SAFETEA proposal would consolidate 
some programs and give states greater flexibility on spending decisions 
by allowing the movement of funds between parts of the Section 402 
programs and highway safety construction programs. What are the 
advantages and disadvantages of this approach?
    Answer. In general, including the Section 402 program in the 
flexible spending options is disadvantageous because it undermines 
traditional highway safety efforts. Funding flexibility, for the most 
part, is a pretext to permit highway safety funds to be diverted to 
construction programs. Although Advocates supports greater Federal 
oversight and state accountability for Section 402 expenditures (see 
below, last response in Question #5), we are not in favor of raiding 
funds from effective highway safety and enforcement programs in order 
to provide additional funds for highway construction, rehabilitation, 
and maintenance. Reauthorization legislation should dedicate sufficient 
funding for highway safety construction improvements and hazard 
elimination so that the diversion of other highway safety funding is 
not needed. Permitting Section 402 funds to be used for other purposes 
may also lead to inconsistent funding of state 402 programs, and 
uncertain financing of those programs from year to year. It may also 
increase internal conflict within state DOTs over Section 402 funding.
    Furthermore, in the name of funding flexibility, the Section 402 
program has been used as a trap door in order to offset funding 
penalties imposed on states that have not adopted critical safety laws 
such as open container and repeat offender statutes. (See below, 
response to Question #4). States that are penalized by having a 
percentage of their construction funds diverted to the Section 402 
program are also permitted, in turn, to use all or a portion of those 
same funds for projects eligible under the hazard elimination program 
(Section 152). Thus, states are able to budget less for the hazard 
elimination program, and more for other construction programs that they 
expect will have a percentage of funds redirected to the Section 402 
program because of the penalty. This type of circular system of funding 
flexibility undermines the purpose and intent behind penalizing states 
for the failure to adopt safety laws, makes the adoption of safety laws 
such as the open container and repeat offender laws far more difficult, 
and uses the 402 program as a revolving door to evade the authorized 
sanctions. A similar funding shell game has been proposed as part of 
the SAFETEA highway safety improvement program penalty to promote state 
adoption of primary seat belt laws. (See below, response to Question #5 
regarding proposed HSIP). Indeed, the SAFETEA funding flexibility 
proposal would substitute the highway safety improvement program, in 
place of the hazard elimination program, as the ultimate potential 
recipient of the construction funds that are required to be diverted to 
the Section 402 program by states that have not adopted open container 
and repeat offender laws.
    While there may be a limited advantage in allowing portions of 
incentive grants to be used for highway construction, rather than for 
the Section 402 program, the effectiveness of such a financial lure as 
part of an incentive grant program is yet to be proven. Theoretically, 
this type of funding flexibility could be an inducement to states to 
adopt safety laws if the incentive grant funds are available for safety 
and non-safety construction programs. The grant funds would not need to 
pass through the Section 402 program, however, but could be dedicated 
for construction program use outright. The major example of such a 
program was the safety belt incentive grant program, which permitted 
the use of the grants for construction programs, but did not increase 
the number of states with primary seat belt laws nor appreciably 
increase seat belt use rates in most states.

    Question 10. As Congress seeks to encourage the states to reduce 
their traffic-related fatalities through various programs, it can 
choose to provide incentive grants or it can choose to penalize states 
for not adopting highway safety laws. Which approach is more effective?
    Answer. It is beyond doubt that Federal-aid highway program 
penalties are far more effective than incentive grants in getting 
states to adopt highway safety laws. While a minority of states respond 
positively to the offer of incentive grants, such grant programs have 
never been able to achieve uniform adoption of safety laws by all 50 
states. Penalties, on the other hand, that withhold funds outright or 
that divert highway construction funds to non-construction safety 
programs, have been successful in getting states to adopt a number of 
important safety laws including the minimum drinking age law, .08 BAC 
law, and zero tolerance for youthful drivers. Similar diversion of 
funds to the Section 402 program were enacted as part of the open 
container law and increased penalties for repeat drunk driving offender 
law provision in TEA-21. These provisions, however, include a trap door 
that permits funds to be funneled back to the hazard elimination 
program. This budgetary version of musical chairs undermines the 
effectiveness of the penalties in the open container and repeat 
offender provisions.

    Question 11. What are the major items in SAFETEA that you like 
about the proposal and what, in your view, should be reconsidered? Are 
there aspects of highway safety that the proposal does not address?
    Answer. There are several proposals in the SAFETEA bill that should 
be reconsidered.

  <bullet> National Blue Ribbon Commission On Highway Safety: While not 
        making sufficient financial and resource commitments in the 
        bill to support current safety efforts, the legislation would 
        establish a commission to study overall highway safety issues 
        with a 30 year time horizon and with no requirement to file an 
        initial report until 2006, or a final report until 2009. The 
        creation of a commission to look at long-term issues appears to 
        divert attention from an emphasis on achieving near-term DOT 
        safety goals. The effort and funding ($7 million) would be 
        better spent assisting DOT to develop actions to reduce 
        fatalities and crashes in order to achieve existing DOT safety 
        performance goals included in the DOT Performance Plan--FY 
        2004. For highway safety these goals include: reducing the 
        overall traffic fatality rate to 1.0 per 100 million vehicle 
        miles of travel (VMT) in 2008 (the rate is currently 1.5); 
        reducing large truck related fatalities to 1.65 per 100 million 
        VMT in 2008 (the rate is currently 2.4); reducing the alcohol-
        related fatality rate to 0.53 in 2004 (the rate was 0.64 in 
        2002 based on the early assessment data); and to achieve a 
        national 79 percent safety belt use rate in 2004 (the rate was 
        75 percent based on 2002 data). This safety goal that has been 
        revised downward from previous benchmarks set by NHTSA in 1997, 
        establishing national goals for seat belt use rates of 85 
        percent by 2000, and 90 percent by 2005. (Presidential 
        Initiative for Increasing Sear Belt Use Nationwide, U.S. DOT). 
        In addition, in 1999 the DOT Secretary announced the safety 
        goal of reducing the number of deaths in large truck related 
        crashes by 50 percent in 10 years (in 2008). Creating a 
        commission to explore long-term issues diverts attention, 
        focus, and resources from immediate safety needs.

  <bullet> Highway Safety Improvement Program (HSIP) funding 
        flexibility: This program has two important flaws. First, it 
        weakens the safety focus of the hazard elimination program by 
        broadening the scope of projects permitted in this program to 
        include projects such as traffic calming, and contains vague 
        wording that may not limit projects to serious safety problems 
        and hazard elimination. Second, although states that do not 
        adopt a primary (enforcement) safety belt law will have 10 
        percent of their HSIP funds obligated to Section 402 highway 
        safety programs. This is not wise because the redirection of 
        funds penalizes a dedicated safety program, the HSIP, by 
        redirecting funds to another safety program, Section 402. Funds 
        dedicated to safety improvements and safety programs should not 
        be targeted. In addition, the funding trap door in the proposed 
        Section 402 safety performance grants allows states to divert 
        50 percent of that grant money to be diverted from the Section 
        402 program for use on HSIP projects. Thus, the HSIP funds lost 
        to Section 402 program projects can be replaced by the 
        expenditure of other Section 402 funds, received from the 
        proposed performance grants, which can be spent on HSIP 
        projects.

  <bullet> Primary Safety Belt Use Law Performance Grant Program: 
        Sanctions are far more effective in achieving nationally 
        uniform safety policy countermeasures than incentive grants. 
        While Advocates does not oppose the effort to encourage states 
        to voluntarily adopt primary seat belt laws through incentive 
        grants, the program should impose a sanction in the final 3 
        years to require state adoption of primary enforcement seat 
        belt laws or face the loss/redirection of Federal construction 
        funds. The HSIP 10 percent redirection will not be sufficient 
        to convince reluctant states to adopt primary enforcement laws 
        both because the loss of a portion of HSIP funding alone, as 
        opposed to other construction program funds, is not a strong 
        financial incentive, and because the redirection of HSIP funds 
        can be offset by the use of half of the proposed performance 
        grant funds. Finally, the penalty for failure to adopt a safety 
        requirement should not be the loss or redirection of dedicated 
        safety funds, the larger highway construction funding program 
        should be the target.

  <bullet> Insufficient funding for anti-drunk driving initiatives: The 
        SAFETEA proposal significantly reduces the funding for anti-
        drunk and drugged driving efforts from previous levels. 
        Although behavior modification efforts are difficult to 
        sustain, passage of strong impaired driving laws coupled with 
        anti-drunk driving campaigns have been particularly successful 
        in lowering the incidence of dunk driving and related crashes 
        and fatalities. The reduced funding also comes at a time when 
        drunk driving related crash fatalities are increasing and the 
        response should be to renew anti-drunk driving initiatives and 
        to increase funding for countermeasures.

  <bullet> NHTSA Motor Vehicle Crash Causation Study: Advocates objects 
        to the proposed investigation of the causes of passenger 
        vehicle crashes that NHTSA plans to conduct because the agency 
        has stated that it would use the same research design currently 
        being used in the Large Truck Crash Causation Study (LTCCS). 
        That study has been heavily criticized as defective by both the 
        Transportation Research Board committee empanelled to oversee 
        the study, and highway safety organizations such as Advocates 
        for Highway and Auto Safety, Public Citizen, CRASH, P.A.T.T., 
        and the Insurance Institute for Highway Safety. The passenger 
        vehicle crash causation study would essentially use the same 
        flawed research design that is planned for review by the 
        National Centers for Disease Control (CDC) in Atlanta, Georgia. 
        Congress was so concerned with the validity of the research 
        methods for the LTCCS that it directed the U.S. DOT, in the 
        Fiscal Year 2003 appropriations legislation, to have the CDC 
        review the FMCSA-NHTSA research approach and report its 
        findings. The basic flaw in both studies is the lack of any 
        experimental research design using a comparison group to test 
        hypotheses about the causes of motor vehicle crashes. Instead, 
        FMCSA and NHTSA are attempting to provide explanations of the 
        ``causes'' of crashes solely through the detailed description 
        of how each crash supposedly occurred based largely on the 
        characterization of events supplied by individuals who were at 
        the scene of the crash when it occurred. This approach of 
        simply analyzing a set of crash cases is considered by the 
        National Institutes of Health as the poorest level of research 
        and scientific evidence.

    Areas which the administration proposal fails to address include:

  <bullet> Child passenger performance grants: The SAFETEA proposal 
        does not include a performance grant program to encourage state 
        adoption of booster seat laws for children up to 8 years old.

  <bullet> Section 402 funding accountability: Although Section 402 is 
        reauthorized, there is no provision to address criticism that 
        the program lacks supervision and accountability. According to 
        a recent General Accounting Office (GAO) report (Better 
        Guidance Could Improve Oversight of State Highway Safety 
        Programs, GAO-03-474, April 2003), NHTSA does not uniformly use 
        management reviews to monitor state implementation of highway 
        safety programs, or require program improvement plans to 
        correct deficiencies under Section 402. As a result, there is 
        no consistent process to monitor and review whether states are 
        achieving the goals they set for themselves, nor a 
        comprehensive method to ensure the correction of ineffective 
        state programs. As a result, there is no assurance that Section 
        402 funds are being expended on effective safety programs or 
        achieving the intended results.
                                 ______
                                 
       Response to Written Questions Submitted to Kathryn Swanson

    Question 1. Ms. Swanson, the Administration's proposal provides 
increased flexibility for the states to move funds between certain 
Section 402 programs and highway safety construction. What do you think 
the impact of that might be?
    Answer. The Administration allows all of the primary seat belt 
incentive funding, half of the performance incentive funding, and half 
of the seat belt use rate incentive funding to be flexed into the new 
core safety construction program. The flexing of primary seat belt 
incentive funding could only occur after the state enacts a primary 
belt law. The intent is to encourage state departments of 
transportation (DOT's) to be involved in state efforts to enact state 
primary belt laws.
    While we support the intent of the primary belt primary seat belt 
flexibility provisions, it is very likely that the state highway safety 
offices (SHSO's) will do all the work to enact the law and then see 
little of the incentive funding once the primary bill is approved. That 
has been the experience of several states that have worked to enact .08 
BAC laws. (Under TEA-21, states receive Section 163 funds if they enact 
.08 BAC laws. Eligible states can use the incentive funds for any 
purpose under Title 23, including highway construction.)
    With tight state budgets and limits on the overall growth of the 
federal-aid highway program, state departments of transportation are 
looking at every possible avenue for new construction funding. Even 
though the flexible funding amounts in all three incentive grant 
programs would be small, they may still be attractive enough to the 
DOT's to warrant the transfer from the non-construction programs into 
the construction program.

    Question 2. Will it pit the interests of highway safety 
representatives against those of state engineers and highway 
administrators?
    Answer. It certainly could. As noted in our testimony, the 
flexibility provisions sound persuasive on paper but would work with 
difficulty in reality. Nearly half of the SHSO's are located in a state 
DOT. Hence, if the head of the DOT decides to use the incentive funds 
for safety construction purposes, the director of the SHSO has no 
recourse except to agree with the request of his/her boss. More than 
twenty of the remaining SHSO's are located in departments of public 
safety. In those cases, the SHSO and the DOT could be pitted against 
each other in deciding how the flex funds should be used.
    DOT's and SHSO's do not have equal influence and cannot negotiate 
as equals. DOTs are far bigger agencies with much bigger staffs and 
budgets. As a result, in many instances, the decisions about 
flexibility would be one-sided. Further, based upon our experiences 
with the Section 163 program and the two penalty transfer programs 
authorized under TEA-21, we know that joint decisions about the use of 
safety funding can be very difficult. For all of these reasons, GHSA is 
very apprehensive about the flexibility provisions.
    We believe that the safety interests of the state DOTs and the 
SHSOs are similar but the methods of solving safety problems are 
different. We also realize that highway safety issues can't be solved 
by one agency alone. Every agency with a safety-related responsibility 
has to work together and jointly develop a strategic safety plan in 
which high priority problems are identified and existing funding is 
targeted to those problems. As part of that planning process, each 
agency needs to bring its Federal safety resources to the table and 
apply those resources to safety problems in a smart and effective way. 
GHSA believes that this strategic approach to safety will be more 
beneficial than the flexible funding concept. Hence, we support the 
strategic planning part of the flexible funding proposal but not the 
flexibility itself.
    In GHSA's proposal, an occupant protection incentive tier and an 
impaired driving incentive tier would be authorized. Eligible states 
would be required to use the occupant protection incentive funds for 
occupant protection purposes only. Similar restrictions would be placed 
on the impaired driving incentive funds.

    Question 3. Ms. Swanson, you heard GAO's testimony, in which Mr. 
Guerrero discussed improvements that NHTSA can make in oversight of 
state programs. What has been your experiences with NHTSA field offices 
and the job they are doing in helping the states improve highway 
safety?
    Answer. The state experience with NHTSA field staff has been mixed. 
In some regions, the staff work closely with the SHSO's to interpret 
Federal guidance, review annual Highway Safety Plans, work with the 
media, etc. In those regions, the Regional Administrator (RA) works to 
facilitate and encourage state safety efforts. In other regions, the 
working relationship is more adversarial and the RA is more directive 
in his/her approach with the states. A lot depends upon the personality 
of the Regional Administrator. The technical capabilities of the 
regional staff also vary considerably. In some regions, the states have 
as much or more experience and technical capability than some of the 
regional staff.
    The states have been concerned for many years about the 
inconsistencies in the way NHTSA regional offices are administered. 
That is why we concur with GAO that NHTSA's oversight should be applied 
on a more consistent basis and that explicit criteria should be 
developed for that oversight. NHTSA is developing performance critiera 
for that purpose. If a state fails to perform after a three-year 
period, than a program review would be triggered. GHSA supports this 
approach and is helping NHTSA identify the trigger performance 
criteria.

    Question 4. Considerable progress has been made over the last 
decades in reducing highway fatalities but this progress has slowed in 
the last few years. In fact, the numbers of fatalities has increased 
recently. What are the reasons for this spike?
    Answer. There is no spike in fatalities. Fatalities have held 
steady for several years and are now beginning to inch upward. While 
there is cause for alarm about this recent trend, it's also important 
not to overstate the problem and keep everything in perspective.
    It is difficult to say with any certainty what the reasons are for 
the increase. However, there are several theories about it. For one, 
the population (particularly the young and the old), vehicle miles of 
travel, licensed drivers and registered vehicles have all continued to 
increase. In the face of these increases, Federal and state programs 
have been able to prevent the number of fatalities from growing much 
larger but have not been able to make fatalities decline significantly.
    Federal funds have enabled states to reach those populations that 
are susceptible to behavioral change but not the hard-to-influence 
populations such as rural young, male drivers. In effect, Federal 
funding has enabled states to attack the relatively easy targets--the 
low hanging fruit. It is likely to cost considerably more to convince 
the last 25 percent of the population to buckle up than it has to 
convince the first 75 percent. If Congress wants the states to be 
successful, it will have to make the financial commitment commensurate 
with the size and scope of the remaining problem.
    Another possible reason is that the public has lost interest in 
some of the key safety issues and may assume that the highway safety 
battle has been won. This seems to be particularly the case with 
impaired driving. The media appears reluctant to cover impaired driving 
because there is nothing new to report from their perspective. Further, 
most of the impaired driving problems are caused by a small number of 
repeat offenders and the general public has a difficult time relating 
to that group.
    Yet another potential cause of the problem may be attributable to 
other safety issues such as speed, aggressive driving, fatigue, and 
distracted driving. Ever since Congress eliminated the National Maximum 
Speed Limit, many (though not all) states experienced increases in 
speed-related fatalities. The public's attitude toward speed has 
consistently eroded over the years, and . drivers appear to consider 
posted speed limits as guidelines rather than legal limits. Coupled 
with this is the fact that Americans are working more hours, have more 
competing demands on their free time, and live further outside central 
cities. It is probable that these trends have led to a increase in 
aggressive and fatigued driving. Further, as cell phones and telematics 
appear in vehicles, drivers are more and more distracted. All of these 
may have been contributors to the increase in fatalities.
    Yet another contributing factor may be the reduced focus of 
enforcement personnel on traffic safety. Since September 11, many law 
enforcement personnel have been detailed to security activities and are 
not expected to resume their normal enforcement responsibilities any 
time soon. At the same time, state highway patrols across the country 
are facing an unprecedented number of retirements as baby boom 
enforcement personnel reach retirement age. State budget cuts have also 
caused reductions in state and local law enforcement agencies, and the 
traffic enforcement divisions are typically the first to be cut. The 
remaining traffic enforcement personnel are being asked to do more and 
more, resulting in staff burnout. In many states, enforcement agencies 
aren't interested in traffic grants because they simply do not have the 
personnel to undertake grant activities. Hence, at a time when more 
emphasis has been placed on traffic enforcement and when the benefits 
of enforcement have been well documented, it has become more and more 
difficult to undertake enforcement efforts.

    Question 5. The lack of progress in reducing highway fatalities is 
especially frustrating in light of the billions of dollars that have 
been spent on highway safety and infrastructure improvements under TEA-
21. As we move forward and reauthorize these programs, where should we 
make future safety investmens to ensure sustained progress?
    Answer. First, states have made considerable progress under TEA-21 
and it's important not to lose sight of that. Under TEA-21, the 
fatality rate is the lowest on record, the safety belt use rate is the 
highest, the number of children in restraints is the highest, and 
impaired driving fatalities are well below levels of a decade ago. Yet 
there is much more to be done.
    Second, in our view, the Federal highway safety program needs to 
provide states with funding to address a range of behavioral issues 
while at the same time focusing on top priorities. As NHTSA has 
indicated repeatedly, the easiest, most effective way to protect people 
in a crash is to ensure that they buckle up. Hence, funds should focus 
on improving safety belt use and ensuring that children are in child 
restraints. Additionally, the focus should be on impaired drivers since 
impaired driving causes such a large percentage of all crashes.
    GHSA's proposal would divide the consolidated safety grant program 
into thirds: approximately one-third for 402 grants which could be used 
to address any number of behavioral safety concerns, one-third to 
improve occupant protection and one-third to reduce impaired driving.

    Question 6. The Administration's proposal would consolidate some 
programs and give states greater flexibility on spending decisions by 
allowing the movement of funds between the Section 402 programs and 
highway safety construction programs. What are the advantages and 
disadvantages of this approach.
    Answer. As noted in our testimony, GHSA strongly supports program 
consolidation. There are currently eight different grant programs and 
two penalty programs that must be administered by small highway safety 
offices. Each of these programs has different purposes, applications, 
and deadlines and the requirements of some programs (e.g., the Section 
157 innovative grant program) change from one year to the next. Some 
grants are given out at the beginning of the fiscal year, others during 
the year, and three are not awarded until the very end of the year. At 
the beginning of a fiscal year, a state may be implementing grants in 
that fiscal year, evaluating grants from the previous fiscal year, and 
planning to expend carryover funds from grants that were awarded late 
in the fiscal year. Needless to say, administration of these myriad 
grants has been confusing and very difficult. A single grant program 
with incentive tiers would be far easier to administer. There would be 
one application deadline and one grant that could be awarded at the 
beginning of the Federal fiscal year.
    There are no disadvantages to program consolidation from our 
perspective. Some concerns have been expressed by others about losing 
the focus on impaired driving and occupant protection if there is 
program consolidation. In GHSA's proposal, there are separate incentive 
tiers for both, so the focus on high priority issues would continue 
within the context of a consolidated program.
    With respect to funding flexibility, the main advantage is that 
states would be required to complete a statewide strategic highway 
safety plan before they could flex funds between categories. That would 
compel state agencies with safety responsibilities to work together--a 
goal that GHSA strongly supports.
    The disadvantages of flexible funding were detailed in our previous 
responses. GHSA does not support the proposed flexible funding. We do, 
however, support the concept of strategic statewide safety planning 
efforts. We recommend that that strategic safety plan concept be 
retained but separated from the flexible funding concept.

    Question 7. As Congress seeks to encourage states to reduce their 
traffic-related fatalities through various programs, it can choose to 
provide incentive grants or it can choose to penalize states for not 
adopting highway safety laws. Which approach is more effective?
    Answer. Both approaches can encourage states to enact critical 
safety legislation. Both have their advantages and disadvantages but, 
on balance, states support incentives over sanctions and penalties.
    Incentives can successfully encourage states to enact specific 
legislation (such as graduated licensing laws) or take other desired 
actions (such as improving BAC testing). Just this year, for example, 
Illinois enacted a primary safety belt law in part because it believed 
that it would receive five times its FY 2003 402 apportionment, as 
proposed by the SAFETEA proposal. The 410 program also successfully 
encouraged states to improve their impaired driving programs while 
providing eligible states with the resources they needed to make 
further improvements.
    Some incentive programs are less than successful because they are 
so small that they pale in comparison with what a state receives in 
highway construction funding. Hence, they are not large enough to 
convince a state legislature or other state agency to act 
appropriately. Some incentive programs are weakly constructed so that 
they reward poor behavior rather than encourage improved behavior. 
Others exacerbate the differences between ``have'' and ``have not'' 
states. A good incentive program has to be large, with a portion 
earmarked for states that are having difficulty and the remainder to 
reward states that improve performance or maintain a superior level of 
performance.
    The advantage of sanctions is that they force all the states to 
enact specific legislation by a set time period. However, despite the 
rhetoric, sanctions and penalties are not uniformly effective. They can 
be effective where there is public support, as is the case with 
sanctions that focus on impaired driving or those that aim to protect 
young persons.
    If there isn't public support, as was the case with the sanctions 
for motorcycle helmets and the National Maximum Speed Limit, the 
sanctions are completely ineffective. The lack of public support 
ultimately caused the repeal of both sanctions. Sanctions have also 
caused tremendous resentment on the part of state legislatures. They 
feel that sanctions are political coercion and pass only the bare bones 
legislation necessary to avoid the sanction. Then they fail to provide 
funding to ensure that the required laws are aggressively enforced. In 
the end, little has been accomplished.
    Congress has increasingly relied on sanctions to force states to 
enact specific legislation. There are eighteen sanctions, seven of 
which are safety-related. Three of the seven penalties/sanctions have 
been enacted either in TEA-21 or thereafter. No other area of 
transportation is affected by sanctions and penalties like safety. The 
message that Congress is sending is that it wishes to address safety 
problems primarily by punishing states and forcing them to act in a 
top-down approach and a uniform, one-size-fits-all manner. Further, 
disputes over new sanctions tend to shift the focus of discussion from 
the merits of safety programs to the battle over safety sanctions. This 
is extremely discouraging and ultimately self-defeating.
    Penalties have also caused problems. They pit the SHSO against the 
state DOT whose funds are being transferred into the behavioral highway 
safety program. SHSO's do not find this a helpful approach.
    GHSA accepts existing penalties and sanctions but does not support 
the enactment of new ones. We have recommended some technical changes 
to the repeat offender penalties so that they are more effective.

    Question 8. What are the major items in SAFETEA that you like about 
the proposal and what, in your view, should be reconsidered? Are there 
aspects that the proposal does not address?
    Answer. Under SAFETEA, the Department of Transportation has 
proposed a three-part consolidated behavioral highway safety grant 
program. The proposed program includes basic formula funds, performance 
incentive funds, and a strategic impaired driving program. The 
performance incentive funds will be further divided into three types of 
incentives. In addition, DOT has proposed a separate data grant program 
and a very small EMS grant program.
    As noted in our testimony, GHSA is pleased about some aspects of 
the funding request but very disappointed about several others.
    The Association is pleased that DOT supported the idea of grant 
consolidation. As noted previously, a single grant program with one 
application and one deadline should be much easier to administer. GHSA 
is also pleased that the Administration is proposing performance 
incentive grants and increased funding for states that enact primary 
safety belt laws. The Association also supports performance-based 
incentives, particularly for states that enact primary belt laws or 
improve their safety belt use rates above the national average and has 
incorporated those concept into its own proposal.
    GHSA strongly supports the proposed DOT data incentive grant 
program. The program funding level, the eligibility criteria, and the 
proposed use of grant funds are identical to those recommended by the 
Association.
    As noted previously, GHSA supports the requirement that states 
coordinate their highway safety construction, behavioral and motor 
carrier grant programs and develop comprehensive, strategic highway 
safety goals. Future improvements in highway safety are not as likely 
unless states coordinate the disparate aspects of their highway safety 
programs. We believe that these requirements should be maintained but 
unlinked with the flexible funding proposal.
    GHSA supports the proposed funding for the crash causation study. 
As noted in our testimony, it has been about thirty years since such a 
study was conducted. If states are to improve driver and road user 
behavior, it is essential to know why crashes were caused. GHSA 
recommends, however, that the difference between the NHTSA crash 
causation study and the proposed FSHRP crash causation study need to be 
clarified and the studies coordinated.
    GHSA also supports the proposed increased funding for the Section 
403 program. However, it appears that most of the increase will be used 
for the crash causation study. Additional research resources must be 
directed to the NHTSA 403 program so that evaluation studies can be 
conducted on the effectiveness of various safety countermeasures.
    GHSA is extremely disappointed in the overall funding level for the 
behavioral safety grant programs. Behavioral funding is level funded in 
FY 2004 and then it rises very gradually over the remaining five years 
of the reauthorization period. Total funding in FY 2009 is only 10 
percent higher than in FY 2004. It will be extremely difficult for 
states to make further improvements in the behavior of drivers and 
other road users without sufficient funding. As noted previously, it 
will be costly to convince the hard-to-influence populations to change 
their driving behavior. Further, additional funds are needed to address 
emerging safety issues (such as aggressive, fatigued, and distracted 
driving, older drivers) and provide programs for minorities and ethnic 
populations, etc.
    GHSA finds the impaired driving program totally unacceptable and 
urges that Congress reject the proposal. $50 million is considerably 
less than has been spent on impaired driving under TEA-21 and far less 
than is needed to adequately address this growing problem. Further, the 
program is too narrowly focused on a few states where an intervention 
could, if it worked perfectly, eliminate a lot of fatalities. In a 
sense, it rewards states that have performed poorly by giving them 
additional funding to the exclusion of all other states. Impaired 
driving is a problem in every state, yet the proposal would provide no 
funds for the remaining, ``non-strategic'' states.
    GHSA particularly dislikes the fact that the proposed impaired 
driving program will be implemented in the same manner as the 157 
innovative program. Under that program, NHTSA set very restrictive 
conditions on the grants and completely micro-managed the way eligible 
states expend funds. States have found the program very onerous and do 
not wish to repeat the experience under the proposed impaired driving 
program. GHSA believes that the proposed strategic impaired driving 
initiative is more appropriate as a Section 403 demonstration program 
than as a state incentive grant program.
    The Administration is proposing funding for three types of 
incentives--for enacting primary belt laws, for improving safety belt 
use rates and for improving performance. Each of these incentives will 
have their own eligibility criteria and their own earmarked funding. We 
are concerned that the performance incentive program may be just as 
complex as the myriad of programs that are currently authorized under 
TEA-21. As noted in our testimony, GHSA urges that the goal in the next 
reauthorization should be simplicity and consolidation. In our 
proposal, we have combined the incentive for seat belt use rates with 
the one for enacting a primary safety belt law.
    In the proposed primary belt law incentive grants, GHSA is very 
troubled by the distinction between states that enacted their primary 
belt laws during TEA-21 and those that will enact them under SAFETEA. 
The former states are eligible for only \1/2\ of their FY 2003 402 
apportionments over a two-year period. The latter are eligible for 5 
times their FY 2003 402 apportionments.
    GHSA believes that it is very difficult for states to adopt primary 
belt laws, no matter when they enact such laws, and that to make such a 
distinction is unfair and serves to pit one set of states against 
another. The Administration assumes that states with existing primary 
laws can tap into the flexible safety funds. However, any state with a 
primary belt law can flex the funds, assuming that the flex provisions 
are, in fact, authorized. There would be no advantage for those states 
with existing primary laws.
    States that have primary belt laws should be rewarded for their 
superior performance and states wishing to enact such laws should be 
strongly encouraged to do so. If Congress were to treat all states with 
primary laws equally, it would have to either authorize a $825 million 
program (five times the FY 2003 402 level) or reduce the incentive to 
all primary belt law states to 3.5 times their FY 2003 apportionment.
    As noted previously, GHSA strongly opposes the flexible funding 
proposal and urges that it be rejected.
                                 ______
                                 
     Response to Written Questions Submitted to Josephine S. Cooper

    Question 1. There has been much made in the press about the safety 
of SUVs and the safety data speaks volumes in this serious issue. What 
more should NHTSA and the manufacturers do to reduce rollover deaths?
    Answer. The Alliance agrees that rollovers represent a significant 
safety challenge for all passenger vehicles and warrant action. Twice 
as many rollover fatalities occur to occupants in passenger cars as 
compared to SUVs. The Alliance is working to reduce the frequency and 
consequences of rollover of all passenger vehicle types by:

  <bullet> Developing a vehicle handling test procedure that will 
        assess the performance of electronic stability control systems 
        and other advanced handling systems.

  <bullet> Developing test procedures to assess the performance of 
        occupant restraint technologies intended to reduce occupant 
        excursion and mitigate occupant ejections in rollovers.

  <bullet> Examining roof strength in rollover crashes.

    These efforts are expected to result in recommended practices or 
design guidelines.
    Nearly three-quarters of the rollover fatalities occurring annually 
involve occupants who were not wearing their safety belts. Wearing a 
safety belt will reduce the risk of fatal injury in a rollover by 80 
percent. Adoption of primary enforcement safety belt use laws by states 
and the stepped up enforcement of these and all traffic safety laws 
would help to immediately abate these fatalities.
    An Alliance analysis of U.S. government statistics concludes that 
today's SUVs are as safe as cars. In the most common of crashes (front, 
side and rear crashes), SUVs have a safety record that surpasses that 
of cars. An analysis of U.S. government data performed by the Insurance 
Institute for Highway Safety (IIHS) looked at SUVs that were three-
years-old or newer. The conclusions of the IIHS study--which are 
indicative of future trends--demonstrate that the safety performance of 
SUVs surpasses that of cars.

    Question 2. Given that thousands of fatalities are a result of the 
failure of vehicle roofs to protect passengers during rollover, do you 
believe automobile manufacturers have taken adequate remedial action in 
incorporating roof crush improvements or can more be done?
    Answer. Alliance members are continuously working to advance the 
safety performance of their cars and trucks in all crash modes 
including rollovers. Alliance members passenger-carrying cars and 
trucks typically exceed the Federal safety standard for roof crush 
resistance. Standard 216 establishes the strength requirements for the 
passenger compartment roof. The standard requires that the amount of 
roof crush not exceed 127 millimeters (5 inches) when a force equal to 
1.5 times the vehicle's unloaded weight is applied to the forward edge 
of a vehicle's roof. Typically, 127 millimeters of deformation is not 
seen until the force applied is between 2 and 3 times a vehicle's 
unloaded weight.
    Of the roughly 26,000 occupants that NHTSA estimates are seriously 
or fatally injured annually in light vehicle rollover crashes, 14 
percent were using their safety belt and involved in a crash where roof 
intrusion was present. Despite the extensive research to date, there 
remains an uncertain relationship between roof crush resistance and 
real-world crash outcomes. As NHTSA has observed, ``vehicles that 
perform well in roof crush tests do not appear to better protect 
occupants from severe roof intrusion in real-world crashes.'' See 66 
Fed. Reg. 53383, October 21, 2001. This conundrum should he resolved 
before any meaningful approach to increase roof crush resistance could 
he developed. Whatever metric is developed to assess roof strength, it 
must he shown that performance on this metric is related to real-world 
crash outcomes.
    The Alliance understands that NHTSA will propose an upgrade to its 
roof strength standard later this year and we will work with NHTSA to 
reduce injuries that result from occupant contact with the roof

    Question 3. Considerable progress has been made over the last 
decades in reducing highway fatalities, but this progress has slowed in 
the last few years. In fact, the number of fatalities has increased 
recently. What are the reasons for this spike?
    Answer. There are two principle reasons: non-users of safety belts 
and drivers impaired by alcohol or drugs. Through the efforts of the 
Airbag & Seat Belt Safety Campaign, which is funded principally by 
Alliance members, safety belt usage has increased to 75 percent, 
compared to 61 percent when the Campaign started in 1996--however 59 
percent of those killed in 2002 were not wearing their safety belts. 
Alcohol-related fatalities also increased in 2002 for the third 
consecutive year and accounted for 42 percent of all fatalities.
    Other factors include: motorcycle fatalities increased for the 
fifth straight year; fatal crashes involving young drivers 16 to 20 
years old increased slightly; and occupant fatalities for children 8 to 
15 years old increased by nearly 9 percent. Adoption of primary 
enforcement safety belt use laws by states and the stepped up 
enforcement of these and all traffic safety laws would help to abate 
these fatalities.
    Suggestions that the number of highway fatalities is increasing 
because of an epidemic of fatal rollovers involving SUVs are not 
supported by the data. During the period 1995--2002, the number of 
light vehicle occupant fatalities occurring annually has hovered around 
32,000. However, there has been a slight shift in the distribution of 
fatalities attributable to rollover and non-rollover crashes from 30:70 
to 33:67. Likewise, as expected, the distribution of fatalities by body 
type has also shifted as the on-road light vehicle fleet mix has 
changed. However, this distribution tracks the fleet mix. In other 
words, in 2002 SUVs comprised roughly 12 percent of the on-road fleet 
and 12 percent of the light vehicle occupant fatalities that occurred 
in 2002 involved SUV occupants. Normalizing the data for exposure by 
calculating a fatality rate on either a per 100,000 registered vehicle 
basis or on a vehicle miles traveled (VMT) basis, one finds that the 
fatalities rates for all crash types and all vehicle body types have 
fallen over this period. The SUV rollover fatality rate has declined 15 
percent over this period (compared to 11 percent for passenger cars). 
However, the number of registered SUVs during this period has grown by 
130 percent, compared to only 5.2 percent for passenger cars, 
representing a significant increase in exposure. None of this data 
would suggest that we are seeing the start of an epidemic of rollover 
crash fatalities.

    Question 4. The lack of progress in reducing highway fatalities is 
especially frustrating in light of the billions of dollars that have 
been spent on highway safety and infrastructure improvements under TEA-
21. As we move forward and reauthorize these programs, where should we 
make future safety investments to ensure sustained progress?
    Answer. Principally on increasing safety belt usage and reducing 
impaired driving. We will never fully realize the potential benefits of 
vehicle safety technologies until vehicle occupants are properly 
restrained and impaired drivers are off the road. The Alliance believes 
we will have an immediate safety benefit if we are able to increase 
national safety belt usage to the levels observed in Canada (92 
percent) and some states, e.g., California, Oregon, Washington, Hawaii. 
Increasing safety belt usage to 92 percent from its current 75 percent 
usage level would save 4,500 lives annually and countless injuries 
would be avoided. In addition to the incentive grants proposed in 
SAFETEA and the Federal highway fund sanctions recommended below, the 
Alliance supports S. 1139 introduced by Senators DeWine and Lautenberg. 
This bill would fund at least three high-visibility traffic safety law 
enforcement campaigns annually for Fiscal Years 2004 through 2009. The 
campaigns would focus on increasing safety belt usage and reducing 
impaired driving.

    Question 5. The Administration's SAFETEA proposal would consolidate 
some programs and give states greater flexibility on spending decisions 
by allowing the movement of funds between parts of the Section 402 
programs and highway safety construction programs. What are the 
advantages and disadvantages of this approach?
    Answer. The advantage to this approach would he lower 
administrative costs and a more streamlined application process for 
states. The disadvantage would he a diversion of funds towards highway 
safety constructions programs. Section 402 funds should be separate 
and, in fact, Congress should consider creating a separate Highway 
Safety Trust Fund to ensure that these programs are properly funded in 
the future.

    Question 6. As Congress seeks to encourage the states to reduce 
their traffic-related fatalities through various programs, it can 
choose to provide incentive grants or it can choose to penalize states 
for not adopting highway safety laws. Which approach is more effective?
    Answer. Actually a combined approach. In addition to the incentive 
grants proposed in SAFETEA, Federal highway fund sanctions should also 
be included which would he imposed if acceptable belt use levels have 
not been reached after a defined period of time--perhaps 3 years.

    Question 7. What are the major items in SAFETEA that you like about 
the proposal and what, in your view, should be reconsidered? Are there 
aspects of highway safety that the proposal does not address?
    Answer. The Alliance supports the following proposals contained in 
SAFETEA:

  <bullet> Sec. 2001 Highway Safety Program which provides incentives 
        for states that pass primary enforcement safety belt laws, high 
        visibility enforcement of these laws, and an impaired driving 
        grant program. Consideration should be given to (I) coupling 
        the incentive grants with Federal highway fund sanctions should 
        acceptable belt use levels not be achieved after a defined 
        period of time, and (2) providing funding beyond the level 
        proposed to address the deadly problem of impaired driving.

  <bullet> Sec. 2002 Highway Safety Research and Development--in 
        particular the crash causation survey and international 
        cooperation.

  <bullet> Sec. 2004 State Traffic Safety Information System 
        Improvement. The Alliance supports the provision to upgrade 
        state traffic record systems.

    Items to be reconsidered:

  <bullet> There is a need for greater state accountability for 
        expenditure of 402 funds. NHTSA should he required to approve 
        annual state highway safety plans before funding is 
        distributed.
                                 ______
                                 
       Response to Written Questions Submitted to Richard Berman

    Question 1. If roadblocks and public awareness campaigns that 
highlight the harmful consequences of driving drunk are not, in your 
opinion, effective measures to combat repeat and ``hard-core'' drunk 
drivers, then what are effective measures?
    Answer. The most effective measures are those which address the 
problem. The drunk driving problem has transformed, but the solutions 
have not. In the early 1980s, the problem stemmed from both hard-core 
drunk drivers and from a general societal disregard for the dangers of 
drunk drinking. In this context, Mothers Against Drunk Driving (MADD) 
served an important role by alerting the general public to the dangers 
of drunk driving and helping to change a culture. Today, as former MADD 
President Katherine Prescott stated, the drunk driving problem is 
``down to a hard core of alcoholics who do not respond to public 
appeal.'' However, MADD has not changed its tactics to target the 
current perpetrators. Instead, they have proposed ever-more-draconian 
measures aimed at the social drinker, coupled with PR campaigns on 
drinking and drugs.
    But alcohol abusers do not respond to public service announcements 
or admonitions not to drive drunk. As The New York Times identified as 
early as 1997, ``the people heeding the message are not the ones who 
drink the most,'' and it may be time for ``states and judges to try new 
strategies.''
    High-BAC drinkers and repeat offenders are the core of the drunk 
driving problem in this country. The medical evidence suggests that 
high-BAC repeat offenders are probably compulsive violators of the law, 
given their alcohol addiction. MADD is a public relations operation; it 
simply is not equipped to deal with a drunk driving problem that is now 
about a health issue: alcohol abuse.
    Given the fact that these drivers cannot be persuaded by public 
opinion campaigns, the sole option left is to apprehend, punish, and, 
more importantly, treat them. The issue then becomes one of formulating 
the most efficient mechanism to catch these drivers without imposing 
undue burdens upon the law-abiding public. Roadblocks--by far the most 
frequently proposed ``solution'' to this dilemma--demonstrably achieve 
neither of these objectives.
    In a 1995 National Highway Traffic Safety Administration (NHTSA) 
report, the authors note that ``for chronic drunk drivers, [sobriety] 
checkpoints may not be very effective since these drivers are more 
likely to avoid them in the first place, and have learned to alter 
their driving behavior to avoid detection.'' \1\
---------------------------------------------------------------------------
    \1\ Stuster, J.W. and Blowers, P.A. ``Experimental Evaluation of 
Sobriety Checkpoint Programs,'' National Highway Traffic Safety 
Administration, 1995.
---------------------------------------------------------------------------
    Roadblocks are thus exposing the whole population to a public 
relations scare campaign to get people ``to drink less,'' as MADD 
acknowledged on their website and not a concerted campaign to reduce 
drunk driving deaths and injuries. As Dr. Jeffrey Michael, Director of 
Impaired Driving & Occupant Protection Division of NHTSA, stated, with 
roadblocks ``you aren't trying to arrest a lot of people, you're trying 
to persuade the community that they are facing a higher probability of 
arrest.''
    Roadblock statistics from May 2003 clearly demonstrate their 
inefficiency:

  <bullet> A Memorial Day roadblock campaign in Chico, CA stopped 799 
        drivers, and failed to net one DUI. Arrest percentage: 0 
        percent

  <bullet> A roadblock conducted by the Nevada Highway Patrol on May 23 
        stopped 1,150 drivers and resulted in one DUI. Arrest 
        percentage: .09 percent

  <bullet> More than 4,000 cars passed through a May 30 roadblock in 
        Moreno Valley, CA, and resulted in four arrests for driving 
        under the influence of alcohol or drugs. Arrest percentage: .1 
        percent

    All of these fall well below the current .5 percent standard of 
``efficiency'' established by the U.S. Supreme Court in the 1990 
Michigan Department of State Police v. Sitz case.
    Furthermore, roadblocks rely upon being widely announced prior to 
their operation for their PR value. So again, people who are serious 
drinkers can find a way to avoid them.
    However, there are other, more efficient law enforcement tools for 
catching drunk drivers. Foremost among them are saturation patrols. A 
report in the FBI's January 2003 Law Enforcement Bulletin states, ``It 
is proven that saturation efforts will bring more DUI arrests than 
sobriety checkpoints.'' Moreover, ``Saturation patrols may afford a 
more effective means of detecting repeat offenders, who are likely to 
avoid detection at sobriety checkpoints.''
    With extensive evidence proving that saturation patrols are 
offender specific and the most effective at catching high-BAC and 
repeat offenders--the acknowledged root of the problem--there is no 
logical reason not to implement them nationally.
    Once the driver has been stopped, mandated alcohol screening for 
high-BAC and repeat offenders is necessary to make sure that they are 
properly identified.

    Question 2. What would be the most useful action Congress could 
take in its reauthorization measure to promote an effective mechanism 
to reduce drunk driving?
    Answer. The most useful action is a fresh focus on the problem--
which refers back to the answer to the first question. The problem is 
not people who drink responsibly at a restaurant or a friend's house 
before driving home. Twenty years' worth of NHTSA data show the same 
virtually nonexistent level of involvement in alcohol-related 
fatalities for drivers with BAC's of .04 percent, .05 percent, .06 
percent, .07 percent--up to .09 percent. Moreover, the data show that 
year after year the involvement rate of drivers with BACs of .01 
percent--which even the most ardent anti-alcohol activist would agree 
was not alcohol-caused--is identical to that of drivers with BACs of up 
to .09 percent.
    In fact, laws to arrest drivers at .08 percent BAC have reached so 
far into this cohort of responsible adults that we are punishing people 
with severe sanctions for behavior that is statistically less likely to 
cause accidents than cell phone use. A 1997 study published in The New 
England Journal of Medicine found that cell phone use impaired a driver 
as much as a .10 percent BAC.\2\
---------------------------------------------------------------------------
    \2\ Redelmeier DA, Tibshirani RJ. Association between cellular-
telephone calls and motor vehicle collisions. N Engl J Med 
1997;336:453-8.
---------------------------------------------------------------------------
    While no one is arguing that .01 percent and .09 percent are 
identical BAC thresholds, the alcohol-related fatality rate is 
identical because responsible adults self-regulate. Nobody knows their 
exact BAC when they leave a restaurant or tavern, but responsible 
adults do know when they are able to drive safely and when they aren't. 
(See Chart 1) So if the accidents spike up at the right-hand side of 
the chart, we have to ask ourselves, ``What is the common 
characteristic among those fatalities?'' Clearly, the commonality is 
excessive drinking--and excessive drinking is a significant indicator 
of a medical problem.
    While drunk driving was originally a traffic safety issue because 
of the broad population of people involved, it is now a health issue 
predicated upon a medical addiction. The problem has changed, but we 
have not changed our focus or how we appropriate money for the issue 
itself. In fact, more money should be spent through the National 
Institute for Alcohol Abuse and Alcoholism (NIAAA) instead of through 
NHTSA on this particular problem.

    Question 3. Considerable progress has been made over the last 
decades in reducing highway fatalities, but this progress has slowed in 
the last few years. In fact, the number of fatalities has increased 
recently. What are the reasons for this spike?
    Answer. Firstly, this is not a spike. As Dr. Jeffrey Michael of 
NHTSA recently stated, ``it's more meaningful to look at the death 
rates. And when you do . . . the rate of fatalities is apparently 
stable'' due to the increased number of miles driven. In fact, he 
continued, the slight increase in the number of alcohol-related 
fatalities is ``all coming out of the high-BAC data source. In fact, 
it's high BAC despite the reduction of low BACs.''
    In the May 22 hearing, NHTSA Administrator Dr. Jeffrey Runge also 
testified that yes, the accidents had picked up some, but on a miles-
driven basis they had not gone up. The general trend is down and has 
been down for some time. Obviously, if you increase the number of miles 
on the road, you have many more opportunities for accidents of all 
kinds.
    To understand the traffic safety trends, one must also look at 
demographics. The lower number of drunk driving deaths, for instance, 
has moved in a very close relationship to the decreasing numbers of 
younger drivers in the population (see Chart 2). A glance at the chart 
will show you that an increase in younger drivers coincides with the 
current slight rise in accidents. Youths have always been 
disproportionately predisposed to various kinds of dangerous behavior. 
With cars a ubiquitous part of our society, we should not be surprised 
that alcohol-related fatalities have begun to increase. Over the next 
15 years, this percentage of young people will continue to escalate, 
raising the number of people who will engage in risky behavior of all 
kinds, despite what the law says.
    In fact, we predicted the slight uptick in numbers based on 
demographics during June 27, 2002 testimony before the U.S. House 
Subcommittee on Highways and Transit.

    Question 4. The lack of progress in reducing highway fatalities is 
especially frustrating in light of the billions of dollars that have 
been spent on highway safety and infrastructure improvements under TEA-
21. As we move forward and reauthorize these programs, where should we 
make further safety investments to ensure sustained progress?
    Answer. There is a question of the relationship between states and 
the Federal Government when it comes to funding effective programs. The 
Federal Government is becoming more aggressive about using ``financial 
encouragement'' or ``blackmail'' to force states, governors, 
legislators and highway safety officials to accept Washington's view of 
what works. In ever more instances, states are being penalized when 
they have above-average safety records, but do not adopt federally 
approved laws. With few exceptions (e.g., the minimum drinking age, 
requiring helmet use for motorcycle drivers/riders and a mandated 
national speed limit, which were rescinded), highway safety 
countermeasures were funded on incentives. More recently, three 
sanction programs have been implemented to require even the most 
successful state safety programs to adopt laws the Federal Government 
believe to be effective.
    State governments and traffic safety experts should not be 
subjected to financial blackmail because they do not believe in one-
size-fits-all solutions to drunk driving. This is not an industry 
position, but one that was taken by numerous traffic safety groups \3\ 
during the last two debates over highway funding. There is no logic in 
believing that national special interest groups and Washington insiders 
know more about what programs a state should enact to ensure effective 
traffic safety than officials in that state.
---------------------------------------------------------------------------
    \3\ These traffic safety groups include the National Governors' 
Association, the National Conference of State Legislatures, the Council 
of State Governments, the National League of Cities, the National 
Association of Counties, the American Automobile Association, the 
American Association of State Highway and Transportation Officials, the 
American Traffic Safety Services Association, the International 
Association of Chiefs of Police and the National Association of 
Governors' Highway Safety Representatives.
---------------------------------------------------------------------------
    Road improvements, surface improvements, lighting, etc. are 
considered to be significantly causal factors in highway deaths. 
According to the Department of Transportation, 30 percent of deaths on 
American highways are caused by road conditions.\4\ And the states and 
localities are in a much better position to determine whether and where 
those investments ought to be made than the Federal Government.
---------------------------------------------------------------------------
    \4\ U.S. Department of Transportation. ``Highway Statistics,'' 
Federal Highway Administration, 1996.
---------------------------------------------------------------------------
    Block grants to states to address these problems may not be the 
most targeted way to get results, but they are surely better than a 
Washington, DC-based perspective of what it takes to get the job done 
in 50 different states with thousands of jurisdictions.
    However, we ought to accept the fact that we will reach a point of 
diminishing marginal returns. When you couple 2.83 trillion miles 
driven in the U.S. every year to myriad human error possibilities, we 
will reach the point where all of the low-lying fruit has been plucked. 
Just like a host of other crimes, despite all the laws and the long-
standing commitment of law enforcement to stop these, we do get to the 
point where we reach the irreducible minimum. As long as we're in a 
free society, we're going to have to accept a certain number of people 
refusing to stay inside the law. Until we decide to change our focus, 
until we address the more resistant high-BAC and repeat offenders, we 
will be at the irreducible minimum.

    Question 5. The Administration's SAFETEA proposal would consolidate 
some programs and give states greater flexibility on spending decisions 
by allowing the movement of funds between parts of the Section 402 
programs and highway safety construction programs. What are the 
advantages and disadvantages of this approach?
    Answer. There are no disadvantages if you trust state governments 
to be just as concerned for their own citizens' safety as their elected 
representatives at the Federal level. Our belief is that the states are 
the great laboratories for experimentation for many issues, including 
traffic safety. And highways and traffic are about as logical an arena 
for state government to bring their expertise to bear as any. For 
instance, there is no way for the Federal Government to know where all 
of the dangerous intersections are around the country--but local 
officials do. If the goal is to create effective programs that deal 
with existing problems, then tailored solutions are necessary. And 
there are simply too many variables and too much information to make 
Federal control viable in such a situation.

    Question 6. As Congress seeks to encourage the states to reduce 
their traffic-related fatalities through various programs, it can 
choose to provide incentive grants or it can choose to penalize states 
for not adopting highway safety laws. Which approach is more effective?
    Answer. It's got more to do with the amount of money involved than 
whether it is a carrot or a stick. The first issue is the philosophy--
and the philosophy is, ``Does Washington know better than the states 
about protecting its citizens on the highways, or are the states more 
sensitive to what the needs are?'' If significant incentives are in 
place, it's up to the states to determine whether they want to apply 
for that grant and spend the money in that area. In fact, on 
incentives, the Federal Government should consider matching grants on a 
one to one dollar basis or a two to one basis.
    Penalties to take away money appear to suggest that there is a 
difference of opinion between the states and some politically-motivated 
interest groups who cannot convince the traffic authorities at the 
local level that their idea works, and so they've taken the philosophy 
of bludgeoning people into their point of view. This approach seems, by 
its very nature, to suggest that it is not a great idea. Such coercion 
certainly does not lend itself to intergovernmental cooperation.
    Moreover, you have to ask, ``If you gave someone money to protect 
the citizenry, and they didn't accept it, is there something wrong with 
the idea in the first place?''

    Question 7. What are the major items in SAFETEA that you like about 
the proposal and what, in your view, should be reconsidered? Are there 
aspects of highway safety that this proposal does not address?
    Answer. We support the SAFETEA plan of combining all highway safety 
programs into one more efficient grant system (instead of the many 
different grant programs currently being funded). We further support 
the grant system's focus on more incentives to states. We also support 
eliminating existing mandates, and giving states access to this larger 
pool of money if they adopted a certain number of recommended--and 
proven effective--programs. This contrasts the current system of 
punitive mandates that take money away from states that choose not to 
enact ``federally approved'' (and often unproven) programs. We also 
think SAFETEA would benefit from more options on the list of anti-drunk 
driving measures that would be eligible for funding. A longer list of 
programs offers state governments more opportunities to develop 
aggressive and innovative prevention ideas. Programs on the list of 
incentives could include: administrative license revocation, high-BAC 
tiered penalties, repeat offender programs, graduated penalties, record 
keeping/information tracking, programs to reduce suspended license 
driving, treatment programs, ID checks for underage drinkers, specific 
repeat-offender programs, and .08 percent BAC. Some of these programs 
or laws are already funded as incentives or mandates.
    Alcohol-related fatalities are only one part of the larger traffic 
safety dilemma, and SAFETEA should devote some attention to other 
driving problems as well. We, like many other groups, promote 
increasing seatbelt incentives as a way to reduce fatalities and 
injuries of all kinds. But funding should be provided for other safety 
counter-measures related to drowsy or fatigued driving, elderly 
drivers, cell-phone use and other electronic distractions, aggressive 
driving, and other emerging problems, with the hopes of reducing even 
more fatalities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Note: Population statistics are compiled using Census Bureau 
estimates from 1990 for the years 1990 to 2000 (see U.S. Census Bureau, 
Population Estimates Program, Resident Population Estimates of the 
United States by Age and Sex: April 1, 1990 to July 1, 1999, with 
Short-Term Projection to November 1, 2000, available from http://
eire.census.gov/popest/archives/national/nation2/intfile2-1.txt, 
accessed 26 June 2002.). and population projections based on the 1990 
census for the years 2001-2005 (see U.S. Census Bureau, Population 
Projections Program, Projections of the Total Resident Population by 5-
Year Age Groups, and Sex with Special Age Categories: Middle Series, 
2001 to 2005, available from http://eire.census.gov/popest/archives/
national/nation2/intfile2-1.txt, accessed 26 June 2002.). Traffic 
fatality statistics are compiled from Table 13 and Table 18 from 
National Highway Traffic Safety Administration, Traffic Safety Facts 
2000, Washington, D.C.: U.S. Department of Transportation, 2001.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Unpublished ABI analysis of U.S. Department of 
Transportation Fatality Analysis Reporting System data on BAC levels 
and fatalities in accidents where a driver was actually tested. Imputed 
fatalities were not included in this analysis. Nineteen states were 
considered 0.08 states for the analysis including the District of 
Columbia. These 19 states all had 0.08 laws in effect prior to the 2001 
year that was used for this analysis.
                                 ______
                                 
       Response to Written Questions Submitted to Wendy Hamilton

    Question 1. What do NHTSA and the states need to do to make the 
most improvements in the critical area of alcohol impaired driving? 
What have been the most, and least, effective programs in reducing 
drunk driving?
    Answer. MADD supports the deployment of science-based, data driven 
impaired driving countermeasures that have been proven to successfully 
deter alcohol impaired driving. While there is no single cure to reduce 
the carnage caused by alcohol impaired driving, research shows that 
certain initiatives and laws work. These measures include: high 
visibility law enforcement mobilizations, sobriety checkpoints and 
saturation patrols, administrative license revocation (ALR), laws to 
address higher-risk offenders (high BAC and repeat offenders), .08 
blood alcohol concentration (BAC)/illegal per se, and a primary seat 
belt standard. These measures are the basic building blocks of a 
comprehensive battle plan against drunk driving, and if implemented 
will save lives and prevent injuries.
    The single most effective effort to deter and apprehend drunk 
drivers is the dedicated use of high visibility law enforcement 
mobilization campaigns. These campaigns combine targeted law 
enforcement (sobriety checkpoints, saturation patrols, and/or seat belt 
enforcement) with the purchase of advertising in broadcast or print 
media. These efforts have the greatest ability to effectively reduce 
alcohol impaired driving and to increase seat belt usage.
    The least effective traffic safety efforts result from failing to 
target limited resources to the highest needs. NHTSA and the states, 
when creating highway safety plans, must establish a strong correlation 
between problem identification, strategy, program/countermeasure 
selection and funding. Priority programming of Federal funds must, 
first and foremost, be based on data driven alcohol impaired driving 
countermeasures and seat belt initiatives. More than 40 percent of all 
traffic crashes are alcohol-related, and yet the Nation's traffic 
safety funding in not being targeted to reduce impaired driving in an 
effective, strategic way.

    Question 2. MADD proposes several recommendations to curb alcohol 
related traffic fatalities. Which one of these recommendations would 
have the greatest impact if implemented?
    Answer. MADD believes that high visibility national law enforcement 
mobilization campaigns will have the greatest short-term and long-term 
impact if implemented. These campaigns are most successful when law 
enforcement agencies from multiple jurisdictions designate several 
concentrated periods throughout the year to conduct intensive 
enforcement of seat belt an/or impaired driving safety laws on a 
national, statewide and local basis.
    If enacted, S. 1139, sponsored by Senator Mike DeWine (R-OH) and 
Senator Frank Lautenberg (D-NJ), will save lives. This bill provides 
funding for paid advertising at the national and state level and 
resources to law enforcement agencies across the country for training, 
technology and staff time to ensure optimal deployment and 
effectiveness. MADD strongly encourages the Committee to include S. 
1139 as part of the reauthorized TEA-21.

    Question 3. You suggest that for every dollar spent on effective 
highway safety programs about $30 are saved by society. Is there a 
diminishing return in some states while others reap more benefits?
    Answer. Although MADD believes that behavioral traffic safety 
programs are woefully under funded, money alone does not equate to the 
success or failure of highway safety programs. The key is to target 
funding for programs linked to problem identification based on data. 
Focusing on ``what works'' and requiring a greater level of 
accountability on the national, state and local levels provides the 
best opportunity to reduce deaths and injuries and economic costs.
    According to a recent NHTSA report, the economic impact of motor 
vehicle crashes on the Nation's roadways has reached $230.6 billion a 
year or an average of $820 for every person living in the United 
States. Overall, nearly 75 percent of the costs of roadway crashes are 
paid by those not directly involved, primarily through insurance 
premiums, taxes, and travel delay. Reducing the frequency and severity 
of motor vehicle traffic crashes is not simply a matter of public 
safety; it is also a matter of economic necessity.
    In order to ensure that Section 402--and all--highway safety funds 
are spent effectively, states should have to submit a highway safety 
plan that reflects the data in their particular state (ie, what causes 
highway death and injury in a particular state and what are the most 
effective solutions). Regional NHTSA offices should work in conjunction 
with the states to identify problem areas, and assist in identifying 
appropriate, proven countermeasures.

    Question 4. Please respond to the ABI's comments regarding the 
definition of impaired driving as it relates to the collection of 
traffic fatality data. More specifically, there are different ways a 
driver can be impaired. What percentage of impaired driving is alcohol-
related?
    Answer. In 2002, an estimated 42,850 people died on the Nation's 
highways, up from 42,116 in 2001. Nearly 18,000 people, or 42 percent 
of all traffic fatalities, were killed in alcohol-related traffic 
crashes. MADD believes that each of the lives lost in alcohol-related 
crashes (as well as the hundreds of thousands of injuries) is 100 
percent preventable.
    NHTSA defines a fatal crash as alcohol-related or alcohol-involved 
if either a driver or a non-motorist (usually a pedestrian) had a 
measurable or estimated blood alcohol concentration (BAC) of 0.01 grams 
per deciliter (g/dl) or above. NHTSA also defines a nonfatal crash as 
alcohol-related or alcohol-involved if police indicate on the police 
accident report that there is evidence of alcohol present. MADD is 
extremely concerned that currently only 60 percent of drivers involved 
in fatal crashes are tested to determine if alcohol was involved.
    MADD is the largest victims' assistance organization in the Nation. 
MADD serves victims who have lost family members in alcohol-related 
crashes, regardless of the BAC levels involved, and regardless of who 
was killed in the crash (ie, the drunk driver or an innocent motorist).
    The alcohol beverage industry points out in their testimony the 
following (using the year 2000 as an example):

    A breakdown of the 17,448 deaths includes:

  <bullet> About 2,500 to 3,500 crash deaths in which no driver was 
        legally drunk but alcohol was detected.

  <bullet> 1,770 deaths involved drunk pedestrians killed when they 
        walked in front of sober drivers.

  <bullet> About 8,000 deaths involved only a single car and in most of 
        those cases the only death was the drunk driver.

  <bullet> That leaves about 5,000 sober victims killed by legally 
        drunk drivers.

    MADD's analysis of these numbers shows that the alcohol beverage 
industry is attempting to manipulate the data:

  <bullet> ``Legally drunk'' in many states at the time the 2000 data 
        was collected meant a BAC of .10 or higher. In 2000 the .08 
        national standard was signed into law. In 2000 there were 18 
        states that had an illegal per see .08 law, and today there are 
        40 and counting.

  <bullet> While a concern, the number of pedestrian crashes in which 
        the pedestrian was drunk makes up a very small portion of the 
        overall alcohol-related number. Because pedestrian crashes are 
        included in the overall alcohol-related number, MADD and other 
        safety groups are careful to cite the overall number as 
        ``alcohol-related,'' and not ``drunk driving'' or ``impaired 
        driving'' deaths.

  <bullet> Families grieve for the loss of their loved one regardless 
        of whether the person killed was the drunk driver or an 
        innocent motorist. This alcohol industry comment is extremely 
        offensive.

  <bullet> It is most difficult for many families and loved ones to 
        make sense of the tragedy of losing a sober victim killed in an 
        alcohol-related crash. These stories most often make headlines 
        because of the random nature and timing of death.

    Highway fatalities in America will not be reduced, as the alcohol 
beverage industry contends, by lowering the legal drinking age, raising 
the amount of alcohol that a person may consume before driving, or by 
eliminating sobriety checkpoints. As their testimony attests, the 
industry's latest effort is to discredit the manner in which NHTSA 
defines and tabulates ``alcohol-related'' crashes. Research from DOT 
and the Department of Health shows that the risk of being involved in a 
crash increases significantly starting at low BAC levels. Not 
surprisingly, the risk of being involved in a traffic crash rises 
rapidly with the amount of alcohol consumed.

    Question 5. Considerable progress has been made over the past 
decades in reducing highway fatalities, but this progress has slowed in 
the last few years. In fact, the number of fatalities has increased 
recently. What are the reasons for this spike?
    Answer. Between 1980--the year MADD was founded--and 1994, alcohol-
related traffic deaths dropped by a dramatic 43 percent. However, for 
the third consecutive year, alcohol-related traffic deaths have 
increased. Preliminary statistics show that nearly 18,000 people were 
killed and hundreds of thousands more were injured in these crashes 
just last year. According to DOT, in 2000 alcohol-involved crashes 
accounted for 21 percent of nonfatal injury crash costs, and an 
overwhelming 46 percent of all fatal injury crash costs. In order to 
reverse this trend, the Nation cannot maintain the status quo and 
expect a different result. The main reason for the increase is that the 
Nation has become complacent about alcohol-impaired driving--many think 
that the war has been won.
    The nation's effort to stop alcohol-impaired driving must be 
reenergized. We must deter people from drinking and driving to begin 
with, (via enforcement efforts and priority traffic safety laws) and 
for those who continue to drink and drive, the judicial system must 
work better to ensure that offenders do not continuously fall through 
the cracks (see S. 1141--targeting high BAC and repeat offenders).
    In response to the spike in alcohol-related traffic deaths, MADD 
convened a National Impaired Driving Summit to bring together leading 
experts to identify the most effective countermeasures to significantly 
cut alcohol-related traffic deaths and injuries. The Summit 
recommendations are an attempt to counter the causes of the stagnation 
and recent increases. The recommendations are:

  <bullet> Resuscitate the Nation's efforts to prevent impaired driving 
        by re-igniting public passion and calling on the citizens and 
        the Nation's leaders to ``Get MADD All Over Again.''

  <bullet> Increase DWI/DUI enforcement, especially the use of 
        frequent, highly publicized sobriety checkpoints, which have 
        been proven one of the most effective weapons in the war on 
        drunk driving.

  <bullet> Enact primary enforcement seat belt laws in all states 
        because seat belts are the best defense against impaired 
        drivers. MADD recommends the Federal government give states a 
        brief incentive period, followed by withholding Federal highway 
        funds from states that do not enact primary belt laws.

  <bullet> Enact tougher, more comprehensive sanctions geared toward 
        higher-risk drivers--repeat offenders, drivers with high blood-
        alcohol levels, and DWI offenders driving with suspended 
        licenses.

  <bullet> Develop a dedicated National Traffic Safety Fund to support 
        ongoing and new priority traffic safety programs.

  <bullet> Reduce underage drinking--the No. 1 youth drug problem--
        through improving minimum drinking age laws, adopting tougher 
        alcohol advertising standards and increasing enforcement and 
        awareness of laws such as ``zero tolerance drinking-driving'' 
        and sales to minors.

  <bullet> Increase beer excise taxes to equal the current excise tax 
        on distilled spirits. Higher beer taxes are associated with 
        lower rates of traffic fatalities and youth alcohol 
        consumption.

  <bullet> Reinvigorate court-monitoring programs to identify 
        shortcomings in the judicial system and produce higher 
        conviction rates and stiffer sentences for offenders.

    Question 6. The lack of progress in reducing highway fatalities is 
especially frustrating in light of the billions of dollars that have 
been spent on highway safety and infrastructure improvements under TEA-
21. As we move forward and reauthorize these programs, where should we 
make future safety improvements to ensure sustained programs?
    Answer. Funding is an important factor in the success of national, 
state and local traffic safety programs to reduce drunk driving. In 
2001, while the economic cost of traffic crashes was $230 billion, the 
Federal government spent only $522 million on highway safety and only 
one-quarter of that was used to fight impaired driving. Compared to the 
financial and human costs of drunk driving, our Nation's spending is 
woefully inadequate to address the magnitude of this problem.
    What MADD found, under TEA-21, was that much of the funding labeled 
as ``safety'' was diverted to construction ``safety'' programs. 
Although alcohol is a factor in 42 percent of all traffic deaths, only 
26 percent of all highway safety funding available to the states 
through TEA-21 was spent on alcohol-impaired driving countermeasures. 
In addition, funding dedicated to address behavioral traffic safety 
programs was often spent on programs that failed to reflect the true 
nature of a state's highway safety concerns.
    It is just as important to know where the money is going and how it 
is being spent. That is why MADD is asking Congress to hold states and 
the National Highway Traffic Safety Administration accountable for the 
expenditure of Federal highway safety funds. Our goal is not to make 
their jobs more difficult. It is to recognize that political pressures 
and ``flavor of the month'' traffic safety issues can influence how 
dollars are spent. If DOT's primary goal is to reverse the current 
trend, it is time to create a more consistent process that ensures the 
efficient and proper use of Federal funds to help the Nation achieve 
its highway safety goals.
    For these reasons, MADD's reauthorization proposal calls for 
increased funding for proven, science based countermeasures and greater 
accountability for the expenditure of Federal highway safety funds to 
achieve sustained progress in reducing traffic deaths and injuries.

    Question 7. The Administration's SAFETEA proposal would consolidate 
some programs and give states greater flexibility on spending decisions 
by allowing the movement of funds between parts of Section 402 programs 
and highway construction programs. What are the advantages and 
disadvantages to this approach?
    Answer. States overwhelmingly choose to shift behavioral traffic 
safety funding to construction when given ``flexibility.'' According to 
the General Accounting Office, states shifted 69 percent of the open 
container and repeat offender transfer funds (FY01-02) to roadway 
construction under FHWA's Hazard Elimination Program. The overwhelming 
majority of ``safety'' funding in the ``SAFETEA'' proposal is budgeted 
in the new ``Highway Safety Improvement Program'' (HSIP), which is 
really a highway construction safety program. In 2004 alone, $1 billion 
is allocated to the HSIP program. These funds are to be used for 
``safety improvement projects,'' defined below.

        A safety improvement project corrects or improves a hazardous 
        roadway condition, or proactively addresses highway safety 
        problems that may include: intersection improvements; 
        installation of rumble strips and other warning devices; 
        elimination of roadside obstacles; railway-highway grade 
        crossing safety; pedestrian or bicycle safety; traffic calming; 
        improving highway signage and pavement marking; installing 
        traffic control devices at high crash locations or priority 
        control systems for emergency vehicles at signalized 
        intersections, safety conscious planning and improving crash 
        data collection and analysis, etc.

    MADD sees no advantage to allowing states to be able to shift 
behavior funds to construction. On the contrary, the failure to 
allocate funds to address proven impaired driving countermeasures, such 
as law enforcement mobilizations, is likely an important factor in 
recent increases in alcohol-related traffic deaths. Given that human 
factors account for the majority of traffic crashes, it is difficult to 
understand the vastly disproportionate funding levels for behavioral 
versus roadway construction safety programs and why DOT allows a 
significant portion of the behavioral funds to be used to augment even 
more roadway construction spending.

    Question 8. As Congress seeks to encourage states to reduce their 
traffic-related fatalities through various programs, it can choose to 
provide incentive grants or it can choose to penalize states for not 
adopting highway safety laws. Which approach is more effective?
    Answer. Penalizing states is clearly the more effective approach to 
encourage states to adopt proven highway safety laws. While incentive 
programs have had some success, it is clear that--particularly with 
alcohol-related traffic laws--penalties have shown greater results than 
incentives. DOT estimates that the 21 Minimum Drinking Age (MDA) law 
has saved thousands of lives since the national standard was put in 
place in 1984. A national zero tolerance standard for youth, adopted by 
Congress is 1995, was also successful in getting states to enact better 
laws for underage drivers. Clearly the national .08 BAC standard, 
enacted in 2000, has been much more effective than the TEA-21 incentive 
program. Under the incentive program, only two states passed .08 BAC 
laws. Since the national .08 standard was enacted, 22 states have 
passed this important law.

    Question 9. What are the major items in SAFETEA that you like about 
the proposal and what, in your view, should be reconsidered? Are there 
aspects of highway safety that the proposal does not address?
    Answer. SAFETEA provides major increases in construction safety 
while flat-funding or even cutting behavioral safety programs. This is 
puzzling since GAO just recently reiterated what the traffic safety 
community has known for years--that human behavior (not roadway 
environment) is the leading factor in crash causation.
    Although alcohol-related traffic deaths have increased for the past 
three years, SAFETEA significantly decreases funding for alcohol-
impaired programs. SAFETEA proposes a specific impaired driving program 
of only $50 million, far less than current funding levels. In FY03, 
TEA-21 authorized $150 million for alcohol-impaired driving 
countermeasures and contained requirements for states to enact repeat 
offender and open container laws. Not only does SAFETEA cut specific 
impaired driving funding to $50 million, it fails to include incentives 
to states to enact effective alcohol-impaired driving countermeasures.
    While the Administration claims that reducing alcohol-related 
traffic fatalities is a top priority, the SAFETEA proposal fails to 
include funding for proven countermeasures. Although law enforcement 
efforts, such as paid media blitzes coupled with enforcement efforts 
like sobriety checkpoints and saturation patrols, have been proven to 
be extremely effective, SAFETEA does not incorporate these obvious 
solutions.
    MADD believes that progress will occur when adequate funding is 
provided for traffic safety programs and when a commitment is made to 
put proven impaired driving countermeasures, such as law enforcement 
mobilizations, into place. There must be improved accountability on the 
national, regional and state levels to ensure that Federal funds are 
being used in a strategic and coordinated effort. The reauthorization 
provides Congress with the opportunity to encourage states to enact 
priority traffic safety laws--such as primary seat belt enforcement, 
higher-risk driver and open container standards--as well as to ensure 
that effective behavioral traffic safety programs are being carried 
out.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
